<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________

                    SUBCOMMITTEE ON HOMELAND SECURITY
                 DAVID E. PRICE, North Carolina Chairman
 JOSE E. SERRANO, New York          HAROLD ROGERS, Kentucky
 CAROLYN C. KILPATRICK, Michigan    JOHN R. CARTER, Texas
 CIRO RODRIGUEZ, Texas              ROBERT B. ADERHOLT, Alabama
 NITA M. LOWEY, New York            KAY GRANGER, Texas
 CHET EDWARDS, Texas                JOHN E. PETERSON, Pennsylvania
 LUCILLE ROYBAL-ALLARD, California  JOHN ABNEY CULBERSON, Texas   
 SAM FARR, California               
 CHAKA FATTAH, Pennsylvania         

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
      Beverly Pheto, Stephanie Gupta, Jeff Ashford, Shalanda Young,
                       Jim Holm, and Adam Wilson,
                            Staff Assistants
                                ________
                                 PART 5
                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Immigration Enforcement: Identification and Removal of Criminal 
Aliens, Student and Exchange Visitor Program Fee Increases........    1
 Citizenship and Immigration Services: Legal Immigration and 
Refugee Processing................................................  267
 Department of Homeland Security Fiscal Year 2009 Budget Request..  367

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
    PART 5--DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2009
                                                                      ?
?
                                                                      ?

        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________
                    SUBCOMMITTEE ON HOMELAND SECURITY
                 DAVID E. PRICE, North Carolina Chairman
 JOSE E. SERRANO, New York          HAROLD ROGERS, Kentucky
 CAROLYN C. KILPATRICK, Michigan    JOHN R. CARTER, Texas
 CIRO RODRIGUEZ, Texas              ROBERT B. ADERHOLT, Alabama
 NITA M. LOWEY, New York            KAY GRANGER, Texas
 CHET EDWARDS, Texas                JOHN E. PETERSON, Pennsylvania
 LUCILLE ROYBAL-ALLARD, California  JOHN ABNEY CULBERSON, Texas   
 SAM FARR, California               
 CHAKA FATTAH, Pennsylvania         

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
      Beverly Pheto, Stephanie Gupta, Jeff Ashford, Shalanda Young,
                       Jim Holm, and Adam Wilson,
                            Staff Assistants
                                ________
                                 PART 5
                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Immigration Enforcement: Identification and Removal of Criminal 
Aliens, Student and Exchange Visitor Program Fee Increases........    1
 Citizenship and Immigration Services: Legal Immigration and 
Refugee Processing................................................  267
 Department of Homeland Security Fiscal Year 2009 Budget Request..  367

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 43-385                     WASHINGTON : 2008

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    RALPH REGULA, Ohio
 MARCY KAPTUR, Ohio                 HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana        FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York            JAMES T. WALSH, New York
 JOSE E. SERRANO, New York          DAVID L. HOBSON, Ohio
 ROSA L. DeLAURO, Connecticut       JOE KNOLLENBERG, Michigan
 JAMES P. MORAN, Virginia           JACK KINGSTON, Georgia
 JOHN W. OLVER, Massachusetts       RODNEY P. FRELINGHUYSEN, New Jersey
 ED PASTOR, Arizona                 TODD TIAHRT, Kansas
 DAVID E. PRICE, North Carolina     ZACH WAMP, Tennessee
 CHET EDWARDS, Texas                TOM LATHAM, Iowa
 ROBERT E. ``BUD'' CRAMER, Jr.,     ROBERT B. ADERHOLT, Alabama
Alabama                             JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island   KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York       JOHN E. PETERSON, Pennsylvania
 LUCILLE ROYBAL-ALLARD, California  VIRGIL H. GOODE, Jr., Virginia
 SAM FARR, California               RAY LaHOOD, Illinois
 JESSE L. JACKSON, Jr., Illinois    DAVE WELDON, Florida
 CAROLYN C. KILPATRICK, Michigan    MICHAEL K. SIMPSON, Idaho
 ALLEN BOYD, Florida                JOHN ABNEY CULBERSON, Texas
 CHAKA FATTAH, Pennsylvania         MARK STEVEN KIRK, Illinois
 STEVEN R. ROTHMAN, New Jersey      ANDER CRENSHAW, Florida
 SANFORD D. BISHOP, Jr., Georgia    DENNIS R. REHBERG, Montana
 MARION BERRY, Arkansas             JOHN R. CARTER, Texas
 BARBARA LEE, California            RODNEY ALEXANDER, Louisiana
 TOM UDALL, New Mexico              KEN CALVERT, California
 ADAM SCHIFF, California            JO BONNER, Alabama                 
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              

                  Rob Nabors, Clerk and Staff Director

                                  (ii)

 
        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2009

                              ----------                              

                                        Tuesday, February 26, 2008.

IMMIGRATION ENFORCEMENT: IDENTIFICATION AND REMOVAL OF CRIMINAL ALIENS, 
           STUDENT AND EXCHANGE VISITOR PROGRAM FEE INCREASES

                               WITNESSES

CATHERYN COTTEN, DIRECTOR, INTERNATIONAL OFFICE, DUKE UNIVERSITY
JULIE L. MYERS, ASSISTANT SECRETARY, U.S. IMMIGRATION AND CUSTOMS 
    ENFORCEMENT [ICE], DEPARTMENT OF HOMELAND SECURITY

                  Opening Statement of Chairman Price

    Mr. Price. Subcommittee will come to order. Good morning, 
everyone. Today we will be discussing the wide variety of 
activities carried out by Immigration and Customs Enforcement, 
or ICE, and we will first focus on the Agency's Student and 
Exchange Visitor Program. 
    We will hear testimony about this program from Ms. Catheryn 
Cotten, the Director of the International Office at Duke 
University, and we will then have time for a round of 
questions. Then we will hear testimony about the overall range 
of ICE's programs from Assistant Secretary Julie Myers. We will 
then have time to ask Ms. Myers questions about the Agency's 
2009 budget and her goals for ICE over the next year.
    In our post-9/11 world, ICE has an extremely important 
mission. It has broad responsibility for enforcing customs and 
immigration laws including the prosecution and removal of those 
found in violation of immigration statutes. While other areas 
of the Department are focused on preventing unlawful entry into 
the United States, ICE has what is perhaps the even more 
difficult job of finding and removing illegal aliens once they 
have blended into the population.
    Given the important role ICE plays, we will want to hear 
why the Agency's 2009 budget request is only $4.7 billion or 
one-quarter of one percent more than provided for 2008, far 
below the rate of inflation. I want to start out, however, by 
highlighting an area in which ICE has clearly made good 
progress.
    Two years ago ICE's financial audit showed material 
weaknesses in all eight areas reviewed. I want to congratulate 
Ms. Myers and her financial management staff for eliminating 
all of those material weaknesses in the 2007 audit. I trust 
that they will continue to work hard to correct the remaining 
financial system security deficiencies.
    ICE continues to face numerous challenges in other areas. 
This subcommittee has high expectations for what can be 
achieved before the transition to the next administration. 
Chief among our interests is ICE's ability to identify and 
remove every criminal held in penal custody and judged 
deportable.
    As our listeners may know, we made this goal the 
centerpiece of the fiscal 2008 appropriations law, and we 
continue to believe that it should be ICE's top priority. In 
2006, the DHS Inspector General reported there were over 
600,000 criminal aliens held in U.S. custody but largely 
unknown to ICE, yet today, ICE is not able to guarantee that 
all incarcerated criminals without the right to remain in the 
U.S. will be removed from the country upon their release or 
parole.
    For 2008, this subcommittee provided ICE $200 million for 
the comprehensive identification and removal of criminal 
aliens, and ICE is required to report to the committee by March 
25, less than one month from now, on how this funding is being 
used. We want to hear from Ms. Myers about the progress that 
has been made in planning for this initiative.
    In 2008, the subcommittee also provided significant support 
for ICE to expand its detention capacity, more than quadrupling 
last year's request for additional beds, and increasing ICE's 
detention capacity by 4,500 spaces to 32,000 beds overall. This 
continues the example set in the previous Congress.
    Since 2006, in fact, the subcommittee has increased ICE 
detention capacity by a dramatic 56 percent. We need to ensure 
that this expansion is accompanied by equally robust oversight 
of detention standards, and particularly, the committee is 
concerned about the treatment of children and other vulnerable 
individuals in ICE custody.
    The largest increase proposed in the 2009 ICE budget is for 
1,000 additional detention beds. Last year the committee 
discovered that ICE had been forced to request a budget for 
detention beds that did not meet its operational detention 
needs, so we will be asking Ms. Myers for assurance that the 
budget requested for detention in 2009 reflects the best 
operational estimate the Agency has for needs in the coming 
fiscal year.
    An important security responsibility at ICE is the 
protection of federal offices by the Federal Protective 
Service, or FPS. GAO reported that the capabilities of FPS have 
deteriorated so significantly that federal buildings ``face a 
greater risk of crime or terrorist attack.'' This must be 
corrected. The committee mandated additional FPS hiring in the 
2008 omnibus bill, which we will certainly discuss today.
    The Student and Exchange Visitor Program is another 
important component of ICE's domestic activities. This 
program's mission is to ensure that foreign students and the 
educational institutions they attend are legitimate and do not 
offer opportunities for terrorists or other exploitation.
    ICE has proposed doubling the revenues collected from 
foreign students and educational institutions to increase 
associated enforcement, to improve institutional support and 
outreach, and to develop a replacement data system critical to 
the program. Coincident with protecting our country, however, 
we must be careful not to send a signal to the students, 
researchers and academics throughout the rest of the world that 
the United States no longer welcomes them.
    The 9/11 Commission Report recommended, ``rebuilding the 
scholarship, exchange and library programs that reach out to 
young people and offer them knowledge and hope'', as a part of 
a strategy to counter cultural causes of terrorism. On a 
subcommittee overseas delegation to the Middle East in January, 
foreign ministers in Egypt and Oman emphasized how a reduction 
in student exchanges with the United States negatively affects 
their countries.
    Perhaps more critically for us, however, it also harms the 
global image and perception of our country abroad. After DHS 
and the State Department revised the student visa process in 
2003, foreign enrollment fell by more than 20,000 students 
nationwide for the 2005/2006 academic year. Fortunately, 
foreign enrollment is once again increasing and has almost 
reached the historic highs set in the 2002/2003 academic year.
    But higher fees and negative perceptions about a planned 
expansion of ICE enforcement risks sending the wrong message to 
those who wish to come to this country for educational 
purposes. To discuss this issue and open our hearing this 
morning we welcome before us Ms. Catheryn Cotten, the Director 
of the International Office for Duke University and the Duke 
Medical Center.
    Ms. Cotten is a constituent of mine, I am proud to say, but 
she was recommended to the subcommittee by the Association of 
American Universities. Ms. Cotten is an expert on international 
student visa issues and has worked with DHS since it first 
established the programs to monitor international students and 
exchange visitors.
    So we look forward to exploring the implication of ICE's 
new proposal with you, Ms. Cotten, and we appreciate your 
traveling here to be with us today. So we will hear from you in 
just a moment. Let me first turn to my colleague, Ranking 
Member Hal Rogers, for his remarks, after which we will have 
five minutes for your testimony, Ms. Cotten, and then time for 
questions.

               Opening Statement of Ranking Member Rogers

    Mr. Rogers. Thank you, Mr. Chairman, and welcome to Ms. 
Cotten and Assistant Secretary Myers. First, a few words about 
ICE. In many ways, the recent history of ICE epitomizes the 
maturation and development of DHS itself. It was just a few 
years ago that ICE was suffering from what I would call an INS 
hangover as the Agency was failing to meet its mission 
requirements, unable to hire critical personnel and was found 
to be deficient in virtually all aspects of its financial and 
budgetary systems.
    Now, just three years later, ICE is meaningfully 
contributing to significant improvements in our border 
security, sustaining the practice of catch and return, 
vigorously enforcing immigration and customs laws, keeping pace 
toward hiring additional special agents and immigration 
enforcement officers, and just recently cleared its material 
weaknesses and obtained a clean financial audit.
    Assistant Secretary Myers, this turnaround is a testament 
to your leadership as well as to the perseverance and 
dedication of the men and women at ICE. In many ways, you all 
have weathered the onslaught of challenges and helped ICE begin 
to meet our expectations as the second largest law enforcement 
agency in the federal government and the largest investigative 
component within DHS.
    But before I congratulate you too much I must offer a bit 
of caution. I do not have to tell anyone here that the very 
nature of this mission requires constant vigilance and 
continuous improvement. Allowing the wrong person with the 
wrong motives into our country can have dire consequences. Our 
recent past reminds us of this.
    ICE must build upon its contributions to the Secure Border 
Initiative and never again return to the flawed and defeatist 
practice of catch and release. ICE must expand efforts to 
disrupt and arrest the heinous perpetrators of transnational 
crimes, such as internet pornography exploitation, human 
smuggling and money laundering.
    ICE must ensure sufficient resources are devoted to customs 
enforcement to protect our economy. I am pleased to see the 
fiscal 2009 request does just that. Finally, as our terrorist 
adversaries search for less obstructive means of entry into the 
country, ICE must rise to the challenge of preventing abuse of 
programs, like the Student and Exchange Visitor Program and 
Visa Waiver Program.
    So to put it mildly, ICE must continue to improve. Far too 
much is at stake to fail. After all, it was James Madison who 
noted America's, ``indebtedness to immigration for her 
settlement and prosperity'', and it was Lincoln who noted that 
not even the Civil War could stop immigrants from seeking the 
gold and silver that waits for them in the west.
    So I see ICE as a fulcrum in the balance between legitimate 
travel and trade upon which our country depends with that of 
the security that has become an unquestioned necessity in the 
post-9/11 world, a role that is as challenging as they come.
    Assistant Secretary Myers, you know the stakes, you know 
the challenges. Today, I am interested in hearing how ICE is 
meeting this challenge and how this budget request moves ICE 
forward. As for our discussion today on student visas, I look 
forward to hearing how ICE can improve its service to academia 
while also providing the security that is necessary.
    After all, we must never forget that all of the 9/11 
hijackers exploited legal means of immigration, including 
tourist and student visas. I certainly appreciate the fact that 
our academic institutions heavily rely upon the contributions 
of international students and scholars. Several of us on this 
subcommittee have learned firsthand about the diplomatic value 
of international students in exchanges with leaders from the 
Middle East.
    After 9/11, our student visa programs required reinvention, 
for lack of a better term, because these programs lacked 
controls aimed at protecting us from terrorism, let alone 
sufficient mechanisms to ensure visa holders were, in fact, 
bona fide students. So I believe I state the obvious when I say 
there must be a balance between the needs of our institutions 
of higher learning and that of security.
    The challenge of course is for ICE to execute its Student 
and Exchange Visitor Program in a way that effectively 
maintains the records of legitimate visiting students and 
scholars but does not create undue burdens upon them or host 
schools. Therefore, I am encouraged by ICE's recent 
improvements to improve its service to academia as well as to 
the security surrounding all aspects of student visas.
    In closing, I want to be very clear about this. I certainly 
see the value in the over 673,000 active students attending 
over 9,200 higher education institutions throughout the U.S. 
These are our world's medical researchers, future civil 
engineers, teachers, scientists, diplomats.
    I am not necessarily concerned about the hundreds of 
thousands of legitimate nonimmigrant students who seek to 
enrich their educational experience. I am, however, very 
concerned about the one individual, the wrong individual with 
the wrong motive, seeking to do us harm. In closing, I welcome 
our witnesses here today.
    I look forward to hearing how ICE can improve its 
management of the Student and Exchange Visitor Program as well 
as improve its larger contributions to our homeland security.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you very much, Hal.
    Ms. Cotten, please proceed.

  Statement of Catheryn Cotten, Director, International Office, Duke 
                               University

    Ms. Cotten. Chairman Price and Ranking Member Rogers, I 
really appreciate the opportunity to be here and to testify on 
behalf of Duke University. I cannot speak for all of the higher 
education institutions in the U.S., but I can tell you that we 
are sharing similar experiences with our international students 
and scholars.
    I am especially pleased to hear that you were visiting 
earlier this year with leaders in the Middle East. I was there 
with a Duke group a few years ago in Egypt and Jordan, and even 
then, when 9/11 was fresher, there was the interest in coming 
to the U.S. and the assumption that the U.S. had a democratic 
system that allowed its citizens to speak to its leaders.
    I remember sitting outside the Cairo Museum speaking with a 
young man who said, you tell your President, and he gave me a 
list of things for me to go back and tell my President, because 
he believed that was possible in America, that I could come 
back and talk to my President. And so we do appreciate from the 
education community that our members of Congress are going out 
and making those contacts and seeing those relationships.
    At Duke in the SEVIS Program we have about 1,900 
international students. Those are F-1 students primarily. 
Probably a couple of hundred of those are on optional practical 
training, which means that they have graduated but they are 
still our responsibility under SEVIS for as long as they are in 
optional practical training.
    So even after they graduate we are requiring them to report 
addresses and so on, and we are keeping those contacts valid. 
We have about 600 J-1s who are generally the professors, the 
researchers, the people in short-term scholars, specialists and 
so on. Those would be in the J-1 program under SEVIS, and we 
can talk more about them later if you would like.
    I would like to speak about the recommendations for fee 
increases and to say that we understand that it takes money to 
do what ICE has proposed. Certainly an improved computer 
system, improved access to data, is something that we all need. 
An increase of 100 percent for the SEVIS fee from $100 to $200 
is not trivial.
    People think of universities like Duke, how much could $100 
be, but there are students all over the country for whom that 
is a great deal of money. That is as much as it costs to make 
the trip all the way to the Embassy, and this fee is generally 
not refundable. So they pay the fee, and then they go to the 
Embassy, and then because of the nonimmigrant intent that is 
part of the F-1 and J-1 student status they are denied visas 
and not permitted to come.
    And so they have not only spent that money, but they have 
spent it in their minds for nothing, and they come away with an 
even worse feeling about America. So we would certainly 
encourage careful thought about doubling that fee. We are also 
concerned about the monies that the schools will be paying.
    We know that we have not been paying that for a number of 
years for the recertification. We will be doing that now. 
Certainly no university in America can say please charge us 
more. We have to be careful with all of our money. We would 
like to see appropriate benefits from that additional money. 
Also, we would like to see a use of funds that is efficient and 
effective.
    Most of our schools, most of the colleges and universities, 
are already verified, certified, accredited, such as through 
the financial aid system through the Department of Education, 
and so there is really no need to go back and reinvent the 
wheel on that part of our educational credentials at most of 
the universities.
    That could be done easily through data comparisons, through 
getting that information from other sources where it is already 
available.
    In terms of working with us to do the recertifications we 
would certainly appreciate any help that we could get, but the 
recertifications, for the most part, are happening as we move 
along, and so the need to spend a lot of energy on a specific 
recertification is probably not as high as one might think 
because we are reporting in our institutions not only about the 
students but about changes to our institutions through the 
SEVIS system, through the I-17s and through the J program, 
similarly.
    So as things change at our institution we are making those 
reports. So we would encourage the use of information already 
available and not doing double work that does not need to be 
done in this process. The local area liaison officers that are 
being suggested we think would be wonderful if they can give us 
the kind of assistance that we need to deal with other 
bureaucracies.
    We are having difficulties in connections of data with 
social security, for example. We would like to be sure that in 
general we get value for the dollar, that we are getting 
reports that normally could come out of SEVIS but now we are 
preparing separately for IIE, that we have access to 
information, that students, in particular, have access to their 
own information, that they be able to go into SEVIS and see 
that they are in status and what their history is, and that 
schools be able to do that as well.
    In conclusion, Duke has a recordkeeping system. Since the 
days of CIPRIS, we were one of the 21 schools in that 
development, and we had great hopes for it at that time. 
Certainly, the events of 9/11 changed the direction in which we 
had to go, and we had to put aside some of the enhancements 
that we would have expected to have had there not been a 9/11 
event.
    We would encourage that ICE move forward with those 
enhancements as they were planned at that time. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T3385A.001
    
    [GRAPHIC] [TIFF OMITTED] T3385A.002
    
    [GRAPHIC] [TIFF OMITTED] T3385A.003
    
    [GRAPHIC] [TIFF OMITTED] T3385A.004
    
    [GRAPHIC] [TIFF OMITTED] T3385A.005
    
    [GRAPHIC] [TIFF OMITTED] T3385A.006
    
    [GRAPHIC] [TIFF OMITTED] T3385A.007
    
    [GRAPHIC] [TIFF OMITTED] T3385A.008
    
    [GRAPHIC] [TIFF OMITTED] T3385A.009
    
    [GRAPHIC] [TIFF OMITTED] T3385A.010
    
    [GRAPHIC] [TIFF OMITTED] T3385A.011
    
    [GRAPHIC] [TIFF OMITTED] T3385A.012
    
    [GRAPHIC] [TIFF OMITTED] T3385A.013
    
    [GRAPHIC] [TIFF OMITTED] T3385A.014
    
                  BALANCING SECURITY AND STUDENT NEEDS

    Mr. Price. Thank you very much. We will put your entire 
statement in the record, which of course elaborates on the 
points you made and goes beyond them. Let me ask you first a 
rather broad question, and then I will zero in somewhat on the 
fee increases and the benefits that might accrue from an 
increased flow of fee revenue.
    In general, and you gave us a statement very close to the 
ground in terms of specific policy changes or proposed changes, 
but could you just back up a little bit and help us understand 
what is at stake here? We of course have done some necessary 
things since 9/11 to increase security, and increase 
enforcement activity, and to make sure that international 
students are who they say they are, and that the institutions 
are legitimate. But there has come with that certain negative 
perceptions and some rather bureaucratic practices which we 
have all heard about in our offices, particularly those of us 
who represent higher education constituencies. How are we doing 
now in striking the balance that needs to be struck? What more 
can we do or should we do to ensure that U.S. programs remain 
the top choices for foreign students while ensuring security?
    Ms. Cotten. Thank you. Some of these recommendations will 
go beyond the areas of ICE and SEVIS. I think certainly at this 
moment one of the things that keeps people out of the country 
is the nonimmigrant intent issue, that students and scholars 
have to prove that they intend to return home when they have 
finished their education, or their research, or their teaching.
    This is part of the law at this point. We could look at 
regulations or at instructions to consular posts that would 
look at the nonimmigrant intent issue differently since 
nonimmigrant intent is the most common reason for visa denials. 
It is certainly the most common reason for denials for the 
international students and scholars. So that is an area of 
concern.
    Then certainly when people get to the United States they 
are afraid to travel. They are afraid that if they go out they 
will not be able to get a visa to come back, or if they leave 
and they take not just a few days of a scientific meeting but 
maybe many weeks or months, to get visas to come back. We would 
encourage that since we are collecting data in SEVIS, that we 
have this information available, that we do visa extensions in 
the U.S.
    Once a person gets here there should be a way to manage 
that before they leave, particularly since we are reporting 
data on all of these F and J students and scholars. It is 
available from other sources as well.
    That information could be combined and used in an efficient 
way to give visa stamps to people, or visa extensions, or 
whatever we would like to call it, before they leave the U.S. 
so that that is not one of the things that they need to worry 
about, plan for, or spend time on before they return. So those 
are areas that would be important.
    Those would send messages that say that the U.S. wants you 
here. Then, as people arrive, and these are small things but 
things that we talked about when we were planning CIPRIS and 
SEVIS earlier, is perhaps at ports of entry special lines that 
would say welcome, students and scholars, come over here and 
scan your documents through this line, at the major ports, so 
that there is a welcome rather than a suspicion implied.
    Whether or not that is the intent, that is the way that 
people sometimes see their experience coming in. In addition to 
that, just the fact that we are raising the fees sends a 
message. People hear about money, and they hear about fee 
raises. I mentioned in my comments that we are going to get a 
call from the BBC, and we will, we will get those calls at 
Duke, we will get them all over the country, when these fees go 
up and this information goes out.
    The message that gets out is a very short one. We are 
talking about media here, so the message that goes out is the 
U.S. has just doubled the fees for an international student or 
scholar to come to America. The next thing we get is a call 
saying why have you doubled the fees? They do not want to hear 
the discussion we are having here today on why that happens.
    What they hear is that the U.S. is now making it harder for 
those international students and scholars to get here. Then, 
after they arrive, in general, they must pay that SEVIS fee 
again if they go out and come into a different program, they 
graduate, they return. So some way to make that fee perhaps a 
lifetime fee or a tenure fee would help offset the negative 
feelings.

                 ANTICIPATED BENEFITS OF INCREASED FEES

    Mr. Price. Well, that does segue into what I would like to 
ask, and I am sure other members will elaborate on this, so 
maybe you can answer briefly and elaborate later. You have I 
think taken a reasonable stand here today on the fee question. 
You have made it clear that it is a serious matter to increase 
the fee on students or on institutions, and you have just now 
stressed the kind of negative signal that it sends.
    You have also said, as I understand you, that if the fees 
are to be increased we need to make sure that there is a 
commensurate improvement in the services rendered. Now, ICE 
says that they want to use the increased fees to expand 
enforcement efforts, to hire new support personnel to serve as 
liaisons to academic programs and to create a new database to 
replace the one currently used to track foreign students and 
exchange visitors.
    So what about those proposed uses of these revenues? One, 
given your experience with the Student Exchange Visitor Program 
today, will it be beneficial for ICE to hire field liaisons to 
work with academic programs? Two, what kind of relationship do 
you maintain with the compliance officers who enforce exchange 
visitor and student visa regulations? What impacts do you see 
for expanding this function? Do you believe it is possible for 
ICE to do so without disrupting academic programs? Three, what 
about the database? From your experiences with the initial 
deployment of the database, what improvements would you suggest 
so that the new system works properly upon its initial 
deployment?
    Ms. Cotten. I would like to know more about the mission of 
the liaison officers. As I mentioned earlier, once a school is 
certified and then moves on to recertification a lot of that 
work is done. So for colleges and universities this would to 
some degree be an exercise.
    If the liaison officers can help us solve problems where 
student requests are lost, where we have data that conflicts at 
social security, at CLAIMS, at SEVIS, those kinds of things, 
liaison officers who could be available and problem solving 
would be a tremendous benefit.
    If the purpose of the liaison officer is primarily to help 
us do certification and recertification, certainly new schools 
getting initial certification need a lot of help, and we think 
that would be appropriate. I do not know what the statistics 
are, and perhaps we can hear later from ICE, on how many 
applications they are getting to do initial certifications.
    I think with recertification, certainly for colleges and 
universities, there is a question of how much that would be 
needed. In terms of the database, we would like to see the 
database improved and to see articulation among the databases 
improved because we have students who, for example, cannot get 
social security cards because the data has not done its 
migration from one database to another, they cannot be 
identified, they maybe do not get paychecks for a month or 
more.
    This happens with students and with scholars. So in those 
areas of liaison, and database, and the ability to see better 
data, certainly we would like to see better information in the 
systems that serves the purpose of improving international 
student, scholar experiences, that would be very useful to us, 
and individuals in areas, liaison officers, who could improve 
that experience as well would be truly a benefit. We are just 
not sure of what that means right now.
    Mr. Price. Thank you. Mr. Rogers.

                 INTEGRITY OF THE STUDENT VISA PROCESS

    Mr. Rogers. Thank you. We appreciate your testimony. In the 
upgrade of SEVIS, so-called SEVIS II, is a recognition that 
there is a mutual interest in security that ICE I think is 
hoping to leverage in its upgrade to the SEVIS II system.
    In that, no university or college that is sponsoring 
foreign students and scholars wants to be seen as an enabler of 
terrorism or criminal behavior because certainly an abuse of 
the student visa program would almost certainly result in 
stricter controls, and higher costs, and all of that, so we all 
have a mutual interest in seeing that the program runs well.
    The SEVIS II system demands that participating students and 
scholars comply with specified data requirements and that 
schools meet the standards for hosting international students. 
The school recertification proposal within SEVIS II will 
probably provide the strongest means by which ICE can maintain 
the integrity of all schools. By the way, the latest count I 
have heard is there is 9,248 approved schools.
    So the need for recertification I think is evident. 
According to ICE they have investigated some schools that after 
acquiring certification knowingly accepted foreign students who 
failed to attend classes.
    In some cases, host institutions have assisted ICE in 
maintaining the integrity of nonimmigrant students; the highly 
publicized story in 2006 of the 11 Egyptian students who had 
received student visas to study in the U.S. but never showed up 
on campus or attended classes.
    In that case, Montana State University reported their 
absence through SEVIS, ICE agents were able to follow-up on 
investigations. So do you agree that there is a mutual interest 
both from the schools' point of view and from a security point 
of view that the student visa program needs to be clean as a 
houndstooth, so to speak?
    Ms. Cotten. I absolutely agree that the schools ought to 
operate with the interest of the security of the United States 
in mind. There is no question of that. To the extent that 
schools are not doing that, then I think we need to deal with 
those schools. When one talks about whether a student has 
appeared or is attending classes, currently in SEVIS we are 
required to report that a student has arrived and reported to 
class.
    We do this every semester and we do it each semester for 
students who are continuing, such that those students who 
either are not reported as present or have reported as not 
showing up, that information goes back to ICE so they will have 
that information from our schools each and every semester.
    That is a different discussion, though, than whether they 
are attending classes and what that may mean. Certainly, at a 
place like Duke, in general, we do not take attendance at 
classes, and this is true for foreign students and for domestic 
students. At colleges and universities the expectation is that 
you will attend classes as an adult and that you will appear 
for exams and so on.
    So we are not taking roll call as you might do in third 
grade. The expectation would be that the students would make 
reasonable progress towards their degrees. Certainly, if they 
are failing their courses, if they flunk out of school, they 
are reported to SEVIS as having done that.
    At the graduate level, if they are really not appearing and 
not functioning, normally their graduate advisers would be in 
touch and there would be involuntary withdrawals or 
recommendations that they move on to less rigorous programs. 
Again, we would make those reports in SEVIS. So certainly it is 
a partnership between the schools, and ICE and DHS to keep this 
program, as you said, as clean as a houndstooth, and I think it 
should be.
    We do need to talk about what that means, and what the 
expectations are and what the realities are.

                    ANTICIPATED BENEFITS OF SEVIS II

    Mr. Rogers. Could you briefly and concisely, even tersely, 
tell us what you think about SEVIS II, what you know about it, 
good, bad, indifferent?
    Ms. Cotten. I was privileged to be part of a stakeholders 
meeting last July in the development of SEVIS II. We have great 
hopes for it in the educational community, and there were a 
number of people from the educational community at this 
meeting. So assuming that it can do what we have heard that it 
can do we think that there can be great benefit for everyone in 
a new, more vigorous, more robust, more flexible SEVIS II 
system.
    What we would like to see as part of that system is more 
movement towards reporting by the schools and less with 
adjudications, particularly, for example, in the optional 
practical training area. Where there is now adjudication, we 
would prefer to see notification from the schools. So I think 
there is great hope, but I think we need to be careful of where 
it goes.
    Mr. Rogers. Thank you.
    Mr. Price. Mr. Rodriguez.

                    ESTIMATES OF STUDENT POPULATIONS

    Mr. Rodriguez. Thank you. Thank you very much, and thank 
you for being here. Let me make a couple of comments, and I 
want to ask you some questions. I know you have asked for some 
monies for cyber-related securities, which let me just 
reinforce at least from my perspective how important I feel 
about that, because I know you have money laundering that is 
occurring and a couple of other things in terms of fraud, and I 
wanted to just reinforce that, and I want to be able to, at a 
later date, come back, but I wanted to ask you, regarding the 
student--one of the things that I wanted to ask you, and maybe 
the second witness might be the most appropriate one, but I had 
heard the number of Saudis, that there were some 22,000 Saudis 
that had come in as students.
    Are you familiar with that? Do you have any information on 
that, in terms of how that came about, or?
    Ms. Cotten. Thank you for that question. In terms of 
numbers of students and scholars from the academic perspective, 
I think the Institute for International Education would have 
those numbers. In terms of immigration issues, I cannot speak 
to that, and I would leave that to Assistant Secretary Myers.
    Mr. Rodriguez. Who does the assessment of those students as 
they come in? Is it the FBI, or who checks them out?
    Ms. Cotten. What we understand from our students and 
scholars, certainly from the academic community's perspective, 
we would send a document to the student, and then that student 
or scholar would go to the embassy, and through the application 
process there, fingerprints, biometrics and so on, there would 
be a security clearance at that end, and again, Assistant 
Secretary Myers can speak to the details of that.
    Mr. Rodriguez. Okay, but she would be more appropriate for 
responding to those questions?
    Ms. Cotten. And then at the port of entry, there would be 
another review.
    Mr. Rodriguez. Who determines the percentage of nations in 
terms of who is allotted so many students, or that kind of 
thing? Is there a formula?
    Ms. Cotten. Very good question. Different schools have 
different goals. There is no national limit or--at least at the 
F-1 student/scholar level. Certainly for immigrant visas, that 
is true, but not for the student and scholar visas, and so you 
will find different institutions generally have different 
working relationships, so they may have built a very good 
working relationship with a school in Saudi Arabia, for 
example, and they bring in a lot of Saudi students, or they 
have a joint program with another country, as Duke does.
    We have a medical school that is a Duke medical school in 
Singapore, so we tend to have a lot of exchange with Singapore 
and also with China. So it is not----
    Mr. Rodriguez. So that is generated by the institutions, 
not by any formula that we might have that you might be aware 
of?
    Ms. Cotten. Yes. The people who come, the numbers and the 
home countries, and whether they are students or professors or 
researchers, are generally the result of what the institution 
believes is important for that institution.
    Mr. Rodriguez. Do you know of any problems that we might 
have had, as it relates to students, in terms of difficulties 
as it deals to securing, making sure that we have appropriate, 
you know, who would have that data? And anybody, for example, 
found that is questionable that we would have to deport, or the 
number of students that have applied and that we have denied?
    Ms. Cotten. Applying at the embassies and denials, that I 
think would be Department of State information on who has come 
in with documents from our school but they have been denied a 
visa stamp. Port of entry information, I think, would come from 
Homeland Security, and again, Assistant Secretary Myers can 
speak to that. We can tell you at our schools that, for 
example, every year, we have a few students to whom we offer 
admission and they cannot get visas.
    They generally cannot prove that they intend to go home, so 
it is the non-immigrant intent, as far as we know, the non-
immigrant intent issue, not the security issue, that prevents 
them from coming. We do deferrals hoping that they can have a 
little more time to get visa stamps and they are still denied, 
but the reasons for those are not made known to us, generally.
    Mr. Rodriguez. One last question, if I can. I was under the 
impression that prior to 9/11, we brought in some, you know, 
this is not necessarily students, but like 300,000 
professionals under a certain visa. Do you know the number of 
students that have actually come in and how it has changed from 
9/11 to now?
    Ms. Cotten. I am sorry, I do not have that information 
memorized, but the IIE Open Doors report tracks that every 
year, and that information is available in terms of students, 
scholars, professors, researchers, Fs and Js, and it is broken 
down in multiple categories, by country, by field of study, by 
whether they are graduates or undergraduate students. So that 
data is available.
    Mr. Rodriguez. Okay, but you do not know right off, in 
terms of whether there has been any major dramatic change?
    Ms. Cotten. I think what we have seen in general, certainly 
just after 9/11, there were issues with people being afraid to 
come. We have seen the numbers climb again, although not as 
quickly as they were climbing before 9/11, and what we have 
seen is not that the numbers are dropping, but rather that our 
market share is changing, and so the number of students 
available to come to the U.S. or elsewhere is high enough that 
we are still increasing, but other countries are also pulling 
students away from the U.S.
    Mr. Price. The gentleman's time has expired.
    Mr. Rodriguez. Thank you.
    Mr. Price. We do have this IIE data, which we will insert 
at this point in the record, that will indicate the trends the 
gentleman is inquiring about.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3385A.015
    
    Ms. Granger.
    Ms. Granger. I have no questions of this witness. Thank 
you.
    Mr. Price. Mr. Serrano.

              SECURITY REVIEWS IN THE STUDENT VISA PROCESS

    Mr. Serrano. Thank you, Mr. Chairman.
    Sometimes members are pretty sure that we know how a lot of 
these things work, only to be embarrassed in public in 
admitting we do not, so help me here. Someone is sitting 
somewhere in France, for instance, and wants to attend Duke. 
They decide over there that they want to attend Duke. Does our 
State Department, our government get involved before Duke does, 
or does it happen at the same time, or is it Duke that lets the 
State Department know or the Immigration Department know that 
this student is applying for Duke?
    Ms. Cotten. Very good question. Normally what will happen 
is that students will choose the schools to which they would 
like to apply, as any domestic student would. So they might 
apply to only one school in the U.S., they might apply to 
several, they might apply to schools around the world. Duke 
receives those applications and then we review them in the 
competitive manner and we make our selections. Once we have 
admitted a student, only then are we permitted to issue the I-
20, which is the document saying that they can come to the U.S. 
in F-1 status.
    So no one in the government, generally, would know about 
them at the application stage or at our review stage, but once 
we have done the admission and we have determined that that 
student needs a visa to come to the U.S., we would then issue 
the I-20 out of the SEVIS system, which would notify the 
federal government that Duke has admitted the student and that 
we have verified that they have adequate funding, that they are 
admitted competitively, that they have the background to come 
to Duke, and then that information, in theory, would go into 
the Homeland Security system and would then be available to the 
Department of State and to the consular officers abroad.
    We would then mail the document, the I-20, to the student, 
who would then take that, along with their ID information to 
the embassy, get the visa stamp and the passport, the embassy 
would do the appropriate security checks, they would then board 
a plane and come to the port of entry where their identity 
would be verified again, and after coming into the port of 
entry, they would report to the school, and upon reporting to 
the school, we would notify through SEVIS that they had indeed 
arrived and reported to the school as expected.
    Mr. Serrano. Okay. I am the easiest person in Congress when 
it comes to letting people come into the country. It gets me in 
trouble for saying that, but it is true. But yet, from what I 
hear from you, I have to ask the question, at what point do we 
find out if the person is a security risk to the nation?
    Ms. Cotten. In theory, that would happen first at the 
consular post, because the consular post would do an initial 
security background check. The student, any applicant for a 
visa has to fill out a list of----
    Mr. Serrano. That is prior to you knowing that they are 
applying?
    Ms. Cotten. No. They would apply first.
    Mr. Serrano. Okay.
    Ms. Cotten. And we would admit them based on their academic 
credentials.
    Mr. Serrano. Right.
    Ms. Cotten. That is what we know.
    Mr. Serrano. Right.
    Ms. Cotten. So we would do the admission and we would send 
them the document saying that academically, they are ready to 
come to the U.S. They would then take that documentation to the 
embassy or consulate to get their visa stamped, and they could 
not get the visa stamp until they had passed whatever security 
reviews were appropriate.
    Mr. Serrano. Okay. That is clear. Thank you.
    Mr. Price. Ms. Kilpatrick.

                  TRENDS IN FOREIGN STUDENT ENROLLMENT

    Ms. Kilpatrick. Good morning. You have been very 
instructive. Thank you very much. I come from Michigan, so Duke 
University and the Blue Devils have always been a burr in our 
side, but we like you. Go Blue too. So we like you. It has been 
very competitive over all these years.
    I want to ask a couple questions in terms of a trend as it 
relates to what is happening in terms of admissions at the 
university. I see your chart here. If you were to just gauge at 
your university over the last decade, have foreign admissions 
gone up or down and at what percent, if either?
    Ms. Cotten. Foreign admissions have gone up, and I think 
that would be true at many universities across the U.S. There 
were some difficulties after 9/11, but I think in general, if 
you would look at a decade, at the last 10 years, we have 
certainly seen admissions go up. At Duke, I would say in that 
time we have gone from maybe 6 percent of our population up to 
close to 10 percent of our student population being 
international. We have certainly seen the shifts that everyone 
has seen in terms of countries.
    Duke has a lot of students from China and Korea. We also 
have our share from Canada and Australia and so on, but you 
will see those trends across the U.S. in terms of the kinds of 
students who come here, and then what we see as well Duke, and 
I have to say, every school has its own reasons for why its 
trends appear the way they do, and Duke has been working on 
undergraduate financial aid, which has certainly increased the 
number of applications that we get from international students 
and scholars, so that they now have financially the opportunity 
to come to Duke as well----
    Ms. Kilpatrick. University-based financial aid?
    Ms. Cotten. Yes, university-based because they are not 
eligible for federal taxpayer financial aid, and we just got a 
$20 million grant from the Karsh family specifically devoted to 
undergraduate financial aid for international students.
    Ms. Kilpatrick. And are the Karsh family alumni?
    Ms. Cotten. Yes.
    Ms. Kilpatrick. Okay.
    Ms. Cotten. So we will expect then to see some shifts in 
trends in terms of the kinds of students that might not have 
considered us in the past because of the financial problems, 
that we may now see excellent students from families who can 
really take back a different view of America.
    Ms. Kilpatrick. I see. And you mentioned China and India. 
What are your top three countries who wish to come to Duke?
    Ms. Cotten. I would say right now our tops are probably 
China, India, and then it starts to sort of drift off after 
that. A fairly large Korean population, certainly the English-
speaking countries, if you bunched them all together, you get 
Canada, Australia, the UK.

           POST-EDUCATION OPPORTUNITIES FOR FOREIGN STUDENTS

    Ms. Kilpatrick. And do the students tend to go back to 
their countries after they have completed the Duke education?
    Ms. Cotten. Excellent question. I think you will find 
across the country that those students who are in the sciences 
will very often stay and do optional practical training. They 
have at least a year after they graduate to work in the U.S. 
and do optional practical training. I believe that there is 
consideration now at Homeland Security and in ICE to expand 
that to perhaps 29 months. I think many students do choose to 
stay for a period of time, and some will, in the sciences and 
in computer work and so on, will choose to stay and make 
careers here, but we also find that they like to keep contacts 
at home.
    We are seeing a global student, not just the international 
students, but our domestic students as well, and we are 
starting to see a population of students graduating who think 
of the world as where they work, and who will stay but also 
travel back and forth, build relationships.
    Ms. Kilpatrick. Global students, good word.
    Ms. Cotten. Yes, global students.

                     PURPOSE OF SEVIS FEE INCREASE

    Ms. Kilpatrick. That is a good word. And then lastly, the 
fee increase, the 100 percent increase. Are you recommending 
none, or that we do some part of that, or decrease it, or give 
us a little----
    Ms. Cotten. Well, if we could have it for free, we would 
take it for free. [Laughter.]
    Ms. Kilpatrick. Okay, that is not an option. That is not an 
option.
    Ms. Cotten. No problem. We do understand that the law 
itself mandates a kind of self-payment in the SEVIS system. We 
would like to see no increase because it does send a very 
negative message. If we have to see a fee increase, we would 
like to send that message along with, as I mentioned in my 
testimony, a list of advantages that comes with that, that it 
is a one-time fee or a 10-year fee, that students do not have 
to pay later for optional practical training, that that is 
something that the schools would manage, that there would be 
other benefits, the ability to look at their own files, those 
kinds of things that we could say to students, it is going to 
cost more, but we are giving you so much more for it.
    Ms. Kilpatrick. I see.
    Ms. Cotten. That would help us sell that a lot easier.
    Ms. Kilpatrick. Thank you.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Mr. Farr.

                 COMPETITION FOR INTERNATIONAL STUDENTS

    Mr. Farr. Thank you very much, Mr. Chairman. We sit here in 
the Homeland Security Committee and sometimes forget that the 
first line of our national security is a well-educated 
electorate, and I think the pot of gold that the United States 
has for the world is our higher education system and the fact 
that we attract the best and the brightest minds in the world 
that want to come and study.
    I am also watching developments abroad, for example, 
Singapore. They are trying to rob our seed corn by providing 
easier access and better accommodations for other countries 
around the world, and if we do not pay attention to this issue, 
we are going to lose that special ability to be the creative 
country. So I am very interested in how we make sure that our 
institutions of higher learning, and I represent six of them, 
have access to students from around the world. What we hear 
when we travel is kind of a mixed message.
    As to constituent work, I get nothing but sort of ``dum-
dum'' problems by individuals that are trying to come into this 
country. When we go abroad, the answers from the embassies are 
that we process these things very rapidly. They just told us, 
interestingly, about a third of the documents for student visas 
are falsified in the host country, and they really do not have 
legitimacy. You have to get assurance that the students have 
paid all their fees.
    Well, some of these schools here in the United States are 
very expensive. And I wonder about this return assurance. How 
can you determine an 18, 19-year-old student's plans? The only 
way we tell when we give visitors visas is that they have to be 
rich. We do not allow poor people in this country. It seems the 
only exception of allowing poor people in this country is in 
academia, and I wondered how we do that, because are there 
scholarships involved and is there a turning away a lot of 
students. Lastly, in your opinion, do you think we are only 
taking in rich students?
    And I would hope that what you might do in your 
professional association is that--wherever we travel abroad, 
and I always bring this question up--is that everything is 
working fine. However, in my district office in California, 
there is not a day that goes by that I do not get a call about 
some foreign lecturer who is stuck at the airport and being 
told to return because when they were a student at Berkeley in 
the 1960s they participated in an antiwar rally. They have been 
in the country a half a dozen times since then, but now they 
are going to be sent back; or, that student cannot get here in 
time for the semester to begin because we had the paperwork 
stuck in the consulate.
    And so I think we need to have kind of a report on what I 
call the ``dum-dum stuff'' that is going on out there that 
prevents students from getting in here that should be here, so 
that you can do your business of trying to best educate 
students, regardless of where they are from in the world.
    Ms. Cotten. I appreciate that summary of the experiences of 
our students and scholars, and I think that when you go to the 
embassies and consulates and say, how are you doing, what are 
you doing, they certainly are making best efforts, I think, to 
review properly, to let people in properly. At one time, 
students were waiting many, many months, as were the J-1 
scholars, just to get interviews, because right after 9/11 
there were mandatory interviews, and many consulates were not 
set up to accept interviews because they had not done it for 
years. You know, London had not been doing interviews for a 
very long time.
    But the Department of State has advised consular posts that 
F-1 students and J-1 students and scholars should have priority 
interviews, so they are getting interviews earlier. I 
understand from the Department of State, and I would recommend 
that you talk with them, that they are in the future probably 
not going to require in-person interviews for extensions, but I 
think the kinds of concerns that you are hearing from people 
individually have to do with the non-immigrant intent issue, 
where a student will come in and they will not say no, your 
visa is denied; they will say, well, we cannot give it to you 
now. We need to have more information that shows that you will 
go home again. Come back when you can give us more information, 
and at some embassies, that is, come back in X number of weeks. 
We will not see you tomorrow. We will only see you X number of 
weeks from today.
    So I think the non-immigrant intent issue is one of the 
most denial/delay problems that we see, and the inability to 
show non-immigrant intent.
    You are quite right that an 18-year-old in the U.S., 
certainly, their intention when they go to college is not to 
come home and live with mom and dad. Their intention is to go 
out into the world, and it is nearly impossible for an 18-year-
old to show that they have a business that they own back home.
    Mr. Farr. How many students do not show up at the beginning 
of the semester because of delays in the embassy? I mean, is it 
a common percentage that do not get there when classes start 
because of a backlog?
    Ms. Cotten. I can say at Duke that we probably have maybe 
half a dozen every year that have difficulties of some kind. 
Some get resolved and some do not. Different schools have 
different experiences. At Duke, we have only the 1,900 or so F-
1 population. There are schools in the country that have many 
thousands of F-1 students, and of course, their numbers of 
denials and delays would be much higher.
    Also, at Duke, the population that is coming to us, 
frequently they have contacts at home. They have families with 
businesses. They have, you know, dad who says, when you get 
your MBA you can come back and work in the family company, and 
so different populations of students will have different 
experiences.
    Mr. Farr. Thank you.
    Mr. Price. Thank you.
    Ms. Roybal-Allard.

               SEVIS TRAINING FOR ACADEMIC ADMINISTRATORS

    Ms. Roybal-Allard. Thank you, Mr. Chairman, and I apologize 
for being late, but we have three hearings going on at the same 
time. It is my understanding that much of what I wanted to 
discuss this morning has already been asked, so this is a 
follow-up question on an issue that I believe has already been 
covered.
    As you know, educational institutions across the country 
recognize the importance of SEVIS, but they have indicated to 
me that the program is very burdensome and that DHS is not 
providing the training to university staff who use the system. 
What kind of training are universities currently receiving from 
DHS as part of this program, and how do you feel that this 
training could be improved?
    Ms. Cotten. Thank you. Homeland Security has put a great 
deal of information online for schools to access, so for 
example, if I am training a new advisor in my office, that 
information is available to go and read, but it is generally 
not in-person training. It is online materials. Organizations 
like NAFSA: Association of International Educators provides 
direct, in-person workshops and sessions at their regional and 
national conferences, and they try to do that when they can in 
cooperation with Homeland Security, but those are generally 
professional association workshops on how to manage the 
government system. They are not workshops presented by the 
government.
    So much of the training that someone receives in how to 
manage the reporting part of SEVIS happens either online or 
through the professional associations. There is a slightly 
different approach when you are looking at managing the 
hardware/software database side of it, and a different group 
with which to work, and I cannot speak in depth about database 
management, but certainly, that is a different part of the 
concern in terms of SEVIS: will our systems talk to their 
systems, and how well will they talk to each other, and can we 
get data across as we need to?
    And I mentioned in my testimony that when SEVIS first 
started accepting batch submissions, Duke had the dubious 
distinction of bringing the whole national system to a halt 
because we sent too many batch requests at the same time, and 
the system did not know how to handle that many requests at 
once. So those are little glitches that we have tried to fix 
over the years. We would like to see SEVIS II look carefully at 
the hardware/software side of this, in terms of making that 
flow with what institutions already have in place, because we 
are already managing huge data systems on our own campuses for 
various reporting purposes; to report to the Department of 
Education, to report for financial aid.
    So we already have those in place, and we would like to be 
sure they articulate.
    [Pause.]
    Ms. Cotten. The folks at Homeland Security, I think, have 
done a good job of coming to stakeholders, and they have held 
stakeholder meetings with institutions from a number of--
different kinds of institutions; the four-year colleges, the 
major research institutions like Duke, small community 
colleges, things like that. So there has been ongoing 
communication. I think we are still concerned on the academic 
side that the security issues, generally, will take precedence 
over some of the enhancements that we would like to see on the 
academic side.
    In particular, the J program has not been incorporated into 
SEVIS quite so well, I think, as the F-1 program, and the 
difficulty ongoing that we see is that regulations and the 
computers do not necessarily track each other, and we are 
getting regulation by computer, such that the academic 
community is trying to do the academic part of reporting, and 
the system will not accept our reports, or will not let us do 
what the regulations say we can or we must do.
    So we would like to certainly see an improvement in that 
regard.
    Ms. Roybal-Allard. Are you working towards that?
    Ms. Cotten. We are certainly working with Homeland Security 
on that.
    Ms. Roybal-Allard. Okay. Thank you.
    Mr. Price. Thank you, and thank you, Ms. Cotten, for very 
helpful testimony. We appreciate your coming here today and we 
will, I am sure, benefit in many ways from not just the very 
specific suggestions you made about your relationship with ICE, 
but also some of the broader issues involving our attempt to be 
a welcoming country for students and researchers from abroad.
    Mr. Rogers. Would the Chairman yield briefly?
    Mr. Price. Certainly.
    Mr. Rogers. I want to compliment the witness. We hear a lot 
of witnesses testify before us in Congress. You have been very 
effective and very helpful in helping us understand this 
process, but you have been very, very effective. We appreciate 
your testimony.
    Mr. Price. Thank you.

                       Introduction of Ms. Myers

    Now let me call forward Assistant Secretary Julie Myers, 
the Assistant Secretary for Immigration and Customs 
Enforcement. Ms. Myers, we appreciate your patience. We 
obviously had, to begin this hearing this morning, we had a 
witness and a topic that attracted a lot of interest and a lot 
of questions, so we are a little bit later in bringing you on 
than we had hoped to be, but I think it was time well spent, 
and we certainly appreciate your presence here today. I will 
ask you, if you will, as usual, to summarize your testimony in 
five or six minutes and then let us explore further in 
questions.
    We will put your entire statement in the hearing record.
    Ms. Myers. Thank you so much.
    [Microphone not on.]

                      Opening Statement--Ms. Myers

    Ms. Myers [continuing]. With our foreign students, and in 
the development not only of the SEVIS system, but the pre-SEVIS 
system, and how instrumental she and many other institutions 
have been as we work to see how we can improve the compliance 
of students, encouraging foreign students to come into our 
country.
    It is my privilege today to appear before you this morning 
to discuss the President's Fiscal Year 2009 Budget Request for 
U.S. Immigration and Customs Enforcement. I want to thank the 
Committee for its support of ICE during the past four years. 
Because of your support, we are leveraging the broad 
authorities by aligning them with the risks that face the 
nation today. Our risk-based approach extends from interior 
immigration enforcement, in which we are prioritizing criminal 
aliens and fugitives, to the application of our Customs frauds 
authorities to prevent the importation of tainted commodities 
and counterfeit pharmaceuticals.
    This risk-based approach shapes our methods to target drugs 
and other contraband smuggling with financial authorities and 
international partnerships, and it means we will continue to 
work to thwart the illegal export of weapons and sensitive 
technologies. The people at ICE have a tremendous 
responsibility. The work that they do each day is difficult and 
often dangerous, yet I can think of nothing more important for 
a public servant than to help safeguard this great nation and 
to protect its citizens.
    I am proud to state for the record that ICE employees carry 
out their mission with great care, extraordinary compassion, 
and unrivaled commitment. ICE has made progress in immigration 
enforcement through innovation and more effective internal 
oversight. With the Committee's support, ICE is transforming 
the way we identify and go after individuals who pose a threat 
to our communities. In particular, thanks to the Committee's 
support, we are aggressively developing an ambitious plan to 
identify, prioritize, detain and remove from the United States 
all criminal aliens in federal, state and local custody.
    We are also working more cooperatively than ever with our 
state and local law enforcement partners through ICE's ACCESS 
program. Unfortunately, some of the most dangerous criminals 
and sophisticated criminal organizations are not behind bars. 
For this reason, ICE has developed robust initiatives to 
enforce our immigration laws in the interior. Initiatives 
include programs that specifically, target child predators and 
gang members; ensure compliance on the part of those who visit 
the United States for school or simply to tour; and to target 
alien absconders, fugitives who have failed to comply with a 
lawful judicial order to leave the country; as well as focusing 
on dismantling the infrastructure that supports illegal 
immigration, such as illegal employment and fraudulent document 
trade.
    While the immigration enforcement initiatives I described 
most often relate to people trying to come into this country, 
another key risk we guard against involves efforts to take 
sensitive technology and arms out. In Fiscal Year 2007, arms 
and strategic technology investigations resulted in 188 
arrests, 178 indictments, and 127 convictions for export-
related violations, more than any other U.S. federal law 
enforcement agency.
    One undercover operation resulted in guilty pleas by six 
individuals; to charges of weapons and ammunition, money 
laundering, and material support to a designated foreign 
terrorist organization. Other dangers are less obvious. 
Traditional customs fraud in many cases constitutes serious and 
unrecognized public health risks. Take for example Operation 
Guardian, an ICE-led operation where we worked with CBP, the 
FDA and the Consumer Product Safety Commission to investigate 
imports of substandard, tainted and dangerous products from the 
People's Republic of China, PRC, and other countries.
    The operation to date has resulted in the seizure of more 
than 59,000 tubes of diethylene glycol and bacteria-laden 
toothpaste bound for the U.S. markets, and the initiation of 
several joint U.S.-PRC investigations. Diethylene glycol, by 
the way, is a toxic chemical used to make antifreeze, and this 
is just one of many similar investigations involving tainted 
goods which would otherwise be on store shelves just waiting 
for purchase by American families.
    As I mentioned, our risk-based approach also shapes our 
methods to target drug and other contraband smuggling. With 
only 25 percent of our special agents authorized to conduct 
drug smuggling investigations, we seized 1.3 million pounds of 
marijuana and 227,000 pounds of cocaine. This kind of approach, 
focusing on risk and going after the money, has resulted in 
some real results. Since 2003, ICE has seized more than $600 
million in cash and monetary instruments, and more than $580 
million worth of real property, vessels, aircraft, artwork, 
vehicles and jewels.
    FPS has also intercepted 760,000 prohibited items and 
stopped 3,000 people from entering federal buildings. Many of 
the requests included in the FY-2009 budget today directly 
support these priorities, and they are discussed in greater 
detail in my statement I have submitted to the Committee. I 
want to thank the Committee for all the support it has given 
ICE, and I look forward to answering your questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T3385A.016
    
    [GRAPHIC] [TIFF OMITTED] T3385A.017
    
    [GRAPHIC] [TIFF OMITTED] T3385A.018
    
    [GRAPHIC] [TIFF OMITTED] T3385A.019
    
    [GRAPHIC] [TIFF OMITTED] T3385A.020
    
    [GRAPHIC] [TIFF OMITTED] T3385A.021
    
    [GRAPHIC] [TIFF OMITTED] T3385A.022
    
    [GRAPHIC] [TIFF OMITTED] T3385A.023
    
    [GRAPHIC] [TIFF OMITTED] T3385A.024
    
    [GRAPHIC] [TIFF OMITTED] T3385A.025
    
    [GRAPHIC] [TIFF OMITTED] T3385A.026
    
    [GRAPHIC] [TIFF OMITTED] T3385A.027
    
    [GRAPHIC] [TIFF OMITTED] T3385A.028
    
    [GRAPHIC] [TIFF OMITTED] T3385A.029
    
    [GRAPHIC] [TIFF OMITTED] T3385A.030
    
    [GRAPHIC] [TIFF OMITTED] T3385A.031
    
    [GRAPHIC] [TIFF OMITTED] T3385A.032
    
    [GRAPHIC] [TIFF OMITTED] T3385A.033
    
    [GRAPHIC] [TIFF OMITTED] T3385A.034
    
    [GRAPHIC] [TIFF OMITTED] T3385A.035
    
    [GRAPHIC] [TIFF OMITTED] T3385A.036
    
                   ID AND TRACKING OF CRIMINAL ALIENS

    Mr. Price. Thank you very much, Ms. Myers, and we will 
begin with questions. I am sure we have a lot to explore. I 
want to initially raise the issue of how ICE is identifying and 
tracking criminal aliens for eventual deportation, both what 
you have done and what you intend to do in this area. We are 
talking about criminal aliens held in custody, in penal 
custody. There are an estimated 600,000 criminal aliens in 
prison. Thousands more are sentenced every year.
    I am worried still that many of these are remaining 
unidentified, although I know you have begun to work on this 
challenge. It appears, though, at the rate you are going it 
will take four to five years to find them all, to have a truly 
comprehensive system. Data that ICE provided our subcommittee 
staff last summer clearly showed that there was a lot of work 
left to do, and the latest data we have from the ICE TECS 
system show that criminal deportations increased only 7 percent 
from 2005 to 2007, while non-criminal deportations over the 
same period increased nearly 60 percent.
    Now, as you well know, the 2008 appropriations act provided 
$200 million for ICE to improve and modernize efforts to 
identify and remove aliens convicted of a crime, sentenced to 
imprisonment, and who may be deportable, and to remove them 
from the United States once they are judged deportable. The 
2008 act requires you to submit a plan to the Committee 
describing the strategy that ICE will develop to identify every 
criminal alien at the prison, jail or correctional institution 
at which they are held, the process ICE will use in conjunction 
with the Department of Justice to remove every criminal alien 
judged deportable, the methodology ICE will develop for 
identifying and prioritizing for removal criminal aliens 
convicted of violent crimes, and finally, the activities, 
milestones and resources necessary for implementing the 
strategy and process to remove criminal aliens judged 
deportable.
    Now, this report is due to the Committee, as you know, on 
March 25. I have a few questions about it now. First of all, 
how far along are you in developing this plan? Will we have it 
by the March 25 deadline? What are the major challenges you 
have identified so far? How are you going to fix them? And then 
finally, the money. We provided $200 million for you to begin 
to implement this plan, and this is $200 million beyond the 
request, $200 million, so to speak, in new money, to begin to 
implement this plan, and allowed the funding to be used in 2008 
and 2009 because we felt the program would begin slowly in 
2008.
    However, we also required in law that the 2009 budget 
identify the resources and staffing necessary to continue the 
identification and removal of criminal aliens. So I am 
surprised that this 2009 budget contains no additional funding 
for this important activity. So I hope you could tell us about 
that, but first, if you will, please let us know how far you 
are along in developing this plan, and also addressing the 
underlying challenge.

                    ICE STRATEGY REPORT REQUIREMENT

    Ms. Myers. Certainly, Chairman, I want to thank you again 
for your support and all the support of your staff over the 
past two years as we have worked to increase the number of 
criminal aliens that we identify in correctional institutions. 
In fact, I think we have made some good progress over the past 
two years, although, as you note, there is much work still to 
be done. One of the things that we are doing is charging a 
significantly higher number of criminal aliens in prisons today 
than we were yesterday and than we were last year. All those 
aliens may not get out of prison tomorrow, but when they do, 
they either have gone through the immigration process or are 
going through the immigration process, and will be deported.
    In fact, back in 2006, we issued charging documents on 
57,000 criminal aliens in federal, state and local 
institutions. In Fiscal Year 2007, we issued 164,000 charging 
documents on aliens incarcerated in federal, state and local 
institutions, and anticipate issuing over 200,000 charging 
documents in fiscal year 2008. Over the past two years, we have 
looked at a couple of things as we have divided up the problem, 
and have used the $200 million and the impetus of the strategic 
plan that the Committee has so wisely encouraged us to develop 
as a way to move forward in a more transformational way.
    Over the past two years, we first looked at where some of 
our biggest gaps were, and of course, the first gap was with 
respect to federal institutions. We did not have full coverage 
at all federal institutions, but fixed that back in the middle 
of 2006 with our deport center, which screens every federal 
inmate in the Bureau of Prison's custody. We next realized that 
we needed to have a full and comprehensive understanding of all 
federal, state and local institutions in the United States so 
that we could begin to target our resources based on risk and 
to make sure that we were using our limited resources in the 
most effective way.
    So we developed a tiered system identifying all 4,492 
institutions and ranked them into four tiers based on risk. It 
is still very primitive, and we are now at version 2.0 of our 
risk assessment, but it helped us, particularly with the 30 
teams the Committee gave us last year, to make sure we are 
using those teams in the highest priority areas. Now, with 
respect to the strategic plan, we looked at how we could 
transform what we are doing to make sure we can meet my goal 
and the Committee's goal of identifying every single alien and 
every single institution even if that alien is there only for a 
very short time.
    We realized that what we really need to do is take what we 
have done on risk and leverage the interoperability initiatives 
that are going on with the FBI, and see how we can use 
technology where we may not have people stationed full-time to 
identify aliens, and that is what our plan is going to do. It 
is going to show how we will use interoperability to identify 
aliens in institutions where we may not have a full-time 
presence, and then use that to then prioritize them based on 
several risk categories. We will prioritize aggravated felons 
down to those who may have committed more minor criminal 
offenses.
    We are working very hard on this program. Jason Foley, our 
Director of Budget, has been temporarily assigned to this full-
time and we are looking to hire a program manager to really 
take this program and make sure that it will succeed even 
beyond the time that I am at ICE.
    I think in terms of some of the challenges that we face, we 
do face getting the interoperability moving as quickly and as 
effectively as we would like. I think we have had some great 
cooperation from FBI SEGIS and US-VISIT at DHS, who really have 
owned interoperability for DHS. But we are now asking to use 
interoperability in a much more aggressive way than we were a 
year or two ago, and that is going to be challenging. I think 
that is going to be an area to push.
    I think we are also going to have some challenges even 
getting the 200,000 aliens we have currently identified out of 
jail. As the rate of criminal aliens increases, there are some 
difficulties with ensuring that we can remove those people and 
also figure out how we are not going to unduly burden the 
immigration courts, our prosecutors, et cetera. That is why we 
are looking at some innovative approaches such as Rapid Repat, 
which is a program we developed based on successes in New York 
and Arizona where you take nonviolent inmates who are eligible 
for parole--of course, it depends on the state--you give them 
some extra good time for agreeing to cooperate with their 
removal. This saves the state money in prison costs, as many 
state prisons are overcrowded. It also saves the federal 
government money. So those are the kind of innovative, and 
transformative things we should employ in order to make this 
program succeed. We are going to get the report to you on the 
date it is due, but probably not much before. We are working 
very hard on it, Mr. Chairman.

               PRIORITIZING INCARCERATED CRIMINAL ALIENS

    Mr. Price. Well, we will look forward to getting that 
report, and also to working with you to make sure this happens. 
Am I correct in assuming that there is no higher priority for 
your agency in terms of deportation than incarcerated criminal 
aliens?
    Ms. Myers. Well, there is no higher priority--one of my top 
priorities is certainly incarcerated criminal aliens, But some 
of the most serious criminal aliens are actually out on the 
street, and so that is also a very high priority for me. We 
need to make sure that we are identifying those individuals and 
targeting, but absolutely, identifying incarcerated criminal 
aliens is something that has got to be a top ICE priority. It 
has been, and it is going to continue to be.
    Mr. Price. Well, that does raise the question about whether 
there are competing priorities that are somehow making this 
effort proceed less expeditiously or less efficiently. I mean, 
is the rough estimate that we came up with that it is going to 
take four or five years at this rate to have a truly 
comprehensive program, is that still accurate? Are we able to 
improve on that?
    Ms. Myers. Well, certainly, we are seeking to move as 
quickly as we can. I think that where the challenge is for us 
is in how we can move interoperability most quickly, and how we 
can make sure that there is a framework that supports that 
interoperability. That is where the challenge for us is, but we 
are strongly committed. We have dedicated our best people to 
this effort, and we are going to make this a success for this 
Committee and for the American people.
    Mr. Price. What about the time frame that we are looking 
at?
    Ms. Myers. Well, you know, it is obviously going to be 
challenging. As you have seen, we have almost tripled the 
number of criminal aliens that we have charged already. You 
know, those people are getting out and we are trying to get 
them home as quickly and effectively as we can. There is 
certainly going to be a challenge, Mr. Chairman, and what I 
would propose is as we continue to finalize the report with our 
other interagency partners, we continue to come up and brief 
you, before and after March 25, so that you are ensured that it 
is a timeframe that meets with your approval.
    Mr. Price. Well, the question I am trying to get at, 
though, is what are the most significant obstacles we face 
here? Obviously, this is a big challenge and it is a big 
problem, and it is not acceptable to have people who we know 
are capable and willing to harm our citizens, it is not 
acceptable to have those people back out on the streets, and 
what I am trying to grasp is to what extent the problems are 
technical, and you talk about the interoperability issues.
    There are, I am sure, some formidable technical issues 
here. Is this something that just simply cannot be speeded up 
with the devotion of enough effort and resources? Are we 
dealing with a kind of intractable set of problems here or is 
this something that is going to yield to our best efforts?
    Ms. Myers. I think we are going to be successful with our 
best efforts. I will say, there are some technical and 
logistical problems that we need to make sure we work through. 
For example, in my home state of Kansas, we currently have five 
or six ICE agents that cover the whole state. There are 
obviously many more jails than that in the state of Kansas, and 
so those are the kinds of challenges we face.
    Certain parts of the state may only see an alien come 
through the doors of their jail, every other week, so we need 
to determine how we use technology to make sure we are using 
our resources the most effective way possible. I want to assure 
you that we are working very hard on the strategic plan, we are 
on version 27 right now. We have been working to get something 
that the Committee will be happy with, and you can see that 
this is a top priority of mine. I do not want my successor to 
have to deal with this problem. I want it to be an issue where 
we are moving forward in a proactive manner so that we can tell 
the American people, yes, we have solved this problem as you 
would expect.

                2009 FUNDING LEVELS FOR CRIMINAL ALIENS

    Mr. Price. And you are confident that the resources we have 
provided for 2008 and 2009 are sufficient, and is there 
anything we need to know about the omission of further funding 
from the 2009 request?
    Ms. Myers. As I am sure you are aware, Mr. Chairman, the 
timing of your generous $200 million was after the President's 
budget for 2009 then had been developed. Certainly, there are 
high numbers of aliens that will be coming in kind of year 
after year. We will need to be working with you to make sure we 
get the right amount of money as we roll this initiative out 
and become most effective.
    Mr. Price. Well, it is true the omnibus was late in 
passing. It is also true that the requirement was included in 
the House bill, and if there was any sure bet one could make, 
it would be that that would be in the omnibus.
    Ms. Myers. I understand that, Mr. Chairman.
    Mr. Price. You know, so we will be wanting to monitor very 
carefully the funding requirements here and what the needs 
might be.
    Mr. Rogers.

       RELATIONSHIPS BETWEEN ICE AND STATE CORRECTIONAL AGENCIES

    Mr. Rogers. Well, this is a forbidding task that you are up 
against here. There are some 5,050 federal, state and local 
detention facilities nationwide. My understanding is you have 
established some sort of relations with 2,000 of those--correct 
me on any of this--and I would assume that most of those 5,050 
facilities are local, as opposed to being federal or state.
    Ms. Myers. That is right, and we actually have some 
relationship with every single one of the facilities in this 
country. However, the relationship may be just knowing who the 
ICE duty agent is and who to call, as opposed to actually 
having kind of a presence in the building or a standard 
protocol for sharing information.
    Mr. Rogers. Well, since most of these are probably county 
jails, city jails, holding facilities, what have you, how are 
you going to make contact with those county jails, and how are 
they going to determine whether or not some prisoner they have 
in their jail is in fact an alien?
    Ms. Myers. Currently, we have made some contact with all 
state, local, and county jails. Of course, in some, we actually 
have a physical presence or we have an agreed-upon 
relationship, but in others we have just made contact through a 
letter and the ICE point of contact.
    I think what we are seeking to do in the areas where we do 
not have full screening, and want to get to is full screening 
of all aliens, is we are going to prioritize based on risk, 
criminal risk, starting with the most dangerous criminals 
first. We will look to see how we can leverage the IDENT/IAFIS 
interoperability; so that when they bring someone into their 
custody, they can run their information, and share it with us 
electronically through our databases. We would use our 
databases to determine whether or not the individual is 
illegal.
    So that is our goal: to get to a place where we are using 
technology, as opposed to having to have an agent or DRO 
officer go over there and do the interview in the first 
instance. Of course, we will have to do an interview and things 
later on, but it would be helpful to leverage technology to get 
through some of the first steps when they do not really know 
where to go.

              BIOMETRIC IDENTIFICATION OF CRIMINAL ALIENS

    Mr. Rogers. But are you planning at some point in time in 
having biometric identification of the prisoner?
    Ms. Myers. Yes, the interoperability is designed to 
encompass the biometrics, and sharing of biometric information. 
We absolutely are interested in using that, and we think that 
that is really the only way that we will get to the goal that 
you, the Chairman, and the Committee have set, in terms of 
identifying criminal aliens. One thing I will say, Mr. Chairman 
and Ranking Member Rogers, is that we do think we are going to 
have to prioritize based on risk of the particular alien, and 
based on what a particular state's interest is.
    Some states or countries may only be interested in 
identifying aggravated felons, and that is the same sort of 
issue we deal with right now with certain sanctuary cities and 
other things. In some places, they may be interested in 
identifying and making sure every alien down to those who are 
arrested for a traffic ticket are moved through the ICE 
process. We are going to have to take that into account, and it 
will certainly affect the budgeting for this proposal in the 
out years.
    Mr. Rogers. Well, what is in it for the county jailer? Why 
should they fool with all of this, because there is nothing in 
it for them, is there?
    Ms. Myers. Well, it gets that individual off their streets 
permanently and back to their home country, and so you are 
certainly right that there may be some jails that do not want 
to deal with us. Indeed, we dealt with that up in New Jersey 
over the past year; and we have had similar issues in other 
places. So certainly, there may be challenges; but generally 
speaking, correctional institutions at all levels have been 
more interested in working with us, particularly to remove the 
worst criminals. When you think about someone who commits rape, 
murder, and violent activities, most individuals are going to 
want to get them off the street of their community and get them 
sent back home if they are here illegally.

                   APPREHENSION OF AT-LARGE FUGITIVES

    Mr. Rogers. Well, we obviously wish you well in this 
regard. This is a high priority for all of us, but I do want to 
make the point that we should not let this or anything else 
interfere with the apprehension of at-large fugitives who are 
criminal aliens. Many, many more of them on the streets than 
are behind bars, right?
    Ms. Myers. That is right.
    Mr. Rogers. And assumedly, if they are dangerous criminal 
aliens, they can certainly do the public harm being at large, 
as opposed to somebody locked behind the bars.
    Ms. Myers. That is absolutely right. Just a few weeks ago, 
we arrested, in Congressman Farr's district, an individual that 
had a number of criminal convictions including rape, escape 
from jail and other things. We got that individual off the 
streets of Salinas and are sending him back home. So those are 
dangerous criminals that are out there in the streets, but we 
absolutely have to do a good job in the jails as well.

                       2009 BUDGET FOR BED SPACE

    Mr. Rogers. Well, quickly changing complete points here, 
let me ask you quickly about the money in the budget request 
for 2009 for detaining illegal aliens on a daily basis that you 
apprehend. You have requested monies for 1,000 additional beds, 
daily beds, on top of the 2008 level, so that the total bed 
space supported in your budget request is 33,000 beds, as 
opposed to 30,500 for 2007. Is that sufficient to allow you to 
keep away from catch and release?
    Ms. Myers. Yes, it is. In fact, there were about 180,000 
referrals from CBP to ICE in Fiscal Year 2005. There were less 
than 50,000 in Fiscal Year 2007, and so CBP and the Border 
Patrol have really noticed a drop in apprehensions across the 
border. We are continuing to use more and more of our bed space 
for the 287[g] program, mainly arrests referred to us from 
jails, the CAP program, the jail program itself, and other 
interior enforcements.
    Certainly, we have to use our beds as efficiently as we 
can, and we will continue to work on initiatives and things to 
reduce the amount of time individuals spend in our custody.

                   CONDITIONS AT DETENTION FACILITIES

    Mr. Rogers. Well, and what about the conditions at those 
facilities? Are they humane?
    Ms. Myers. Ranking Member Rogers, I think we have taken a 
number of steps over the past two years to ensure that those 
who are in our custody are treated appropriately. Under my 
leadership, we have developed a detention field inspection 
group which goes out and does spot inspections of various 
facilities. This is an independent arm under the Office of 
Professional Responsibility. We have developed family 
residential standards, new family residential standards. We 
have add to our 40 largest facilities quality assurance 
specialists, people whose only job is to make sure that the 
facilities live up to the ICE detention standards. Finally, we 
have actually hired additional private contractors that are 
doing inspections for us. It used to be a collateral duty 
within DRO, but now we use the Nakamoto Group and others to do 
inspections for us, to make sure our facilities are living up 
to ICE detention standards. But as you note, we have grown 
considerably in the amount of bed space we utilize over the 
past couple of years.
    I want to make sure that every facility, that we are 
meeting the ICE detention standards and the new ICE 
performance-based standards that we are developing over this 
next year in every facility.

            FINES LEVIED AGAINST EMPLOYERS OF ILLEGAL ALIENS

    Mr. Rogers. You proposed--well, the Secretary and Attorney 
General Mukasey announced the other day a 25 percent increase 
for fines levied against employers who knowingly hire illegal 
aliens. That is the first boost, I think, in probably a decade 
or so. What do you think about it?
    Ms. Myers. I think it is long overdue, and so I am pleased 
that they are increasing the fines by 25 percent. I think that 
will be useful for us. One of the things that we have found is 
that the civil fine process was actually also very cumbersome, 
and very difficult to proceed through. We are looking 
internally to see how can we streamline procedures to make that 
easier to fine the egregious employers that are knowingly 
hiring illegal aliens.
    I still think for the really egregious ones, for the ones 
that hire illegal aliens as their business practice, the best 
deterrent, if they are not going to comply, is pursuit of 
appropriate felony charges.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Mr. Rodriguez.

                          OPERATION STREAMLINE

    Mr. Rodriguez. Thank you, Madam Secretary, and thank you 
very much for the work that you have been doing. Let me 
indicate to you that I represent part of the legal sector that 
had that catch and deport, and I was wondering how that is 
going and how we might be able to kind of implement that a 
little quicker or a little more in some of the other areas, and 
the role that you have been playing in that area.
    Ms. Myers. Do you mean Operation Streamline?
    Mr. Rodriguez. I do not know what you call it. It is where 
you just catch them and deport them, and that has brought down 
the numbers, you know, is that Operation--there are so many 
operations out there, Linebacker and a whole bunch of others. 
This one has been working pretty good in that area, and the 
numbers have decreased.
    Ms. Myers. Right. You know, I think there are two kind of 
related things. We have ended the practice of catch and release 
all along the southern border and the northern border, 
including in your area, as well as all other areas along the 
southern and northern border. We will be able to continue to 
maintain that practice where non-Mexican aliens are not 
released into society with the money that we are seeking for 
Fiscal Year 2009.
    With respect to Operation Streamline, which I believe has 
also been going on down in your area, that is a program that is 
basically full prosecution for individuals who enter without 
inspection. And the Border Patrol really is in charge of that, 
working with the Department of Justice. And they are looking 
for targeted areas along the southwest border where that might 
make sense.
    They have seen that apprehensions have dropped 
significantly in certain areas where they have done Operation 
Streamline. I know in the Yuma sector, for example, where they 
have done it, they have seen other crime drop as well. So, I 
think that they are seeing some positive, although limited 
pilots, from this program, and I know both the Secretary and 
the Attorney General are interested in using it in a 
responsible way given the limitations on doing it.

                         VISA ISSUING AUTHORITY

    Mr. Rodriguez. Yes. And it has worked, and I know it 
includes federal judges and others, and so let us know what we 
might be able to do to expedite that.
    Secondly, we had a question earlier about I know we have 
been having about half a million students come in every year up 
to 600, close to 600, a little less than 600,000 students. What 
do we do on international students from a homeland perspective? 
And that was specifically in terms of assessing them as they 
come in.
    Ms. Myers. Well, in terms of assessing them as they come 
in, the primary responsibility for that is with the State 
Department through the visa issuance.
    Mr. Rodriguez. So Homeland Security does not play a role 
there?
    Ms. Myers. Well, we do in the locations where we have a 
visa security unit or in some other kind of limited locations. 
But generally speaking----
    Mr. Rodriguez. Did you have any role in assessing those 20 
something thousand Saudis that came in under a special program 
under the Administration?
    Ms. Myers. We have had some role in those, but it depends 
on the particular location.
    Mr. Rodriguez. What role did you all have on those?
    Ms. Myers. Well, we work with the State Department, who has 
final, visa issuing authority. We also can look after 
individuals come in if there is a problem. That is really where 
our responsibility lies. And then in a particular example that 
you give, if we had heard that there was fraud or something 
else, then we would go back and look at the visa applications 
or other things and try to see what that is.
    Mr. Rodriguez. Were you engaged in that particular project 
with the Saudis? You said you were. And did you find any fraud 
or anything?
    Ms. Myers. I guess I am not sure what I can say in an open 
setting here.
    Mr. Rodriguez. Okay.
    Ms. Myers. So maybe if I could provide to you an offline 
answer here.
    Mr. Rodriguez. Okay. Okay, I understand. Yes. No problem. 
Okay. Was that kind of unique, that specific program for the 
Saudis, or is that something that occurs with other nations?
    Ms. Myers. Well, I think certainly the broader scholarship 
program is somewhat unique, although other places do have 
scholarship programs kind of with the Saudis. Our role at ICE 
usually focuses on students after they get here and how we 
track them. Therefore, one of the things we have done from the 
DHS perspective, as you heard Ms. Cotten talk about, is look to 
improve SEVIS and move to SEVIS II, which is our IT system that 
allows us to track foreign students.
    Mr. Rodriguez. Okay. Have you overall just found in that 
area, is there a need for us to--you know, you said you only 
get into it after they are referred to? I guess the FBI is the 
one that sends you the cases or what?
    Ms. Myers. Well, the State Department is responsible for 
the visa issuing process. We are responsible when the 
individuals are here. So we develop investigations and leads on 
our own when individuals are here in this country, working of 
course with other federal agencies.
    Mr. Rodriguez. Does the FBI have a role in that?
    Ms. Myers. They do. It would depend on the particular kind 
of case. If the case appears to relate to terrorism, then the 
FBI might have a role in a particular investigation. We work 
very closely with them not only on the JTTF but on other 
cooperative ventures.
    Mr. Rodriguez. Okay.
    Ms. Myers. But I do think the overall program does need to 
be improved and moved to kind of the next generation. One of 
the things that we have a problem with in our IT system is that 
it is paper-centric versus person-centric. You heard Ms. Cotten 
talk about the I-20s that they send to every accepted student. 
You know, if you do not want to take chances, you might apply 
to several schools, so you get several I-20s. Currently our 
systems track it by the I-20s, not by the person who comes in.
    Those are the kinds of things we are moving to do. We are 
making SEVIS II biometric-based and also working to try to 
ensure we have the interoperability that Ms. Cotten and others 
have talked about with the other school institutions.
    Mr. Price. Thank you. Mr. Culberson.

                          OPERATION STREAMLINE

    Mr. Culberson. Thank you, Mr. Chairman. Secretary Myers, I 
appreciate the direction you are taking the Agency, and I want 
to reinforce what the Chairman and our Ranking Member, Mr. 
Rogers, pointed out, that the apprehension and deportation of 
these criminal aliens is an absolute top priority for all of 
us, which is why you saw the strong funding commitment from 
this committee, and we will continue to do that.
    And also to thank my good friend, Ciro Rodriguez. He and I 
are working arm in arm along with Henry Cuellar on the border, 
and Ciro is exactly right. Operation Streamline we believe is 
the win-win solution that we are looking for, Mr. Chairman. It 
is not something ICE is directly involved in. The crime rate 
has dropped 76 percent in Del Rio. The illegal crossings are at 
the lowest level they have been since they kept records in 
1973. So it is a great success, and it is simply enforcing 
existing law in the local communities. We are very supportive 
of it. So I will be working with you, Ciro, on that.
    I just returned from a trip, and I know Ciro has got to 
run, but I want to say that I just returned from a trip to 
Laredo in order to visit with them, talk to them about what 
they needed in the Laredo sector to continue to expand 
Streamline. They had begun to roll it out there in the Laredo 
sector right next to Del Rio. And I want to in particular bring 
to your attention, Secretary Myers, and compliment your ICE 
agent, a special agent there in the Laredo sector, Janice 
Ayala, who just left apparently, and Agent Todd Perseghian, who 
were singled out to me for me to compliment them and make sure 
that you knew what a great job they were doing in working with 
the local law enforcement authorities and just have absolutely 
bent over backwards to work with the Webb County Sheriffs' 
Department. So you have got a great team there working on the 
Texas border.
    And all of us in the delegation, this is literally a 
bipartisan effort. All of us in Texas on the border are working 
arm in arm, and Streamline truly appears to be the solution 
that we are looking for, the win-win solution that then allows 
everything else, Members, all of the problems we have got with 
immigration sort of melt away once that border is secure, and 
Streamline is working beautifully.
    One problem I want to bring to your attention and ask 
about, and I am going to be focusing on this very heavily with 
my colleagues both in this subcommittee and in my Department of 
Justice subcommittee, is the lack of prosecutions in the Tucson 
sector. In the Del Rio sector, everyone that is picked up that 
has entered the United States without an inspection is 
prosecuted just as you would expect the local sheriff or police 
department when they make an arrest, you have a 100 percent 
prosecution rate. State police picks somebody up, a 100 percent 
prosecution rate. In Del Rio, they are picked up, a 100 percent 
prosecution rate. That is the point of Streamline. In Laredo, 
there is about a 75 percent prosecution rate as they ramp this 
thing up.
    When I went to Tucson, I discovered that the Border Patrol 
when they make an arrest that even if you are carrying up to 
500 pounds of marijuana that you have a 99.6 percent chance of 
never being prosecuted. It is dumbfounding. In the Tucson 
sector, they are literally releasing because the U.S. Attorney 
will not prosecute them. Ninety-nine point six percent of all 
the people arrested by the Border Patrol are released because 
the U.S. Attorney will not prosecute them. So we will be 
talking a lot about this in this subcommittee and in my other 
subcommittee.
    I know that you are picking people up both in the jails, 
but also we really want you to focus on picking them up off the 
street. The Chairman and the Ranking Member are exactly right. 
We want to get these dangerous criminal aliens off the streets 
as well. Can you talk to me about what has been the prosecution 
rate among those criminal aliens that you pick up off the 
street, those that you present to the U.S. Attorneys?
    For example, in Arizona, that Arizona U.S. Attorney, 
apparently it is not just Border Patrol members. When the FBI 
makes an arrest and presents it to the U.S. Attorney in 
Arizona, she does not prosecute the overwhelmingly majority. It 
is DEA. It is FBI. It is ATF. Are your officers having trouble 
getting the U.S. Attorney in Arizona to prosecute?
    Ms. Myers. Well, certainly, Congressman, I think that as 
federal agencies, we all want more of our cases to be accepted, 
and I think that your work in ensuring that they have resources 
so that they can take as many of the cases as possible would be 
terrific. There is no question that not every case we want to 
have accepted is accepted. One thing we are doing that is a 
little bit different than Streamline, but that the U.S. 
Attorneys on the southwest border have appeared to embrace, is 
doing a U.S.C. 1326 prosecution in the jails: getting and 
identifying the worst of the worst in jails who have previously 
been deported and having them prosecuted per U.S.C. 1326 again.
    Mr. Culberson. Is that entry without inspection?
    Ms. Myers. No, that is reentry after deportation.
    Mr. Culberson. Oh, got it. Okay. And that is a felony?
    Ms. Myers. That is a felony. It is up to 10 years for these 
aggravated felons we are going after. U.S. Attorneys are very 
interested in those; and we started that in L.A., and now the 
other U.S. Attorneys in the southwest border are very 
interested in that. It keeps them off everyone's streets for a 
longer period of time.
    Mr. Culberson. What percentage of those cases you present 
to the Arizona U.S. Attorney are prosecuted?
    Ms. Myers. You know, we just started that in Arizona, so I 
will have to get back to you on the precise number.
    [The information follows:]

    Question. What percentage of cases presented to prosecutors along 
the Southwest border are prosecuted? Provide by sector and/or state. 
What was the prosecution rate of criminals picked up off the street? 
(Culberson)
    Answer. ICE does not track prosecutions, however, ICE works closely 
with U.S. Attorneys and state and local prosecutors nationwide on a 
wide variety of cases. The following statistics reflect ICE Office of 
Investigations (OI) criminal arrests for FY 2007 for the listed Special 
Agent in Charge offices located along the U.S. Southwest border. OI 
presents criminal arrests to federal and/or state prosecutors for 
action in all program areas.

----------------------------------------------------------------------------------------------------------------
                                                                 Criminal
                      FY2007 SAC office                          arrests       Indictments       Convictions *
----------------------------------------------------------------------------------------------------------------
El Paso, TX..................................................        2,435              1,882              1,704
Phoenix, AZ..................................................        1,641                623                770
San Antonio, TX..............................................        1,588              1,172              1,155
San Diego, CA................................................        2,318              1,147              1,842
                                                              --------------------------------------------------
    Fiscal Year Total........................................        7,982              4,824             5,471
----------------------------------------------------------------------------------------------------------------
* Indictments and convictions may be comprised of arrests from previous years.


    Mr. Culberson. Okay.
    Ms. Myers. But I think they are excited.
    Mr. Culberson. Yes.
    Ms. Myers. And I am a former prosecutor, so I am 
sympathetic on the resource constraints of it.
    Mr. Culberson. Oh, this is not resources. The U.S. Attorney 
in Arizona actually sent out a memo to members that said we 
will only prosecute the following list of cases, and they 
actually told the Border Patrol we will not prosecute anybody 
that carries less than 500 pounds of marijuana. They sent that 
out on September 14. I asked the Border Patrol how long did it 
take for all the loads to come in at 499 pounds. They said 
about 48 hours. It is absurd. It is a .39 percent prosecution 
rate. It is not resources, it is policy that they are going to 
let everybody go.
    We have submitted a request. I really would like to know if 
you could, I know you do not have it on the tip of your tongue, 
what percentage of those cases that you present to the U.S. 
Attorneys on the southwest borders are being prosecuted sector 
by sector.
    Ms. Myers. Absolutely.

                        ICE AGENT--HOUSTON JAIL

    Mr. Culberson. And then finally if I could quickly ask that 
the Houston jail, the Houston jail I understand will not permit 
an ICE agent in the jail to actually look at people that are 
being brought in for booking. Do you know anything about that?
    Ms. Myers. Well, I think we have made some progress 
recently with Houston after an unfortunate tragedy, the murder 
of a police officer by an illegal alien out on the streets.
    Mr. Culberson. But you still do not have an agent in the 
Houston jail.
    Ms. Myers. I do not believe we have an agent currently in 
the Houston jail. There are a lot of places where we get good 
information where we do not have a physical body. I will have 
to get back to you on the particulars with----
    [The information follows:]

    Question. Is there an ICE agent in Houston jails? Is Houston 
actually preventing ICE from getting into the jails? (Culberson)
    Response. Through our Criminal Alien Program, ICE has staff onsite 
in the Harris County jail and conducts daily visits to the jails in 
Galveston, Fort Bend, Montgomery, and the Lynchner State Jail as well 
as a full-time staffing in the state prison in Huntsville. ICE is not 
currently prevented from responding to Houston jails.

    Mr. Culberson. But the Harris County jail we do. And it is 
just city by city, Mr. Chairman, and it is something else we 
need to work on to make sure that our local facilities are 
working with ICE so you can do your job. Thank you very much.
    Ms. Myers. Right. Thank you.
    Mr. Price. Thank you. Mr. Farr.

                         CRIMINAL ALIEN PROGRAM

    Mr. Farr. Thank you very much, Mr. Chairman. Thank you for 
being here today. I want to follow up on the Chairman's request 
on this report due to us. As I understand, you have a $4.7 
billion budget. You are the second largest law enforcement 
agency in the United States. You are not the Customs and Border 
Patrol, but you are an enforcement agency. And as I read the 
law, your highest responsibility in the law is to remove the 
criminal undocumented person from this country, is that not 
correct?
    Ms. Myers. Certainly finding and prioritizing criminal 
aliens as well as our Customs responsibilities are our top 
priorities.
    Mr. Farr. So how many officers do you have? How many people 
are authorized in your department to do background checks on 
people?
    Ms. Myers. Do you mean how many people in--I am sorry. Just 
to clarify, you mean how many people working on the----
    Mr. Farr. It is not just an officer with a weapon. It is 
you have people that otherwise could be doing background checks 
and detaining people for individuals being undocumented.
    Ms. Myers. Our Criminal Alien Program is actually run 
through Detention and Removal, and we had 89 teams in Fiscal 
Year 2007. We are going to have 119 teams this year throughout 
the country.
    Mr. Farr. Will that include the teams that issue warrants, 
or that follow up on warrants?
    Ms. Myers. Well, some of those might be warrants in jails, 
but separately we do have fugitive operations.
    Mr. Farr. So just the total number of people that could do 
this in your department.
    Ms. Myers. About 7,000 people on the Detention and Removal 
side.
    Mr. Farr. Seven thousand people? Well, if your highest 
priority is to remove those that have had criminal activity, 
why is it that you cannot just check every single jail in the 
United States? You have people already, so to speak, ``in the 
can.'' You do not need to go out and chase them around the 
street and find them. They are there. They are behind bars. I 
think that there is a little bit of suffering of delusional 
esteem here because you talk about how you are a great 
compassionate agency, and yet I do not know anybody in law 
enforcement locally that respects you.
    I certainly have had complaints from the churches and 
groups that reach out to immigrants for the way people have 
come in on warrant chases, officers just finding somebody 
standing in the wrong place and asking them for their papers 
and deporting them, parents who have young children.
    There is a real problem here. I appreciate what you did in 
Salinas, but you did not go in there and initiate that. That 
was a Gang Task Force that called you when they were doing a 
gang raid, and fortunately you could remove this person. But 
you did not initiate that. You were there as an assistant as 
part of the task force.
    What my local law enforcement tells me is that you are not 
coming in and removing these people even though we would like 
them to.
    So it seems to me with the resources you have and the 
requirement in the law that there is no reason in the world 
that you cannot be checking every single jail in this country, 
not just those that have been convicted of crime and are sent 
to state prison or sent to the county jail for less, a 
misdemeanor action, but why you just cannot check every one of 
them all the time. It seems to me that that would be a no-
brainer.
    Ms. Myers. Well, I appreciate very much your concern for 
criminal aliens in jail, Congressman Farr, and I share your 
concern on that. As I have shown in my previous testimony, I 
think we have made tremendous progress. Not all criminal aliens 
are currently incarcerated. We also have a responsibility with 
respect to enforcing the immigration laws for individuals who 
are out on the streets, targeting transnational criminal 
organizations so fewer people can come in and commit other 
crimes, and also for enforcing the immigration laws for 
fugitive absconders.
    Mr. Farr. But what I see in my district, frankly, is more 
arresting babysitters or deporting them, not even arresting 
them. Sending them letters saying report to the INS station, 
and they voluntarily go because they do not want their children 
to see them be arrested. I have had a lot of people tell me 
that these things happen.
    And obviously with the raids that you have had with 
warrants looking for people--the cast of people you rounded up 
in the Santa Cruz raids did not even have warrants out for 
them. They were just in the wrong place at the wrong time. So 
what happens is the public image of you becomes one of not this 
compassionate law enforcement agency but essentially a Gestapo-
type agency that is not----
    Ms. Myers. Congressman Farr, we are not the Gestapo, and I 
will not listen to you call our agents and the people who work 
every day--you did that last year to me.
    Mr. Farr. Yes.
    Ms. Myers. I thought that was inappropriate, and I will not 
allow you to call us the Gestapo.
    Mr. Farr. And I told you last year where I got that term 
was from one of your agents who told me that is the way people 
think of her.
    Ms. Myers. Congressman Farr, I share your concern. I think 
we have made a number of strides. I think Congress is in the 
best place to change the law if someone wants to change the 
law.
    Mr. Farr. But why not just do the work? That is already in 
the law. The point is I do not think an agency with a $4.7 
billion budget you are doing what the law requires, which is to 
go into those jails. You ought to have 100 percent coverage.
    Ms. Myers. Well, Congressman Farr, I appreciate very much 
your comments, and I look forward to your feedback as we submit 
the report and as you see the kind of the progress that we have 
made. I also look forward to your continued support for 
comprehensive immigration reform, which will allow us as an 
agency to focus on things you think are appropriate if the law 
is changed.
    But I will say that the men and women of this agency have a 
very difficult job. The men and women of this agency work hard 
day in, day out under very difficult circumstances--no-win 
circumstances really when you think that there are 780,000 
state and local law enforcement officers and less or about 
16,000 ICE employees. We have very difficult jobs, and I think 
they do that with distinction and great honor.
    Mr. Rogers. Mr. Chairman.
    Mr. Price. Yes.
    Mr. Rogers. I wish to disassociate myself from the 
characterization of ICE agents as Gestapo-like. That is not 
called for here, Mr. Farr. And I for one want to disassociate 
myself from that kind of characterization. These are proud, 
hard-working people.
    Mr. Farr. I appreciate that and I know that. I am just 
telling you that there is a very ill public opinion in the 
counties that I represent about ICE.
    Mr. Price. Mr. Serrano.

           ENFORCEMENT PRIORITIES AND ALIEN COUNTRY OF ORIGIN

    Mr. Serrano. Thank you, Mr. Chairman. Secretary Myers, 
public opinion is important, and so I want to give you a 
perception that a lot of people have, and maybe you can help 
me, and I mean this sincerely, understand why we have it. We 
have a lot of folks in this country who are here undocumented. 
I happen to be one of those members of Congress who think that 
that is not the worst thing in the world, that our country 
could always use immigrants in any way, shape or form, and we 
have been through that before.
    But the perception I get and the perception most people 
get, good or bad, is that most of our focus is on the southern 
border and therefore are Mexicans. Yet if you look at the 
nation, Mexicans make up a part of the undocumented but not the 
whole body. If you look at New York City, you find large 
amounts of people undocumented who are not Mexicans.
    Why do I get the perception that most of the focus of our 
federal government is on keeping Mexicans out and almost 
looking the other way on other people coming in?
    Ms. Myers. Congressman Serrano, I certainly regret if there 
is any perception with respect to a focus on any particular 
ethnicity or background. Certainly, at ICE, we are only focused 
on criminal aliens of all types and on Customs violations. But 
I would say one thing that might lead to this perception would 
be that the staffing along the southern border for the Border 
Patrol and other agents is significantly higher than staffing 
in other parts of the country.
    So, in interior parts of the country, as I mentioned 
earlier, in my home state of Kansas, you have five or six 
agents in the whole state. And so the enforcement action that 
is going in Kansas is considerably less than the enforcement 
action that is going on in certain southern border areas in 
areas where there are large numbers of Border Patrol agents and 
the like.
    Mr. Serrano. Well, for instance, whenever I get a chance, I 
bring up the issue of the territories either in a positive way 
or in a way that it has to be brought up, and we know that on a 
daily basis, there are people who get to our territories, 
especially the ones closest to us, the Virgin Islands and 
Puerto Rico, and then they just get on a plane and end up in 
one of the 50 states. And it would appear to people that the 
enforcement--and again, for the record, I am not one who is 
demanding enforcement because I do not have a problem with 
people coming into my country, right? If I was not born in a 
territory, I probably would be trying to find a way to get into 
this country too, but I did not have to do it that way.
    Yet the perception still continues to be, not even the 
perception, the action that you see, the reporting on TV, what 
you read in the newspapers all seems to be focused on getting 
folks coming across the border into the United States from 
Mexico, so therefore, I think it is not improper to feel that 
it is directed at Mexicans. So I guess my question is, do you 
feel that we are balanced in the resources we put into looking 
at other folks entering through other parts of the country 
other than the Mexican border?
    Ms. Myers. Well, certainly, Congressman Serrano, it is very 
important to ICE, who has a mission not only for transnational 
crimes but also interior enforcement. ICE ensures that our 
interior areas of the country are fully staffed, and that we 
look to the northern border and to risks for visa overstays, 
not only for student violators but for others who come on other 
types of visas. The core part of our mission is making sure 
that we really attack all those transnational threats and that 
we do so in an appropriate manner.
    Mr. Serrano. Thank you.
    Mr. Price. Thank you. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.

                       VICTORIA ARELLANO'S DEATH

    I would like to discuss two other issues I believe also 
feed into the negative perception of ICE. As you know, Victoria 
Arellano died in ICE custody at the San Pedro processing center 
in July of 2007. According to accounts by detainees who 
witnessed the events leading up to her death, ICE did not 
respond in a timely manner to numerous and increasingly 
desperate requests for urgent medical attention made by 
Arellano and her fellow detainees as her condition continued to 
deteriorate in the weeks prior to her death.
    According to a Human Rights Watch World Report 2008, which 
was released in January of this year, ``The U.S. failed to 
ensure that detainees with HIV/AIDS received medical care that 
complies with recognized standards for correctional healthcare. 
Medical care and facilities operated or supervised by ICE is 
delayed, interrupted and inconsistent to the extent that it 
endangers the health and lives of many detainees.''
    What were ICE policies for responding to requests for 
medical attention from detainees at the time of Victoria 
Arellano's death, and what changes and safeguards have been put 
in place so that ICE personnel respond in a timely manner to 
provide the services that are needed?
    Ms. Myers. Congresswoman, let me first just say it is an 
absolute tragedy when anybody dies in ICE custody, and we work 
very hard to make sure that the medical care--last year we 
spent about $100 million for medical care of individuals in our 
custody--is first-rate and that the Division of Immigration 
Health Services provides the kind of medical care that is 
needed in a timely manner and does so in appropriate ways.
    We have taken a number of steps, although there were 
already procedures in place that provide for certain cross-
checking. If there are requests, they need to be responded to 
in this amount of time and cross-checked. The doctors at the 
Division of Immigration Health Services are the ones 
responsible kind of for making those determinations.
    We have done some things over the past year to improve our 
program overall in terms of detention, including in the medical 
arena. One of those things was the creation of the Detention 
Field Inspection group, which goes out and looks at not only 
the conditions of our facilities overall but also on the 
medical care side. We have our quality assurance specialists 
located in 40 of our largest facilities who are able to respond 
to kind of particularized needs if they feel that their forms 
are not being processed quickly enough or that their care is 
not being attended to.
    Every individual who comes into ICE custody goes through a 
full screening within 14 days, and we have diagnosed conditions 
for I believe over 28 percent of individuals that come into our 
care.
    Ms. Roybal-Allard. Were these quality controls in place at 
the time that Arellano died?
    Ms. Myers. Some of those quality controls were in place and 
some of them were just coming into place, because one of the 
things I have spent a lot of time on in this agency is 
improving the overall quality of care for individuals in our 
custody.
    One additional thing that I think will continue to address 
this--and of course her case is in litigation, so I cannot talk 
specifically about that--is that we are moving all of our ICE 
detention standards to make them performance-based standards. 
Performance-based standards will better ensure that the IGSAs 
and others who are then held accountable for making sure the 
medical needs are met have a higher bar to meet and that it is 
clear to them. Currently those performance-based standards are 
out for comment with the NGOs right now, so we are working with 
them in a collaborative manner to make sure that this updating 
will be done.
    Ms. Roybal-Allard. Are there medical experts that are also 
reviewing these new policies to give you feedback?
    Ms. Myers. Yes, they are. And then, of course, there also 
are separate policies from the Division of Immigration Health 
Services that they have and monitor on their own, but for the 
ICE standards, certainly there are.

                         UNACCOMPANIED CHILDREN

    Ms. Roybal-Allard. Another issue of concern is that 
according to CBP, approximately 10 percent of all undocumented 
persons that are apprehended along the southern border are 
unaccompanied children. In accordance with the Juvenile Justice 
and Delinquent Prevention Act or the Flores settlement in the 
Homeland Security Act, these minors are to be transferred to 
the Office of Refugee Settlement within three to five days, 
given access to counsel, not held with adults or adjudicated 
delinquents, nor are they to be prevented from going through a 
process of expedited removal.
    However, my office has been getting reports from very 
reputable immigrant rights organizations that each of these 
protections has been repeatedly violated. Can you explain why 
we are still seeing situations where this is occurring and why 
children are not being expedited through the process so that 
they are under safe conditions as required by law?
    Ms. Myers. Congresswoman, at ICE, we have been working with 
ORR and CBP to try to streamline the movement of any of these 
unaccompanied minors from CBP to ORR. Sometimes there are 
situations where ORR does not have housing kind of in the local 
area; they are not able to accept them; the flight is not 
available, et cetera, et cetera. We are putting together a book 
of best practices to ensure that our role, which is really this 
little transportation link--is not holding them in the CBP 
cell, which is done obviously by CBP, nor is it dealing with 
them on the ORR side--is as smooth and streamlined as possible. 
We are trying to shorten any amount of time that we have any 
involvement so that it can be as smooth as possible from CBP to 
ORR.
    We have made some good progress on that over the year. I 
think in very short order we are going to be able to show some 
more significant progress there because it is not in ICE's 
interest to have custody of these individuals for any amount of 
time.
    Ms. Roybal-Allard. Well, I really hope that there is going 
to be some real focus on these children and also that ICE 
agents receive training so that they are more sensitive to 
these detainees and their specific needs. Because in many cases 
we have been talking about criminal aliens, but in this 
particular case, we are talking about children. I think that 
there needs to be some sensitivity or professional training so 
that there is a clear understanding by those who work in your 
agency.
    Ms. Myers. I believe that part of the reason that Congress 
put unaccompanied minors into the care and custody of ORR is 
because they wanted ORR to actually handle this very sensitive 
class of cases, and so at ICE, we are trying to reduce--down to 
virtually nothing--the amount of time that we are transporting 
them--in that we are not holding them initially. We are just 
transporting them, and so that is why we are trying to reduce 
that time so that these sensitive cases, these unaccompanied 
minors, can be in the custody of ORR as quickly as possible.

                    STUDENT EXCHANGE VISITOR PROGRAM

    Mr. Price. Thank you. I realize that we are under some time 
pressure here, but I would like to hold a brief concluding 
round of questions, and I will try to set a good example myself 
here in abbreviating my questions. But I do want to touch on a 
couple of things, and then all of us of course will submit 
additional questions for the record.
    I want to go back to the first witness we had this morning 
and the Student Exchange Visitor Program just for a moment, Ms. 
Myers, and then turn to the Federal Protective Service. You 
heard Ms. Cotten's testimony and you understand the position 
she articulated, that the new fees are not going to be welcomed 
in any case, but if there are to be new fees that there needs 
to be a clear benefit articulated which will justify them.
    And I just would appreciate your confirmation that the 
suggestions that Ms. Cotten raised about the kinds of benefits 
that would be valued, streamlined travel for students, improved 
databases and student access to SEVIS records, liaison officers 
who are responsive to both educators and students, coordinated 
federal reviews with other departments, those kinds of benefits 
that could potentially come. And maybe we are talking here 
about some improvements in departmental policy and practice but 
also some things that would cost money and that could 
conceivably benefit from the fee increases you are talking 
about.
    I wonder if you could commit to taking a very close look at 
those kinds of recommendations and to include them in the fee 
rule, I mean, not just a vague promise, a future promise, but 
to the extent you can possibly make it quite explicit in the 
rule itself where the money is going to go and what the 
benefits are going to be.
    Ms. Myers. Certainly, Chairman, I did think that Ms. 
Cotten's testimony was very useful and very enlightening in 
terms of the needs of the academic institutions. We are trying 
to work as close as we possibly can to make sure we take into 
consideration their needs--the stakeholder needs--in terms of 
upgrading our IT infrastructure, making sure the liaisons will 
be as helpful to those schools as possible, and really 
providing as much value as we can. I will commit that we will 
work as closely as possible not only with Duke but with all the 
other academic institutions.
    There are a few things that Ms. Cotten wanted to do that 
may be a bit out of our control in terms of controlling data 
streams from the Social Security Administration or other 
things, but we are absolutely going to do whatever we can do to 
upgrade SEVIS, making it more useful on the school side.
    Mr. Price. I think that is important, because some of these 
changes are needed regardless of any connection with fee 
increases. And also to the extent there must be fee 
adjustments, the negative signal they send would be mitigated I 
believe by some concrete demonstration of the payoff.
    Ms. Myers. Well, we will try to make sure it can be as 
concrete as possible to provide that help. The fees have not 
been raised since 2003, and of course, we are mandated to do 
SEVIS as a fee-funded operation. You know, tuition at many 
schools, including many private institutions, has gone up 
considerably more over that time. We are mindful of any 
implication that any fee raise might have, and we want to make 
sure we roll it out in the most responsible manner.
    Mr. Price. Well, and of course, this does not cancel any 
need for a justification of those increases, but I think the 
demonstration of benefit is important.

                       FEDERAL PROTECTIVE SERVICE

    The Federal Protective Service is supposed to protect 
federally occupied buildings, but a recent GAO report 
highlighted how changes in the agency have left it unable to 
complete its mission. As I said earlier, the report's authors 
determined that the capabilities of FPS have deteriorated so 
substantially that the federal facilities that it is charged to 
protect face a ``greater risk of crime or terrorist attack.''
    Now we dealt with this in the 2008 bill. The Appropriations 
bill for the current year requires you to staff FPS with at 
least 900 police officers and 1,200 total employees and 
mandates that security fees charged to agencies for FPS 
programs be increased to fund this growth. However, this is not 
reflected in your 2009 budget request. It reflects only 950 
personnel at the agency for 2009. Now I understand that you now 
are planning to increase these and hire additional personnel at 
FPS in 2008, as required by law.
    I want to confirm that that is correct and ask you when the 
increased fees will be put into effect. When the new officers 
will be hired. When we will also then get a budget amendment 
that shows a more realistic estimate of how this program will 
be funded in 2009.
    Ms. Myers. Thank you, Mr. Chairman. Based on the language 
in the Appropriations bill, we are indeed raising the rates 
both for Fiscal Year 2008 and Fiscal Year 2009. I anticipate 
that the letter informing the customers of the raise in rates 
for 2008 will be going out in the next week or so. We are 
currently moving that through final clearance here, and then we 
will begin the process of hiring. If we do not have an 
announcement out, I believe we are going to have an 
announcement out in the next week or so, and we are going to 
move very aggressively to try to get these individuals on board 
to have the 950 law enforcement personnel. Many of them are 
going to be inspectors with police authority, so they will not 
necessarily be police officers only.
    But I do think that the committee's review of FPS has been 
very helpful. The move from GSA and the lack of that funding 
which they had really relied on for so many years has been 
very, very difficult, and so I think that the committee's 
support here has been very helpful, and I look forward to a 
stronger FPS.
    Mr. Price. I think maybe you misspoke or maybe I did not 
hear you correctly. You are committing to the 900 police 
officers?
    Ms. Myers. It is 900 law enforcement personnel, so they 
will be inspectors who have police training. They will not be 
hired as police officers only, so they will be able to do both 
duties. I believe under the language, it was 900 law 
enforcement personnel, which these inspectors would qualify as.
    Mr. Price. Right. And then we would anticipate 1,200 total 
employees as opposed to the 950 that is included in the budget 
we have now.
    Ms. Myers. That is right. That is right.
    Mr. Price. All right. Thank you. Mr. Rogers.

                             287[G] PROGRAM

    Mr. Rogers. Let me quickly and briefly talk about 287[g].
    Ms. Myers. Yes.
    Mr. Rogers. I am a strong believer in that. The federal 
personnel that you have, although the second largest in the 
federal government, is still a drop in the bucket, frankly, 
compared to the number of illegals in the country estimated 
from 12 to 15 million. So the only way we are ever going to be 
able to have a chance to stop that flow and cut off the magnet 
that are the jobs that are in this country for people seeking 
work is to enlist the aid of local police, state and local 
police, and 287[g] provides the training to allow them to 
assist you in that work. What do you think about 287[g], and is 
there enough money in your budget request to engage more local 
officials in the work?
    Ms. Myers. Ranking Member Rogers, I think 287[g] has been a 
terrific force multiplier. We currently have 38 entities which 
have signed memorandums of agreement with ICE. That is up from 
only two before I started at ICE. So I think using it 
strategically, we can really make a difference. Of course, 
whenever we partner, we have to make sure that we have the 
necessary detention facilities. If individuals are apprehended, 
we have to make sure we have the ICE resources on the back end 
of the removal process to support that. But I do think it is a 
critical program.
    One other thing that we developed is the ICE ACCESS 
program, which looks at the broader services that ICE can 
offer. Sometimes we are finding that particular communities had 
narcotics or foreign-born gang problems, and they said they 
wanted 287[g] when they really wanted someone to help them with 
their foreign-born gang problems. So we are looking, under ICE 
ACCESS, to do that.
    I do think that the $12 million proposed for 2009 will 
allow us to strengthen the 287[g] program in particular, 
targeted places. We are making sure we roll this out very 
deliberately, that we are doing audits of the program, so that 
we can make sure that these authorities are being used in a 
responsible manner.
    Mr. Rogers. Well, congratulations on the improvement in 
287[g]. As you say, you have signed 38 agreements, 10 more 
pending; 78 more localities that have requested info seeking 
agreements. You have trained, so far, 630 state and local law 
enforcement officers in that program, ranging in states from 
California to Arizona to North Carolina.
    So thank you for the work that you have done so far with 
287[g], and I wish you Godspeed in that program as well as all 
of the others. I think you are doing a great job down there.
    Ms. Myers. Thank you.
    Mr. Price. Thank you. Mr. Rodriguez.

                    HUTTO FAMILY DETENTION FACILITY

    Mr. Rodriguez. Thank you very much. Let me go back to the 
same question that Lucille had asked that I wanted to follow up 
on. I know that I have been, and you have been also, at the 
Hutto facility of the families. That was last year, so can you 
let me know, in terms of what has been happening there? Have we 
established any different types of strategies, or has the 
number increased? I know we have several facilities there that 
are family related, where the entire families are there.
    Ms. Myers. In terms of the Hutto facility, we are actually 
now using part of the facility for noncriminal females. The 
estimates that the Border Patrol initially provided about 
families that would be coming in that would need to be housed 
in Hutto--it did not appear that the numbers kind of matched 
those initial estimates, so----
    Mr. Rodriguez. So they have dropped.
    Ms. Myers. It has dropped, and, of course, that is 
consistent with the overall drop in apprehensions kind of 
across the southern border.
    In terms of the Hutto facility specifically, we have 
developed 37 residential family standards, and these standards 
will apply not only to Hutto but to Berks. They were developed 
working with the ACLU in the context of the lawsuits against 
Hutto and working with other NGOs who also had an ability to 
provide input into what those standards need to be.
    Long term, I think we are looking at whether or not Hutto 
is structurally the kind of facility that would make the most 
sense for this particular population noncriminal families.
    Mr. Rodriguez. We had another facility that was similar in 
another part of the country. What is the situation there? Have 
those numbers dropped there, too?
    Ms. Myers. No. The Berkes facility can house about 87 
people or so; it has always been a very small facility, and 
that facility has remained full.

                             CYBER SECURITY

    Mr. Rodriguez. Let me ask you also, in regarding the issue 
of cyber security, I know we have been working on that. From a 
department perspective, I noticed you asked the wrong person in 
terms of the $5.7 million. That is, at least, I see a very 
small number there in terms of protecting the computers from 
money laundering and that kind of international fraud that 
occurs.
    Do you see a need for us to beef up on that? What is the 
situation when it comes from cyber security?
    Ms. Myers. Well, certainly, ICE's cyber security request is 
only part of the Department's cyber security request. ICE 
focuses on cyber crime, crimes that are committed over the 
Internet, including child predators as well as counterfeit 
pharmaceuticals.
    This year, the president's proposed budget for 2009 
provides funding for the first time since ICE has been created 
for some of the key, core Customs authorities that we have. So, 
certainly, I would welcome very much the Committee's support 
for that. We are seeing more and more crimes being committed 
over the Internet and computers being used to facilitate all 
kinds of crimes. So it is important that our forensic agents 
and our cyber crimes center remain up to date with the latest 
changes in technology.
    Mr. Rodriguez. One of the biggest problems we had with 9/11 
is one agency not dialoguing with the other. How, working with 
the FBI and others, as it deals, for example, on cyber 
security? Do we have some kind of structure set up?
    Ms. Myers. We work very closely, not only with the FBI but 
with the Secret Service, which also has a related role in cyber 
security. They have their Electronic Crimes Task Forces, and we 
work with other law enforcement agencies as well.
    In terms of the FBI, one of the best ways, I think, that we 
engage with them is through our participation on the JTTFs, or 
the Joint Terrorist Task Forces, where ICE is the largest 
participant, other than the FBI. The more sensitive terrorism 
or sensitive immigration cases are often worked through the 
JTTFs.
    Mr. Rodriguez. I just want to emphasize the importance of 
having the exercises because there is nothing worse than, and I 
will not mention the community that they talk about what a 
great facility they have, what great things they are doing, and 
then when something happens, it falls apart, and, you know, we 
had a similar situation occur, unless some exercises take place 
where you go out there and go through that training. So I just 
wanted to emphasize the importance of that. Okay? Thank you.
    Ms. Myers. Thank you.
    Mr. Price. Thank you. Mr. Culberson.

                             287[G] PROGRAM

    Mr. Culberson. Thank you, Mr. Chairman. As a follow-up to 
Secretary Myers on the 287[g] program, in particular, with 
respect to the Houston Police Department, Houston is the 
fourth-largest city in the United States. I want to confirm 
what you said earlier. It is your understanding that the City 
of Houston has prevented ICE from putting an agent in the 
Houston City Jail.
    Ms. Myers. It is my understanding, and I would like the 
opportunity to follow up with you in writing on this----
    Mr. Culberson. Okay.
    Ms. Myers [continuing]. We do not currently have an agent 
in the jail. Whether or not we have been prevented, I think, is 
something I want to make sure I clarify.
    Mr. Culberson. My office checked, and I checked, and 
Houston will not let your folks in. So that is a problem they 
face. In a lot of these jails, ICE is prevented from coming to 
the Houston Jail. I know that is a problem, and I would be 
happy to try to help you with that.
    Your memorandums of agreement that you have with 38 state 
and local agencies; you have got 78 agencies that have 
requested to participate in the 287[g] program. That is an 
immediate force multiplier that would--a dramatic difference in 
helping you deal with the problem that you face with the large 
number of criminal aliens out there, yet you all have only 
asked for $2.67 million for the program.
    I know that, for example, the Houston Police Department has 
also refused to participate in the 287[g] program, which is 
really dangerous. The Fort Dix terrorists--I think two or three 
of the Fort Dix terrorists--where is my note on that? Three of 
the Fort Dix terrorists had received up to 19 traffic tickets, 
but because they got the tickets in sanctuary cities where the 
city either will not participate in 287[g], they will not ask 
the question. You never knew about it.
    How can this Committee help you expand the ICE program? You 
all are only asking for $2.67 million. There is obviously a 
tremendous demand among local agencies to try to help you with 
it, and that is an immediate way to be a force multiplier.
    Then, as a final note, my office has found 4,000--we 
checked with local--my friends in the state legislature where 
Ciro and I came out of and Henry--my friends in the state 
legislature in Texas and then also in Louisiana. We checked the 
board, and we found 4,000 vacant beds available in private 
facilities today that you could contract for, that the Marshals 
could contract for.
    So two questions. One, what do we need to do to help you 
expand the 287[g] program, in particular, to make sure you have 
got that full-force multiplier available for you?
    Ms. Myers. Congressman, I believe that the request for 2009 
was $12 million, but----
    Mr. Culberson. Okay. You asked for $12 million.
    Ms. Myers. I certainly think your point about making sure 
we have enough money to manage this program appropriately--one 
of the things that we want to do in 2009 is make sure that, as 
this grows significantly, and as 287[g] beds are actually 
taking up a little more than a quarter of our entire bed space, 
that we are really doing it kind of in targeted areas.
    So I hired Jim Pendergraph, who is the former sheriff down 
in Mecklenburg County, to be the head of our Office of State 
and Local Coordination. He will make sure that we are doing 
this in a coordinated way and to also make sure--it is very 
important that we protect civil rights and civil liberties and 
that we do not engage in any racial profiling--we are doing the 
training and auditing for this program.
    So based on that, this request was allowed to be kind of a 
reasonable request, knowing that our agency had made 
substantial progress over the past couple of years.
    Mr. Culberson. I was just going to ask, how many new 
officers, new agencies, will the $12 million allow you to bring 
in?
    Ms. Myers. Each request actually can cost more than $12 
million, so the $12 million is dedicated towards training and 
IT items because running just one 287[g] program averages about 
17 and a half million dollars a year. It primarily includes 
beds, ICE oversight, and other things. We want to make sure 
that we expand 287[g] in places that are primarily jail 
institutions or places where the task forces kind of would make 
most sense.
    The $12 million is also designed to help us with the new 
training facility that we are working to get up and going. One 
of the issues we have had is making sure we get training in the 
right places. It requires state and locals to be training from 
four to six weeks, depending on the program.
    Mr. Culberson. I do not follow you. How could one 287[g] 
program cost you $17 million? They are different from area to 
area.
    Ms. Myers. That is the average. That is the average of what 
it costs in terms of----
    Mr. Culberson. In Houston, I can see that, but in, for 
example, Marfa, Texas, out in the West Texas sector, you are 
not going to have the same.
    Ms. Myers. We will continue to look at the averages as the 
numbers grow, but that is what has been the average. When you 
think about the fact that a quarter of our bed space is 287[g] 
bed space, and then you want to make sure, are these aliens the 
highest-priority criminal aliens, or determinine if their 
aliens are from jails that might be higher-priority criminal 
aliens that we could use with the beds that Congress has given 
us--So we are just trying to manage this in an appropriate 
manner. I appreciate very much the Committee's support, and I 
want to assure you that we will use every bed that has been 
allocated to us by Congress. We will spend every dollar towards 
that.
    Mr. Culberson. Well, thank you, Mr. Chairman. We found 
4,000 beds for you that are vacant, and I would be happy to 
show them to you.
    Ms. Myers. That would be great, but the issue for us, of 
course, is the money and not actually having a vacant bed in a 
particular location. It is having to be able to fund that 
number of beds throughout the year. If they will give them to 
us for a discount, we might have a deal. Thank you.
    Mr. Price. Mr. Serrano.

                          LUIS POSADA CORILLES

    Mr. Serrano. Thank you, Mr. Chairman. Secretary Myers, I am 
going to ask a question that I asked last year, but there are 
new developments since then.
    Luis Posada Corrilles is a known terrorist in the Western 
Hemisphere. He boasts, and he has been accused, of blowing up a 
Cuban airplane carrying the whole Cuban Olympic fencing team of 
teenagers. He was accused, and he has given interviews taking 
credit for blowing off, exploding bombs in two Cuban hotels to 
fend off tourists.
    He came into this country a couple of years ago 
undocumented, and, notice, I use that phrase for even people I 
do not like--undocumented. He was held not on terrorist 
charges, which was an outrage, but on immigration charges. He 
eventually was released.
    Is his release final? Is he a free man, walking in Miami, 
as he is now, or does he still have pending business before 
immigration authorities in this country?
    Ms. Myers. Well, Congressman Serrano, first of all, let me 
just say, I share your frustration. We were very frustrated by 
the result of the district court case and the inability to 
proceed on the kind of criminal charges that we were interested 
in bringing. We also fought the release of Mr. Posada and lost 
that, and so that was the release.
    I will have to follow up with you on the current status of 
the immigration proceeding there. I just do not have that with 
me on the top of my tongue. I certainly share your frustration. 
Unfortunately, that case is not the only one of those kinds of 
cases where we have a situation where there is a very bad 
person in this country, and then we are not able to prosecute 
him or her for the crimes they have committed. We are not able 
to then send them home, for one reason or another. That is a 
growing problem for us, and it is a source of frustration when 
people see these individuals out in the community. So I 
certainly share your concern.
    Mr. Serrano. But this is encouraging, believe it or not. So 
you are saying that your agency made an attempt before the 
court perhaps to say this person should not be released, should 
be held.
    Ms. Myers. There was a district court proceeding, which we 
lost early on, and I believe, and we will respond to you in 
writing, but I believe that when the immigration judge ordered 
this person released, that we had opposed that. Our lawyers in 
the Immigration Court had opposed that, but I will have to get 
that back to you in writing to make sure I am precisely 
accurate.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3385A.037
    
    [GRAPHIC] [TIFF OMITTED] T3385A.038
    
    Mr. Serrano. Okay. And I would like you, in that letter, if 
you can, to tell me if your concern, or what you presented, was 
that he was here undocumented, illegally, or the other 
accusations made against him, escaping from a Venezuelan jail 
after he was being held on charges there, and so on. In other 
words, I would like to know if you are saying, Do not release 
him because he has broken the immigration law or because you 
were concerned that he, in fact, was what he all claim he is: a 
known terrorist. We will call him a criminal for your purposes.
    Ms. Myers. I will absolutely get you all of the details. I 
remember, as a prosecutor myself, whenever you were trying to 
push for detention, you obviously throw in whatever you can, so 
I am sure it was a pretty aggressive case, but we will get that 
to you in writing.
    Mr. Serrano. So, for the record, you folks were not in 
favor of having this man released.
    Ms. Myers. That is my recollection, but I did not review 
that in preparation for today's testimony, so I want to make 
sure I am absolutely correct, but that is my recollection, that 
we opposed that.
    Mr. Serrano. Thank you so much.
    Mr. Price. Thank you. Mr. Farr.

                         CRIMINAL ALIEN PROGRAM

    Mr. Farr. I want to first thank you for the response to Mr. 
Serrano's question. I think that is the kind of priorities that 
we are talking about and really being up front about being 
consistent with prosecuting those criminals.
    In this report, you identify the prisons, jails, and 
correctional institutions in which every criminal alien could 
be held. Do you know how many institutions there are?
    Ms. Myers. Our count is slightly different than the Justice 
Department's count because I think for some institutions that 
are connected, we might consider as one versus they considering 
it as two. Our count is 4,492.
    Mr. Farr. It is 4,492. Let me ask you how you are going to 
approach this. It says, in the report and in the language of 
your bill, that no funds were made available to improve or 
modernize efforts to identify and remove aliens who may be 
deportable.
    Here is where my issue has been. Our local law enforcement, 
even in the section of the city that I represent, has never not 
supported removing undocumented people who are in jail. I have 
never heard any kind of protection. Where the protection 
usually comes, and it is not recognized by the Federal 
Government anyway, is in the raids. People get very upset about 
that. They get upset about the raids, not the inspections.
    So I wondered if this language on who may be deportable 
means that people who may be in local jails could be removed 
because they do not have documentation. They are there. I know 
you prioritize it to violent crimes and to those kinds of 
issues, but would we clearly expect that once we identify these 
4,492 institutions that could possibly have deportable persons, 
that we might be able to follow through on that? That is the 
question.
    Local law enforcement; they do not want to be ICE. They 
want to be local law enforcement. They will collaborate with 
you, and, as you mentioned in your testimony, as you have with 
the Gang Task Force in Salinas, trying to prevent crime, 
removing those undesirables in the community. We can use ICE 
for that, and I would really appreciate it. I have never heard 
anybody complain about that. In fact, they applaud that, and I 
applaud that kind of activity.
    What I am wondering is, in identifying these 4,492 
institutions, whether you are going to have the personnel to be 
able to go in and do those checks.
    Ms. Myers. Well, Congressman Farr, on your first point, I 
will say that, as surprising as it is, sometimes when we do 
identify criminal aliens in jails, there is community concern 
about that. I would point you to some issues that happened in 
Irving, Texas, where people were concerned that individuals 
that were arrested for very minor crimes were turned over to 
ICE, and there was a lot of community concern. So, actually, 
even when you are talking about the jails, sometimes there is 
particular community concern.
    What we have done with the almost 5,000, 4,500 jails is 
look at where the gap exists. We have covered many of them with 
full screening right now. We have all of the federal 
institutions covered with full screening, all of the state 
institutions, and then a large number of county institutions 
that have a lot of turnover.
    So we are looking for the gaps by identifying the places we 
are not, then trying to figure out how can we use technology, 
and where we need to have a full-time presence based on the 
number of criminal aliens that would be there. It makes sense 
to try to use technology because, in some states, they may only 
have a couple of hundred criminal aliens coming through parts 
of their jails in a particular year, and it would not make 
sense to dedicate a full FTE.
    So you have another alternative. The other alternative we 
are looking at is using this interoperability technology, which 
would allow the local jails, where we do not have a presence, 
to share biometrics and other information with us and to do 
this electronically so that we can then prioritize. I still 
think we would be prioritizing based on the most serious 
criminals first.
    That is our goal, and that is where I think the plan is 
heading. It is due about a month from now, so it still has some 
work to do, but I do think it is transformational in the way we 
are thinking about it. I am very sorry to hear that we do not 
have a great relationship with the state and local law 
enforcement in your area, and I hope that this kind of thing 
can help build a better bridge.
    Mr. Farr. It is because the raids have removed people. 
Parents, for example. I have had one situation in my district 
where two parents of young children got removed, and what local 
law enforcement were talking about was, one, they did not know 
you were coming in; two, the fallout, the cop cars with the 
lights going and people entering buildings; if they called the 
local law enforcement and said, ``What are you doing? Why are 
you taking Jose Serrano away?''
    Mr. Serrano. I was born a citizen. Okay?
    Mr. Farr. And some people are. Then ICE does the checks and 
finds out because, in America, we do not walk around with a 
citizenship card in this country. Nobody in this room has an ID 
on them that can tell that they are an American citizen, unless 
they are carrying a passport or a birth certificate.
    So it is that fallout. I think if, indeed, you want to be a 
compassionate agency, and I hope so because I think we want to 
respect law enforcement, then that fallout also has to be 
considered. What happens to those children? There is an impact 
on their school that their parents are gone, and they are 
panicked.
    I get the calls about what happens in the aftermath, and 
that is where, I think, the follow-through has to be, part of 
interoperability with social services at the local level. Who 
is going to go to the schools if we have a disaster, and a 
child is hurt or injured or killed? They do counseling in the 
schools. What about when a kid's parents are removed? What if 
the kids are American citizens, and the parents decide they 
want to keep the children here because the schools are better 
here?
    So that is the kind of holistic intervention that I hope is 
intended here. It sounds like it from your remarks of wanting 
to be a compassionate agency, but the fallout has not led to 
people thinking of you as that way.
    Ms. Myers. I would say that one thing that is difficult for 
us, too, is the fallout we have seen from the other side, and 
the fallout from a lack of immigration enforcement over a long, 
extended period of years. So there were people who were here 
illegally and who were ordered removed but just decided to 
flout the immigration judge's orders and decided they were not 
going to go. I do not have to worry about it, and then, when 
ICE did come, you know, the outrage--``How dare you come, even 
though I have already been through the immigration system, and 
I have already been removed?''
    I believe we take extraordinary steps, in terms of sole 
caregivers, to make sure that sole caregivers can be with their 
children where appropriate, particularly in the context of 
oversight enforcement, but it is a difficult thing.
    Just last week in Minnesota, on Tuesday in Minnesota, a 
school bus was hit by an illegal alien, an illegal alien who 
had worked in a meat-packing company and then a cabinet 
company, and she hit the school bus. Four kids died, a nine-
year-old and, I think, two 13-year-olds and another young 
child. That individual was someone we might have encountered if 
we had done an oversight enforcement action. First, she told us 
she was from Puerto Rico. Then she told us she was from Mexico. 
Then we discovered actually she was from Guatemala.
    So these issues are very, very difficult. We are very 
hopeful for comprehensive immigration reform, if not in this 
Congress, in the next one, and we will seek to do the job to 
the best of our ability.
    Mr. Farr. I will close on this, just a statement. I 
represent the most successful agriculture in the United States, 
not a drop of subsidies, $3 billion in--it is harvested by the 
largest farm worker force in the United States. Three-quarters, 
maybe 80 percent, are undocumented. If you remove those people, 
you shut down agriculture.
    So this is the fear that is going on, and they are not 
people that are just migrant. They are there all of the time, 
they are being paid better wages than a Wal-Mart employee, 
better benefits than a Wal-Mart employee. They are paying their 
taxes. They are binded by law. Yes, they are undocumented, but 
they happen to be harvesting the food that people are praying 
over.
    So there is a sense of how you do this without trying to 
destroy the whole economic workforce that is essential to 
America as well. I think that is Congress's responsibility, to 
do comprehensive immigration reform, but, at the same time, I 
think it is your responsibility, as the lead enforcement 
agency, to not just do raids and indiscriminate removing of 
people.
    That is why I am very interested in concentrating on where 
they are already locked up, as in our prisons and jails, and 
even those that may be perpetual in those jails, coming in all 
of the time, you may not get convicted, but they certainly have 
that criminal streak. So I appreciate it, and I will work with 
you on it, and I look forward to your report.
    Mr. Price. Thank you, Ms. Myers, for your testimony this 
morning. We look forward to working with you as we put the 2009 
budget together.
    Ms. Myers. Thank you.
    Mr. Price. With that, the Subcommittee is adjourned.

    [GRAPHIC] [TIFF OMITTED] T3385A.039
    
    [GRAPHIC] [TIFF OMITTED] T3385A.040
    
    [GRAPHIC] [TIFF OMITTED] T3385A.041
    
    [GRAPHIC] [TIFF OMITTED] T3385A.042
    
    [GRAPHIC] [TIFF OMITTED] T3385A.043
    
    [GRAPHIC] [TIFF OMITTED] T3385A.044
    
    [GRAPHIC] [TIFF OMITTED] T3385A.045
    
    [GRAPHIC] [TIFF OMITTED] T3385A.046
    
    [GRAPHIC] [TIFF OMITTED] T3385A.047
    
    [GRAPHIC] [TIFF OMITTED] T3385A.048
    
    [GRAPHIC] [TIFF OMITTED] T3385A.049
    
    [GRAPHIC] [TIFF OMITTED] T3385A.050
    
    [GRAPHIC] [TIFF OMITTED] T3385A.051
    
    [GRAPHIC] [TIFF OMITTED] T3385A.052
    
    [GRAPHIC] [TIFF OMITTED] T3385A.053
    
    [GRAPHIC] [TIFF OMITTED] T3385A.054
    
    [GRAPHIC] [TIFF OMITTED] T3385A.055
    
    [GRAPHIC] [TIFF OMITTED] T3385A.056
    
    [GRAPHIC] [TIFF OMITTED] T3385A.057
    
    [GRAPHIC] [TIFF OMITTED] T3385A.058
    
    [GRAPHIC] [TIFF OMITTED] T3385A.059
    
    [GRAPHIC] [TIFF OMITTED] T3385A.060
    
    [GRAPHIC] [TIFF OMITTED] T3385A.061
    
    [GRAPHIC] [TIFF OMITTED] T3385A.062
    
    [GRAPHIC] [TIFF OMITTED] T3385A.063
    
    [GRAPHIC] [TIFF OMITTED] T3385A.064
    
    [GRAPHIC] [TIFF OMITTED] T3385A.065
    
    [GRAPHIC] [TIFF OMITTED] T3385A.066
    
    [GRAPHIC] [TIFF OMITTED] T3385A.067
    
    [GRAPHIC] [TIFF OMITTED] T3385A.068
    
    [GRAPHIC] [TIFF OMITTED] T3385A.069
    
    [GRAPHIC] [TIFF OMITTED] T3385A.070
    
    [GRAPHIC] [TIFF OMITTED] T3385A.071
    
    [GRAPHIC] [TIFF OMITTED] T3385A.072
    
    [GRAPHIC] [TIFF OMITTED] T3385A.073
    
    [GRAPHIC] [TIFF OMITTED] T3385A.074
    
    [GRAPHIC] [TIFF OMITTED] T3385A.075
    
    [GRAPHIC] [TIFF OMITTED] T3385A.076
    
    [GRAPHIC] [TIFF OMITTED] T3385A.077
    
    [GRAPHIC] [TIFF OMITTED] T3385A.078
    
    [GRAPHIC] [TIFF OMITTED] T3385A.079
    
    [GRAPHIC] [TIFF OMITTED] T3385A.080
    
    [GRAPHIC] [TIFF OMITTED] T3385A.081
    
    [GRAPHIC] [TIFF OMITTED] T3385A.082
    
    [GRAPHIC] [TIFF OMITTED] T3385A.083
    
    [GRAPHIC] [TIFF OMITTED] T3385A.084
    
    [GRAPHIC] [TIFF OMITTED] T3385A.085
    
    [GRAPHIC] [TIFF OMITTED] T3385A.086
    
    [GRAPHIC] [TIFF OMITTED] T3385A.087
    
    [GRAPHIC] [TIFF OMITTED] T3385A.088
    
    [GRAPHIC] [TIFF OMITTED] T3385A.089
    
    [GRAPHIC] [TIFF OMITTED] T3385A.090
    
    [GRAPHIC] [TIFF OMITTED] T3385A.091
    
    [GRAPHIC] [TIFF OMITTED] T3385A.092
    
    [GRAPHIC] [TIFF OMITTED] T3385A.093
    
    [GRAPHIC] [TIFF OMITTED] T3385A.094
    
    [GRAPHIC] [TIFF OMITTED] T3385A.095
    
    [GRAPHIC] [TIFF OMITTED] T3385A.096
    
    [GRAPHIC] [TIFF OMITTED] T3385A.097
    
    [GRAPHIC] [TIFF OMITTED] T3385A.098
    
    [GRAPHIC] [TIFF OMITTED] T3385A.099
    
    [GRAPHIC] [TIFF OMITTED] T3385A.100
    
    [GRAPHIC] [TIFF OMITTED] T3385A.101
    
    [GRAPHIC] [TIFF OMITTED] T3385A.102
    
    [GRAPHIC] [TIFF OMITTED] T3385A.103
    
    [GRAPHIC] [TIFF OMITTED] T3385A.104
    
    [GRAPHIC] [TIFF OMITTED] T3385A.105
    
    [GRAPHIC] [TIFF OMITTED] T3385A.106
    
    [GRAPHIC] [TIFF OMITTED] T3385A.107
    
    [GRAPHIC] [TIFF OMITTED] T3385A.108
    
    [GRAPHIC] [TIFF OMITTED] T3385A.109
    
    [GRAPHIC] [TIFF OMITTED] T3385A.110
    
    [GRAPHIC] [TIFF OMITTED] T3385A.111
    
    [GRAPHIC] [TIFF OMITTED] T3385A.112
    
    [GRAPHIC] [TIFF OMITTED] T3385A.113
    
    [GRAPHIC] [TIFF OMITTED] T3385A.114
    
    [GRAPHIC] [TIFF OMITTED] T3385A.115
    
    [GRAPHIC] [TIFF OMITTED] T3385A.116
    
    [GRAPHIC] [TIFF OMITTED] T3385A.117
    
    [GRAPHIC] [TIFF OMITTED] T3385A.118
    
    [GRAPHIC] [TIFF OMITTED] T3385A.119
    
    [GRAPHIC] [TIFF OMITTED] T3385A.120
    
    [GRAPHIC] [TIFF OMITTED] T3385A.121
    
    [GRAPHIC] [TIFF OMITTED] T3385A.122
    
    [GRAPHIC] [TIFF OMITTED] T3385A.123
    
    [GRAPHIC] [TIFF OMITTED] T3385A.124
    
    [GRAPHIC] [TIFF OMITTED] T3385A.125
    
    [GRAPHIC] [TIFF OMITTED] T3385A.126
    
    [GRAPHIC] [TIFF OMITTED] T3385A.127
    
    [GRAPHIC] [TIFF OMITTED] T3385A.128
    
    [GRAPHIC] [TIFF OMITTED] T3385A.129
    
    [GRAPHIC] [TIFF OMITTED] T3385A.130
    
    [GRAPHIC] [TIFF OMITTED] T3385A.131
    
    [GRAPHIC] [TIFF OMITTED] T3385A.132
    
    [GRAPHIC] [TIFF OMITTED] T3385A.133
    
    [GRAPHIC] [TIFF OMITTED] T3385A.134
    
    [GRAPHIC] [TIFF OMITTED] T3385A.135
    
    [GRAPHIC] [TIFF OMITTED] T3385A.136
    
    [GRAPHIC] [TIFF OMITTED] T3385A.137
    
    [GRAPHIC] [TIFF OMITTED] T3385A.138
    
    [GRAPHIC] [TIFF OMITTED] T3385A.139
    
    [GRAPHIC] [TIFF OMITTED] T3385A.140
    
    [GRAPHIC] [TIFF OMITTED] T3385A.141
    
    [GRAPHIC] [TIFF OMITTED] T3385A.142
    
    [GRAPHIC] [TIFF OMITTED] T3385A.143
    
    [GRAPHIC] [TIFF OMITTED] T3385A.144
    
    [GRAPHIC] [TIFF OMITTED] T3385A.145
    
    [GRAPHIC] [TIFF OMITTED] T3385A.146
    
    [GRAPHIC] [TIFF OMITTED] T3385A.147
    
    [GRAPHIC] [TIFF OMITTED] T3385A.148
    
    [GRAPHIC] [TIFF OMITTED] T3385A.149
    
    [GRAPHIC] [TIFF OMITTED] T3385A.150
    
    [GRAPHIC] [TIFF OMITTED] T3385A.151
    
    [GRAPHIC] [TIFF OMITTED] T3385A.152
    
    [GRAPHIC] [TIFF OMITTED] T3385A.153
    
    [GRAPHIC] [TIFF OMITTED] T3385A.154
    
    [GRAPHIC] [TIFF OMITTED] T3385A.155
    
    [GRAPHIC] [TIFF OMITTED] T3385A.156
    
    [GRAPHIC] [TIFF OMITTED] T3385A.157
    
    [GRAPHIC] [TIFF OMITTED] T3385A.158
    
    [GRAPHIC] [TIFF OMITTED] T3385A.159
    
    [GRAPHIC] [TIFF OMITTED] T3385A.160
    
    [GRAPHIC] [TIFF OMITTED] T3385A.161
    
    [GRAPHIC] [TIFF OMITTED] T3385A.162
    
    [GRAPHIC] [TIFF OMITTED] T3385A.163
    
    [GRAPHIC] [TIFF OMITTED] T3385A.164
    
    [GRAPHIC] [TIFF OMITTED] T3385A.165
    
    [GRAPHIC] [TIFF OMITTED] T3385A.166
    
    [GRAPHIC] [TIFF OMITTED] T3385A.167
    
    [GRAPHIC] [TIFF OMITTED] T3385A.168
    
    [GRAPHIC] [TIFF OMITTED] T3385A.169
    
    [GRAPHIC] [TIFF OMITTED] T3385A.170
    
    [GRAPHIC] [TIFF OMITTED] T3385A.171
    
    [GRAPHIC] [TIFF OMITTED] T3385A.172
    
    [GRAPHIC] [TIFF OMITTED] T3385A.173
    
    [GRAPHIC] [TIFF OMITTED] T3385A.174
    
    [GRAPHIC] [TIFF OMITTED] T3385A.175
    
    [GRAPHIC] [TIFF OMITTED] T3385A.176
    
    [GRAPHIC] [TIFF OMITTED] T3385A.177
    
    [GRAPHIC] [TIFF OMITTED] T3385A.178
    
    [GRAPHIC] [TIFF OMITTED] T3385A.179
    
    [GRAPHIC] [TIFF OMITTED] T3385A.180
    
    [GRAPHIC] [TIFF OMITTED] T3385A.181
    
    [GRAPHIC] [TIFF OMITTED] T3385A.182
    
    [GRAPHIC] [TIFF OMITTED] T3385A.183
    
    [GRAPHIC] [TIFF OMITTED] T3385A.184
    
    [GRAPHIC] [TIFF OMITTED] T3385A.185
    
    [GRAPHIC] [TIFF OMITTED] T3385A.186
    
    [GRAPHIC] [TIFF OMITTED] T3385A.193
    
    [GRAPHIC] [TIFF OMITTED] T3385A.194
    
    [GRAPHIC] [TIFF OMITTED] T3385A.195
    
    [GRAPHIC] [TIFF OMITTED] T3385A.196
    
    [GRAPHIC] [TIFF OMITTED] T3385A.197
    
    [GRAPHIC] [TIFF OMITTED] T3385A.198
    
    [GRAPHIC] [TIFF OMITTED] T3385A.199
    
    [GRAPHIC] [TIFF OMITTED] T3385A.200
    
    [GRAPHIC] [TIFF OMITTED] T3385A.201
    
    [GRAPHIC] [TIFF OMITTED] T3385A.202
    
    [GRAPHIC] [TIFF OMITTED] T3385A.203
    
    [GRAPHIC] [TIFF OMITTED] T3385A.204
    
    [GRAPHIC] [TIFF OMITTED] T3385A.205
    
    [GRAPHIC] [TIFF OMITTED] T3385A.206
    
    [GRAPHIC] [TIFF OMITTED] T3385A.207
    
    [GRAPHIC] [TIFF OMITTED] T3385A.208
    
    [GRAPHIC] [TIFF OMITTED] T3385A.209
    
    [GRAPHIC] [TIFF OMITTED] T3385A.210
    
    [GRAPHIC] [TIFF OMITTED] T3385A.211
    
    [GRAPHIC] [TIFF OMITTED] T3385A.212
    
    [GRAPHIC] [TIFF OMITTED] T3385A.213
    
    [GRAPHIC] [TIFF OMITTED] T3385A.187
    
    [GRAPHIC] [TIFF OMITTED] T3385A.188
    
    [GRAPHIC] [TIFF OMITTED] T3385A.189
    
    [GRAPHIC] [TIFF OMITTED] T3385A.190
    
    [GRAPHIC] [TIFF OMITTED] T3385A.191
    
    [GRAPHIC] [TIFF OMITTED] T3385A.192
    
                                           Tuesday, March 11, 2008.

  CITIZENSHIP AND IMMIGRATION SERVICES: LEGAL IMMIGRATION AND REFUGEE 
                               PROCESSING

                               WITNESSES

EMILIO T. GONZALEZ, DIRECTOR, U.S. CITIZENSHIP AND IMMIGRATION SERVICES
JONATHAN ``JOCK'' SCHARFEN, DEPUTY DIRECTOR, U.S. DEPARTMENT OF 
    HOMELAND SECURITY
TIM ROSADO, ACTING CHIEF FINANCIAL OFFICER, U.S. DEPARTMENT OF HOMELAND 
    SECURITY

                  Opening Statement of Chairman Price

    Mr. Price. This morning we welcome before our subcommittee 
Dr. Emilio Gonzalez, the Director of U.S. Citizenship and 
Immigration Services, or CIS, along with Deputy Director Jock 
Scharfen and Acting Chief Financial Officer, Tim Rosado. We 
look forward to discussing with all of you the budget area and 
policy issues that confront your agency.
    The subcommittee has already met with your counterparts 
from Customs and Border Protection and Immigration and Customs 
Enforcement, the agencies responsible for ensuring that people 
obey our country's customs and immigration laws. Today we will 
discuss the more upbeat topic of legal paths to U.S. residency 
and citizenship, along with your plans for improving CIS's 
services to all of its customers.
    CIS's core mission is processing applications filed by 
those pursuing the legal path to U.S. residency and 
citizenship. During our hearing last year, I congratulated you 
on having effectively eliminated CIS's backlog of immigration 
applications.
    This past summer, however, CIS received a record number of 
applications, including twice as many filings as is normal in 
the months of July and August, just before the CIS fee increase 
went into effect. All of this new work means the application 
backlog has more or less returned.
    You recently estimated it will take 18 months to process 
these naturalization applications instead of CIS's stated goal 
of under six months. I know you share our concern about this 
situation, and we would like your advice on what this 
subcommittee can do to help you expedite processing times.
    In January I led a delegation of Members to the Middle East 
and spoke firsthand with the staff of the U.N. High 
Commissioner for Refugees, as well as with Save the Children 
and other refugee assistance organizations in Jordan. One of 
CIS's most important roles is the efficient processing of 
refugee applications so that vulnerable individuals can be 
given the opportunity for a better life in the United States.
    While I laud the Administration's expansion of the Iraqi 
refugee quota from 7,000 in 2007 to 12,000 in 2008, I am 
concerned by estimates that there are two million displaced 
Iraqis throughout the Middle East with concentrations in 
Jordan, Syria and Lebanon.
    Of course, we hope that most of these Iraqis will be able 
to return to a peaceful and stable Iraq, but we also need to 
make sure that we are doing enough to help those whose 
displacement from their homes is, to a significant extent, a 
consequence of U.S. policies. We have a particular obligation 
to those who have worked with our personnel in Iraq and may be 
in danger for that reason.
    CIS plans to improve services to its customers by 
transforming its business processes and modernizing its 
information technology systems. A successful transformation 
will mitigate many of the delays and processing problems that 
plague CIS and essentially eliminate paper-based adjudications.
    In the CIS reprogramming request that the subcommittee 
approved last month, however, we learned that the business 
transformation project carried funds forward from last year 
because it could not award contracts critical to its work. 
Hopefully this does not indicate a slipping timeframe for the 
transformation effort, and we will want to hear from you about 
the status of that effort.
    CIS is also responsible for maintaining and promoting the 
E-Verify system, which allows employers to check the 
immigration status of new hires. Your budget requests $100 
million for the E-Verify system, a hefty increase from the $60 
million provided by Congress for the current year. While 
enrollment in the system is growing, I have questions about the 
rationale for a 67 percent increase for E-Verify, given that 
the current 55,000 subscribers use only about five percent of 
the system's capacity.
    Your budget also requests $50 million for a REAL ID data 
system hub, which will allow state departments of motor 
vehicles to cross-check drivers license applications against 
federal and state databases. I understand CIS may have some 
technical expertise in this area, but I wonder if this is 
really a responsibility we should ask CIS to take on since your 
plate is already rather full.
    So we have a lot to discuss. Dr. Gonzalez, I will ask you 
to give us a five minute summary of your testimony. We will 
enter the rest of your written statement in the hearing record.
    Before you begin, however, I yield to Mr. Rogers for any 
comments he cares to make.

               Opening Statement of Ranking Member Rogers

    Mr. Rogers. Thank you, Mr. Chairman, and welcome, Dr. 
Gonzalez and our other guests from CIS.
    Today we are here to examine the mission and modernization 
of CIS and how the 2009 budget request helps the agency meet 
its current challenges. CIS's role in our immigration system 
ranges from processing millions of immigration benefit 
applications to processing thousands of Iraqi refugees 
overseas, no small chore by anyone's estimation.
    It was just four years ago that CIS was suffering from the 
same affliction confronting ICE, something I like to call an 
INS hangover. At that point CIS was facing an enormous backlog 
of immigration benefit applications, and its IT systems were 
still mired in not the 20th century, but probably something 
more like the 18th century.
    After lots of pushing from this subcommittee and 
substantial direct appropriations to augment fee collections, 
CIS got closer to meeting the six month benefit processing goal 
only then to face bureaucratic problems with the FBI's 
background checks.
    Unfortunately, this showed us that even if you plan your 
work and work your plan, you still get stuck in some areas 
sometimes, but in spite of these recent setbacks there are some 
bright spots as CIS has surpassed its goals in important areas.
    Now 43,000 American employers have the ability to determine 
whether their employees are here legally through the rapidly 
improving E-Verify system. This is an important step in 
addressing illegal immigration and enhancing our national 
security. Participation in this voluntary program has increased 
nearly fivefold, far exceeding the goal of even its ardent 
supporters.
    In addition, the long-running IT transformation and the 
modernization of CIS's business systems are beginning to reach 
a level of maturity, but this is against a backdrop of being 
tasked to shepherd the IT infrastructure for implementation of 
the REAL ID Act, something that dramatically expands CIS's core 
responsibilities.
    So what I would like to learn today is whether CIS has the 
right systems and the right infrastructure to meet its current 
responsibilities, as well as its expanding mission areas. I 
would like also to know how this 2009 request moves CIS forward 
into the 21st century, improves customer service to those who 
lawfully seek citizenship and provides the capabilities to 
tackle the REAL ID implementation.
    As you wrap up your final year as director, Dr. Gonzalez, I 
would like to hear from you that you are leaving CIS stronger, 
more responsive, more dependable than when you found it.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Dr. Gonzalez, please proceed.

   Statement of Mr. Emilio Gonzalez, Director, U.S. Citizenship and 
                          Immigration Services

    Mr. Gonzalez. Thank you, Chairman Price, Ranking Member 
Rogers and other Members of the committee. I appreciate the 
opportunity to appear before you today to testify about our 
fiscal year 2009 budget request, as well as several issues 
important to USCIS and to the subcommittee.
    First let me begin by thanking the Members of the 
subcommittee for your continued strong support of USCIS and its 
programs. Our appropriations have been absolutely critical to 
helping reduce our application backlog, moving forward with 
transformation efforts, expanding E-Verify and, most recently, 
addressing the FBI name check backlog. I will briefly touch on 
the status of some of these important issues in my testimony 
today.
    As you know, we implemented a new fee structure last summer 
after an exhaustive year-long fee review and rulemaking 
process. $2.5 billion of our $2.7 billion budget request is 
funded through fee resources. Ensuring that we efficiently use 
resources is a critical priority for this agency.
    In these efforts I am proud of the hard work and dedication 
of USCIS personnel who completed more than 6.2 million 
applications and petitions in fiscal year 2007. However, as all 
of you know, during June, July and August of last year we 
received in excess of three million applications and petitions 
for immigration benefits, nearly 1.4 million of which were 
naturalization applications.
    Such volume in just a few months is unprecedented in the 
history of immigration services of this nation. This surge is 
in reality good news. Those who apply for immigration benefits 
demonstrate a sincere desire to participate fully in our 
country's civic life.
    However, as Members of this committee and President Bush 
have expressed, I do not want to see our backlog increased or 
delay applicants from receiving the benefits they are entitled 
to. With these goals in mind, USCIS remains committed to 
providing services as expeditiously as possible. Because of the 
quick review and approval of our surge-related reprogramming by 
the subcommittee, we have a plan in place to accomplish our 
pending work quickly.
    Two adjudicator job announcements provided a combined pool 
of more than 31,000 applicants for base fee rule and surge 
positions. As of February 17, we have made more than 940 
selections from this group. We have hired 450 new permanent 
full-time adjudicators since the beginning of this fiscal year.
    We have also garnered interest from more than 200 retirees 
interested in becoming reemployed annuitants. In addition to 
hiring efforts, we have enhanced our basic training program to 
ensure that those new employees are job ready upon graduation.
    Leveraging information technology resources, we plan to 
expand automated processes for certain applications where 
individuals are already qualified and in the USCIS database. We 
are also modifying appropriate administrative procedures, 
centralizing the intake of naturalization applications to a 
lock box and the preprocessing of these applications to the 
National Benefits Center.
    By making such adjustments, more adjudicator time will be 
available to adjudicate cases, thus enhancing their ability to 
make sound decisions to detect possible fraud.
    In recent months we have also made significant progress on 
the FBI name check delay in terms of our policies, plans and 
operations. With this subcommittee's support, we have committed 
$14.5 million to the FBI to expand their contract workforce and 
ensure that steps are taken to resolve pending name check 
cases.
    More than 200 contractors are paid for and have been 
trained to handle the USCIS workload. This is up from a handful 
a contractors and FBI employees last year. Seeking to extend 
and expand this contractor workforce in fiscal year 2008 
through most of fiscal year 2009, we are finalizing a separate 
$20 million appropriation plan that will soon come before this 
committee.
    Highlighting some of the good news, I would like to now 
mention our progress in building national support for E-Verify. 
To date, more than 55,000 employers have signed on to this 
voluntary program with about 1,000 new employers joining every 
week. Participants are able to instantly verify the employment 
eligibility of their new hires in 93 percent of the cases we 
handle. Of those seven percent who receive a mismatch letter, 
less than one percent is contested by the new hire and 
questioned.
    The E-Verify infrastructure is well equipped to handle 
future growth and expansion, and our $100 million request for 
fiscal year 2009 will help us sustain a compliance and 
monitoring program and make targeted system improvements, 
including enhancements such as the expansion of the photo tool 
to include State Department passport photos.
    Finally, given our mutual strong interest in the Iraqi 
refugee situation, I want to mention what we are doing to step 
up efforts to meet the Administration's target of admitting 
12,000 Iraqi refugees to the United States this fiscal year.
    I currently have more than 20 employees in the region 
performing Iraqi processing and many others in Washington 
devoting substantial time to this effort. To accomplish this 
goal, we know we must work aggressively to complete at least 
16,000 interviews by early this summer. By the end of this 
month we expect to have completed more than 8,000 Iraqi 
interviews for the year.
    I will add, sir, that I too visited Iraq and Jordan in 
November and met with our folks, and they are an incredibly 
dedicated group of professionals out there.
    Thank you again for the opportunity to appear before this 
committee, and I look forward to working with you on these and 
other matters critical to our immigration system and the 
operation of USCIS.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T3385A.214
    
    [GRAPHIC] [TIFF OMITTED] T3385A.215
    
    [GRAPHIC] [TIFF OMITTED] T3385A.216
    
    [GRAPHIC] [TIFF OMITTED] T3385A.217
    
    [GRAPHIC] [TIFF OMITTED] T3385A.218
    
    [GRAPHIC] [TIFF OMITTED] T3385A.219
    
    Mr. Price. Thank you very much, Dr. Gonzalez. We appreciate 
that report and will now ask you a few questions.

                             IRAQI REFUGEES

    I will start with the matter of Iraqi refugees, with which 
you closed your statement. You referenced the goal of 12,000 to 
be admitted in this fiscal year, and you referenced the number 
of interviews, I believe 18,000, that you thought would be 
relevant to accomplishing that goal.
    Mr. Gonzalez. We are going to do 16,000 interviews.
    Mr. Price. Sixteen thousand. I am sorry. I would like to 
ask you a couple of questions about the status of that effort 
and also some impediments that may stand in the way.
    As I said, Representative Rogers, other Members and I 
traveled to the region in January, met in Amman, Jordan, with 
staff from the U.N. High Commissioner for Refugees, with Save 
the Children and other groups working on this issue. We did 
hear some concerns about the level of CIS, the personnel, the 
number of personnel appointed to this effort.
    I do not know if you are still following this so-called 
circuit rider system where you have 60-day periods where CIS 
comes in with a team and conducts interviews. It appears that 
this is a significant task for the current fiscal year, and it 
is not clear that the level of staffing, the pacing of the 
interviews, is going to get us there. So I wonder about that 
circuit rider model.
    I know you are conducting interviews in Jordan, in Baghdad, 
probably other places. You had trouble getting the access you 
needed in Syria. I wonder if you could just reflect on the 
current deployment of your personnel, where they are, the 
extent to which that level of deployment and access is going to 
get the job done.

                   IRAQI REFUGEES--CIRCUIT RIDE MODEL

    Mr. Gonzalez. Sir, thank you for the question. We do use a 
circuit ride model. It is a model that works.
    I will tell you that we go to Amman, Jordan, as an example 
to interview cases once we are told that those cases are 
interview ready by the OPE, the overseas processing entity. We 
are ready to interview any case that comes before us, but it is 
a rather, and I am sure you were briefed on it, laborious 
process--the intake, the actual preparation of the case file, 
the interview process, the approval process.
    Then the OPE then schedules the appropriate level of 
training, medical exams, flights. They have to do some work 
back in the States as to which immigrant advocacy group or NGO 
will take those immigrants and to what city, so there are a lot 
of moving parts in that process.
    But I will tell you that from our perspective we have 
interviewed 8,000 people in the first half of this fiscal year. 
We will interview another 8,000 by the end of the third quarter 
with our expectation that we will have 12,000 cases approved by 
the end of this fiscal year to come in the United States.
    The staffing is where we need it to be. We actually have an 
additional 15 FTE positions that we are going to augment our 
refugee corps with, but we are also using members of our asylum 
corps so it is not so much staffing. It is the opportunity to 
interview a case once it is made interview ready for us.
    We have interviewed on a very, very limited basis in Iraq 
proper, and we have also, as you mentioned, gone into Syria, 
not without some difficulties and some restrictions in working 
there, but our folks have interviewed individuals in Saudi 
Arabia. They have interviewed them in Cairo and Istanbul.
    So the process works, and we are very, very confident that 
we will be able to reach our goal of admitting 12,000 
individuals by this fiscal year.

                      MATERIAL SUPPORT RESTRICTION

    Mr. Price. When we were in Amman we heard a good deal about 
the laws and regulations under which you operate, particularly 
the material support issue.
    The immigration laws, as one would expect, that govern 
CIS's admittance of refugees bar the agency from approving 
those who have rendered material support to terrorist groups. 
However, we understand that there has been some ambiguity in 
applying this restriction.
    In some cases it has applied to people who have been forced 
to pay ransoms to terrorist kidnappers. Of course, that is not 
an uncommon event in Iraq. Sometimes, the kidnap victims must 
collect money from friends and relatives to pay ransoms. They 
are classified as terrorist fundraisers and there are even 
stricter prohibitions on their immigration.
    I know that you have been concerned about this and have 
attempted to address it to some degree. I wonder if you could 
fill us in on what you are doing to waive these so-called 
material support prohibitions in cases where they should be 
waived and whether you have the authority that you feel you 
need to exercise these waivers.
    We would like to get to the heart of this issue. We know it 
has been a matter of concern, and if there is a need for the 
Congress to make a legal change we would like to know about it.
    Mr. Gonzalez. There have been problematic cases in the 
initial processing of this refugee population. However, we have 
now within the last month or so approved 233 Iraqi material 
support cases. Included in those cases are some of these duress 
cases that you described.
    Out of those cases that we have reviewed and interviewed 
and adjudicated, there have been 10 denials and 233 approvals 
on the material support cases. On the cases where there have 
been the duress involved, I believe, and I will have to check 
this, but there may be approximately 70 cases involved where 
there was some sort of duress out of those Iraqi cases.
    So in looking at this workload of Iraqi refugees, sir, we 
have been making progress on the material support cases. I 
believe that as of this morning when we went and took a look at 
the material support cases we had about 70 cases still waiting 
to be processed, but we think that that has been a good 
progress made on those cases.
    Mr. Price. Do you feel the criteria you are working with 
are sufficiently clear, and also have you been able to 
communicate what those criteria are to the agencies you are 
working with, to the NGOs, to the U.N. High Commission, others 
who are dealing with these refugees at an early point in the 
process?
    Mr. Scharfen. Right now we are still working with the State 
Department in clarifying some of these issues--for instance, 
some of the combatant issues--and we will be able to answer 
that question more confidently in a few weeks when we finish up 
the processing of going through the new process with the State 
Department, sir.
    And so I would like to be able to get back to the committee 
on that about whether or not we would need any new authorities. 
We are working out the new procedures with the State 
Department.
    [The information follows:]

    Question. USCIS states it will get back to the committee on whether 
or not any new authorities are needed in conjunction with the State 
Department on refugee processing.
    As was noted in the record, USCIS has the necessary legal authority 
to exercise material support exemptions for cases in which material 
support was provided under duress to an undesignated (Tier III) 
terrorist organization, as defined at section 212(a)(3)(B)(vi)(III) of 
the Immigration and Nationality Act (INA), among the Iraqi applicants. 
The typical pattern we see is that an Iraqi refugee has paid ransom to 
rescue a kidnapped family member.
    The Consolidated Appropriations Act, 2008 (CAA) amended the 
Secretary of Homeland Security's discretionary authority (as well as 
that of the Secretary of State) not to apply certain terrorism-related 
inadmissibility grounds, beyond just the material support ground, to 
aliens who would otherwise be inadmissible. The use of this amended 
discretionary authority requires action by the Secretary of Homeland 
Security, and USCIS has presented to DHS certain categories of cases 
for which USCIS believes a discretionary exemption would be 
appropriate.
    There are some provisions of the CAA that do not require 
Secretarial action prior to implementation, including the provisions 
that name ten groups that are not to be considered terrorist 
organizations under the INA based on any activities committed prior to 
CAA's enactment. USCIS adjudicators have received preliminary guidance 
on the application of these provisions, and they already consider cases 
under this provision of the statute. Formalized guidelines and 
instructions have been drafted and are in the clearance process.
    At the same time, DHS is committed to establishing a process in 
consultation with the Department of State (DOS) for re-presentation to 
USCIS of cases previously denied refugee status that may benefit from 
the new legislation's automatic relief provisions.
    USCIS has recently issued instructions to the field to withhold 
adjudication of the case when an existing exercise of the Secretary's 
exemption authority is not available with respect to a particular alien 
who provided material support to a terrorist organization, but the 
alien is otherwise eligible for the benefit. Cases will not be held, 
however, where there is no statutory authority to exempt the material 
support, such as those involving the provision of material support to a 
designated terrorist organization not under duress.

    Mr. Price. I think we do need to know that because there 
have been reports, as I am sure you realize, that the counsels 
for CIS and State have been unsure how to interpret certain 
aspects of the law, including the law as amended in the foreign 
operations appropriations bill last year.
    Mr. Scharfen. But I do think we will get back to you on the 
remaining outlying issues, sir.
    But I do want to just stress that as to the duress cases we 
were able to get some guidance that we were comfortable with to 
move a number of those cases, so I do see that as progress, 
sir.

             SPECIAL VISAS FOR IRAQIS EMPLOYED BY THE U.S.

    Mr. Price. Thank you. Finally let me ask about the special 
interest visas also of course pertaining to Iraq and 
particularly to Iraqis who were employed by the U.S. in that 
country and now are under threat or are perceived to be under 
threat because of that connection.
    The 2008 Defense Authorization Act increased from 500 to 
5,000 the number of Iraqis who could apply for special visas 
starting in fiscal 2009. Now, this is not going to happen all 
at once. It will take some time to implement it.
    What is your timeframe for publishing regulations, 
establishing the processes for dealing with these 5,000 slots 
in 2009, and how does this intersect with the regular program 
that you have been describing?
    Mr. Scharfen. There are some significant differences 
between the two. The most recent law, for instance, applies 
just to Iraqi refugees whereas the interpreter program, the 
earlier program, applied to the Afghan as well as the Iraqi 
populations.
    As well as there are some time differences with the second 
law picking up, as I understand it, in fiscal year 2009 and 
also having an extra step involved in criteria regarding 
threats to the individuals involved whereas the first law for 
the interpreters did not have that criteria involved in it.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T3385A.220
    
    [GRAPHIC] [TIFF OMITTED] T3385A.221
    
    [GRAPHIC] [TIFF OMITTED] T3385A.222
    
    We are taking a look at that as we speak, sir, comparing 
the two statutes and coming up with guidance on that. There are 
significant differences between the two of them. We will be 
providing guidance on that and getting back to the committee 
with our interpretations of the two laws and how we would 
provide guidance on that, but that is an ongoing effort as we 
speak, sir.
    Mr. Price. Of course, it is not just an administrative 
issue. There is also a question of how many potentially 
eligible people there would be who want to apply and whether 
5,000 is a good estimate, as well as whether it is a reasonable 
number for you to process in an orderly way.
    Mr. Scharfen. And we will address that as well, sir, when 
we get back, when we finish with our analysis of the two laws, 
sir. We are doing that in conjunction with the State 
Department.
    [The information follows:]

    Question. In response to Chairman Price, USCIS states it will 
provide a number of how many potentially eligible people in Iraq who 
might want to apply for special interest visas; whether 5,000 is a good 
estimate, and whether it is a reasonable number for USCIS to process in 
an orderly way.
    Insert for the Record. USCIS defers to the Department of State 
(DOS) for any estimate of anticipated demand for special immigrant 
visas under section 1244 or whether 5,000 is an appropriate estimate. 
Our experience with the section 1059 interpreter program has been that 
demand has been substantially in excess of authorized numbers. Because 
the numbers, time frame and eligibility criteria for section 1244 are 
different, as well as dependent on future conditions in Iraq, that 
experience might not carry over to the section 1244 program. As USCIS 
processes millions of immigrant application and petitions every year, 
we do no anticipate that 5,000 is an unreasonable number for USCIS to 
process in an orderly way under this program (noting, however, that the 
initial burden to determine legibility is borne by DOS's Chief of 
Mission, Baghdad, rather than by USCIS).

    Mr. Price. Thank you.
    Mr. Scharfen. Yes, sir.
    Mr. Price. Mr. Rogers.

           FBI AND CIS BACKGROUND CHECKS--APPLICATION BACKLOG

    Mr. Rogers. Back to the immigration application backlog. 
You say that one of the main problems is the FBI's slowness in 
doing the background checks. Does CIS do some of the background 
checks yourself?
    Mr. Gonzalez. We do conduct security checks, sir. The FBI 
name check is part of the greater security process.
    Mr. Rogers. So only they can do the name check?
    Mr. Gonzalez. We do some name checks through our own 
systems, but we go to them as a federal law enforcement agency 
to see if there is information that they hold that we do not.
    Mr. Scharfen. Yes, sir. If I could interject, sir, they own 
the documents. If I could just for a minute, they have a paper-
based system just like our system that they want to transform. 
They do first a computerized check on systems that they own and 
operate, and then they go out when necessary to do a paper 
check.
    They have over 200 offices in which these FBI records could 
reside at. They do a call on them. They get brought up, and 
they have a very laborious, manpower-intensive process in those 
instances when a paper file has to be brought up and reviewed. 
So it is there. That is their system of records. They have a 
program, a national name check program that they run.
    What we do on the front end is we do some of their IBIS 
checks and text checks that we can do electronically, wants and 
warrants, as well as taking the fingerprints and submitting the 
fingerprint check to the FBI. Those generally clear within 24 
to 48 hours.
    Mr. Gonzalez. But to put it in perspective, since last 
week--as of last week--the FBI owns 365,000 of our files.
    Mr. Rogers. I cannot hear you.
    Mr. Gonzalez. The FBI has 365,000 name check backlogs of 
ours as of last week.
    Mr. Rogers. Backlog?
    Mr. Gonzalez. Yes, sir.
    Mr. Rogers. Now, you say that at first the FBI does the 
computer check, and then you say if necessary they go to the 
paperwork scattered around 200 sites. What would trigger that 
secondary search?
    Mr. Scharfen. If the name is identified, for instance, as 
the subject to an ongoing criminal investigation then they 
would want to get the record from the office where the 
investigation is being conducted.
    Mr. Rogers. What percent of those cases would they do that 
in?
    Mr. Scharfen. It is a small percentage of cases. Normally 
it is approximately 98 percent of the cases can be cleared and 
the remaining two percent or less end up having to have a more 
in-depth name check.
    Mr. Rogers. So 98 percent of the cases that they check can 
and are done by the computer only?
    Mr. Scharfen. Approximately, yes, sir, that are cleared.
    Mr. Rogers. That is practically all of them.
    Mr. Scharfen. Yes, sir. Because of the numbers that we are 
dealing with, if you have a small accumulation of positive hits 
on the name check--in other words, there is some type of 
indication that you want to follow up on; for instance, someone 
is, like we said before, subject to the investigation--and 
there is a slowdown in that process that can accumulate for a 
while.
    We had also earlier on asked for a number of the name 
checks to be rerun, and that request has still yet to work 
itself through the system. That is the backlog which we are 
trying to work through.
    Mr. Gonzalez. But before that, sir, about 95, 96, 97 
percent of our cases clear the FBI in that initial six month 
period.
    But it is, as you said, when you start talking about the 
volume that we handle that two percent, if it is backlogged, 
starts to add up and before you know it you have the size of a 
small city of people that are involved, people whose lives are 
at stake, people who are flooding you with constituent mail 
wanting to know the status of their case.
    Mr. Rogers. So you are working with the FBI to streamline 
the process, right?
    Mr. Gonzalez. Yes, sir.
    Mr. Rogers. You have touched upon that, but I need to know 
more about what you are doing and what they are doing.
    Mr. Gonzalez. Well, just resource-wise, and I will let Jock 
talk about the specifics because since we identified this as a 
huge problem for us I detailed my deputy to work hand-in-hand 
with the Deputy Director of the FBI to come up with a solution, 
but resource-wise we have put $14.5 million into the FBI so 
that they can go out and hire additional contractors.
    Before we were just a client, as they have many others in 
the federal government. We put our money in so that they could 
go out and hire people. They now have I believe close to 220 
people that they have hired that will only work on our files 
and that we have trained them to look at things that we are 
most interested in.
    We are also going to ask for $20 million for additional 
support for this effort because we want to be able to clear all 
of these backlogs, some of which go back four years, by the 
way, to a point where it should not take more than 60 days on 
average to get all of these done.
    So resource-wise we are working with them. Process-wise we 
are also working with them to instruct the FBI on those things 
that are most relevant to us. We look at different things than 
they do.
    I will go ahead and let Jock get into the details of it, 
but we have a constant communication with the FBI. We met 
regularly at the highest levels. Our Acting Deputy Secretary at 
DHS has met with his counterparts, and they understand the 
gravity of this situation.
    This is not only having a great cost in human lives because 
people's lives are at stake here, but it is also costing my 
agency. It is costing my lawyers a great deal of time. The 
lawsuits that we get are incredible. The time my attorneys have 
to spend on these cases basically keeps them from doing 
anything else, quite frankly.
    So with that, I will defer to Jock.
    Mr. Scharfen. Yes, sir. We have been working with your 
staff, sir, about how we were going to spend the additional $20 
million that was appropriated for the backlog elimination, and 
there is a business plan. As a matter of fact, we just finished 
up commenting on it I hope for the last time. We are pushing it 
now forward back to the FBI to let them take a look at it one 
more time and then up to DHS and OMB.
    What is most important about that work plan, sir, is for 
the first time--I believe for the first time ever--there is a 
work plan with a calendar that shows when the FBI will clear 
certain categories of pending FBI name checks, so what they 
have done is they have broken down the pending name checks into 
groups of, for instance, the ones that are older than four 
years, ones that are older than three years, ones that are 
older than two years, one year, working down towards a goal 
that we would end up being down to first down to a six month 
wait and then down to 90 days and then finally our goal is to 
have it down to 30 days. It has to be down to 30 days.
    If we are going to work down the processing time for 
naturalization cases, under the fee rule our ultimate goal is 
to be at a sustainable processing time of five months for 
naturalization cases. In order to achieve that we have to have 
a 30-day turnaround for FBI name checks.
    That schedule we hope we will be able to give to the 
committee sooner rather than later. We will also be able to 
then give that out to the public so that the public can see the 
work plan that we will be working to in conjunction with the 
FBI.
    Mr. Rogers. Now, the arrangement with the FBI that you have 
described, has that been reduced to writing? Is there a 
written----
    Mr. Scharfen. Yes, sir. We will be giving that to you. It 
is in draft form right now. We will be providing that to you, 
sir, and to the committee.
    Mr. Rogers. When can we expect it?
    Mr. Scharfen. I think within weeks, sir.
    Mr. Rogers. Well, would you say that the FBI backlog is the 
main reason for application backlog?
    Mr. Scharfen. No, sir, I cannot say that. There is an 
accumulation of cases that we were going to have to work 
through with or without the FBI backlog being a factor.
    Mr. Rogers. And what do you mean, work through?
    Mr. Scharfen. Well, we normally receive, as you know, sir, 
we average about 700,000 naturalization applications a year. We 
received 1.4 million. That is pushing up our process time for a 
naturalization case.

                    IMMIGRATION APPLICATION BACKLOG

    We were saying 16 to 18 months processing time. The 
Director was just informed yesterday that that process time is 
going to be 14 to 16 months, which is already an improvement, 
and that is because of the different process changes that we 
have done, the hiring that the agency has done, the overtime 
that is being worked.
    The Director just went out to Baltimore on Saturday to 
observe overtime work on the naturalization cases that were 
going on in Baltimore because we have front loaded our 
overtime, and we will be paying additional overtime to work 
this naturalization backlog.
    But the way we measure that backlog generally, sir, is on a 
processing time. We were on seven months before the surge. We 
thought we were going to be at 16 to 18 months. Today we can 
say the processing on average is going to be between 14 to 16 
months, and we are working hard to do better than that as well, 
sir.
    That is independent, to get back to your original question. 
That is independent of the FBI name check.
    Mr. Gonzalez. But that has to do with the surge that we got 
last year. When we start talking about those cases that have 
been held up for one, two, three, four, five years that is a 
direct result of the FBI name check.

                        APPLICATION FILING SURGE

    Mr. Rogers. Finally, what caused the surge last year? Why 
all of a sudden did you have these millions of applicants?
    Mr. Gonzalez. Sir, a couple of things actually. One, we 
increased our fees in late July, so obviously a lot of people 
wanted to get in under the old price.
    Secondly, a lot of immigrants rights groups were out 
getting people to apply, and they had very successful 
campaigns.
    Lastly, I think the whole issue of the immigration debates 
last year. You know, we have millions--probably about eight 
million--people in this country that are legal permanent 
residents that could become citizens if they just applied, and 
they have not.
    So I think a lot of those folks saw the debates going on, 
which touched them, and they decided that rather than to be 
observers of the U.S. political process they wanted to be 
participants. So all these things came to a head so that in 
July, our numbers were 360 percent higher than July of the 
previous year just in that month.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Price. All right. Thank you.
    Ms. Roybal-Allard.

                    IMMIGRATION APPLICATION BACKLOG

    Ms. Roybal-Allard. I just want to say I think the increase 
in fees was a big factor. I know that it was in parts of my 
district because it went up so high.
    It is my understanding that there are roughly about one 
million applicants that you still have to process. Is that the 
correct number?
    Mr. Gonzalez. We got 1.4 million for naturalization.
    Ms. Roybal-Allard. 1.4 million?
    Mr. Gonzalez. Yes, ma'am.
    Ms. Roybal-Allard. Okay. How many of those do you think 
will complete the process by October, because I know there are 
a lot of folks who are hoping that they will be able to become 
citizens in order to participate in the November election. Do 
you have a sense of how many you will----
    Mr. Gonzalez. It is our expectation that, for example, 
those that applied in May and June will have their applications 
finished by the end of the fiscal year. Those that applied in 
July, I would say a fair number.
    It is really hard to gauge in statistics or percentages 
because each case is individual and you really never know the 
content of a case. Some cases will be very smooth. In fact, I 
have been to naturalization ceremonies recently where we have 
already naturalized people that have applied in July. It is all 
going to depend on the case.
    It would be very difficult for me to give you a precise or 
exact number as saying X percent of 1.4 million will in fact be 
citizens by the beginning of the next fiscal year.
    Ms. Roybal-Allard. So you do not have any sense of it at 
all?
    Mr. Gonzalez. Only in general terms. Again, the fact that 
we are already doing cases that applied in July tells us that 
we are on track, but the problem we have is that our work is 
retail so you have some large urban areas--I will tell you 
L.A., Miami, New York, perhaps Chicago--where because they do 
have large immigrant populations the filings were highest.
    You have other areas in the country where there is a 
negligible surge, and obviously there will be little, if any, 
effect on those applications compared to the other ones. Again, 
it would be very difficult for me to give you a precise number 
at this point.

                         MATERIAL SUPPORT CASES

    Ms. Roybal-Allard. I want to go back to the issue that was 
raised by the Chairman with regards to the applications that 
have been denied for permanent residents and family 
unification.
    I have been told that the denial letters that are being 
issued not only fail to mention the possibility of filing a 
motion to reopen the cases, but they pretty much indicate 
instead that there is no possibility of appeal. Is that true? 
If it is not, do you have a copy of what is sent out?
    This is the information we are getting from some fairly 
reputable organizations that say these things are happening.
    Mr. Gonzalez. Are you talking about denial for citizenship 
or for legal permanent resident?
    Ms. Roybal-Allard. For legal permanent resident or family 
unification, having to do with the same issue that was raised 
by the Chairman with regards to some of these groups from 
Afghanistan, for example, that have been denied application.
    They are saying that in that information there is no 
information about the appeal process.
    Mr. Gonzalez. Okay.
    Ms. Roybal-Allard. In fact, the letter indicates that there 
is no other----
    Mr. Gonzalez. This is material support cases you are 
talking about?
    Ms. Roybal-Allard. Yes.
    Mr. Gonzalez. Okay. Go ahead.
    Mr. Scharfen. I will get back to you, ma'am, on the form 
that we are using, and I will look into that and get back to 
you today.
    This is the first time that has been brought to my 
attention about the adequacy of the notice of denial to an 
applicant in this group of applications. I will look into it. I 
will get back to you shortly today.
    [The information follows:]

    Question. In response to Rep. Roybal-Allard, USCIS states it will 
provide explanatory information relating to denial letters that fail to 
mention the possibility of filing a motion reopen a case and that 
indicates instead there is no possibility of appeal.
    Insert for the Record. Only unfavorable decisions on certain 
applications and petitions may be appealed. While the regulations do 
not generally provide appeal rights on denied Applications to Register 
Permanent Residence or Adjust Status (Forms I-485) or Applications for 
Family Unity Benefits (Forms I-817), such applicants are generally 
affordable the opportunity to file a motion to reopen or reconsider the 
denial decision under 8 C.F.R. Sec. 103.5. As a matter of practice, 
U.S. Citizenship and Immigration Services (USCIS) does not routinely 
advise applications whose adjustment of status applications have been 
denied of their right to file a motion to reopen or reconsider. 
However, USCIS will begin providing notice of the opportunity to file a 
motion under of 8 C.F.R. Sec. 103.5 for cases denied under terrorism-
related inadmissibility grounds.
    Additionally, applicants for adjustment of status who are placed in 
removal proceedings can renew their applications for adjustment de novo 
before an immigration judge. Immigration judges, however, do not have 
jurisdiction to exercise the Secretary's authority to exempt support or 
other terrorist-related inadmissibility grounds.

    Ms. Roybal-Allard. Or perhaps you could also call my office 
so they can give you more information on that.
    Mr. Scharfen. Okay. Yes, ma'am.
    Ms. Roybal-Allard. All right. Thank you.
    Mr. Price. Mr. Culberson.

                       SECURITY OF CIS PROCESSES

    Mr. Culberson. Thank you, Mr. Chairman.
    Thank you, Director Gonzalez. I appreciate your service to 
the country. If I could, I wanted to focus on something that 
just continues to concern me.
    I know that the entire mission of Homeland Security, 
certainly your mission, is to protect the United States against 
terrorists coming into the United States, to make sure that you 
are guarding the only other door that they can come in through.
    The Border Patrol, of course, is protecting our borders, 
and it is your responsibility to make sure they are not coming 
into the ports of entry or using our visas, green cards, et 
cetera, to enter the United States to come here to hurt us.
    I noted that of course the statute that creates Homeland 
Security, the statute that created CIS, pointed out that was 
your primary responsibility. I am quoting from a committee 
report the year before last, and this has been consistent with 
this committee's approach that, quoting from the committee 
report:
    ``The committee is concerned that DHS agencies are not 
placing top priority on their homeland security missions, but 
are in some cases giving more weight to less urgent legacy 
activities. It is the duty of each officer and employee of each 
element of the Department of Homeland Security to protect the 
homeland of the United States, including by ensuring that 
potential terrorists and criminal aliens do not enter the 
United States.''
    We directed the Secretary to ensure that CIS in 
particular--``The committee directs the Secretary of Homeland 
Security to ensure that the policies and procedures of U.S. 
Citizenship and Immigration Services and every other element of 
DHS are consistent with that duty.''
    The reason I mention that is I am really struck by the fact 
that in your entire testimony here today I only see the word 
security twice. There is no discussion of protecting the United 
States against terrorists. Your entire focus of your testimony 
here, and of course we want to make sure that people are coming 
here legally and want to become productive American citizens, 
that we want to make sure that they can get here in an 
expeditious way.
    Certainly we in Texas know better than anywhere the need 
for a labor force that people can come into the U.S. and we 
will help you with that, but I am frankly appalled, Mr. 
Chairman and Mr. Rogers, by the fact that the entire thrust of 
this testimony, and I am looking at the third paragraph here.
    Your testimony, Director Gonzalez, is that we expect to 
improve customer service and efficiency. You are clearly 
referring to the foreign national applying for the privilege of 
entering the United States, the foreign national applying for 
the greatest privilege ever created in the history of the 
world.
    I am just struck. I mean, the customer is my daughter. The 
customer are the people of the United States. I just think your 
focus is all wrong. I would welcome the comments from my 
colleagues. I know that we are all concerned about the backlog, 
but I am just frankly--I have to tell you--deeply disappointed 
and concerned.
    When I visited the CIS offices a couple years ago, and we 
have had several meetings, Director, and you have I know 
recognized. We talked, for example--Mr. Chairman and Mr. 
Rogers, I know I brought this to your attention--in the Houston 
CIS office they are actually giving out movie tickets, free 
dinner coupons and movie tickets, to employees that crank 
through the most applications. It is just a real concern.
    And then I read in the paper that you are on the brink of, 
and I would like to ask first and then address my bigger 
concern, a policy that you either have adopted or are about to 
adopt that we are going to start giving out green cards to 
people before you run the background check?
    There is an old Islamic I think saying I read in a 
wonderful book that he who waits 40 years for revenge is in a 
hurry. Osama bin Laden is not going away. These guys are 
patient, and you guys are talking about cranking through the 
applications as far as you can to improve customer service and 
efficiency?
    Clearly an honest person that wants to come here and work, 
Godspeed to him. We want to help him get in, but frankly if we 
have to wait a little longer to make sure that we are keeping 
Osama bin Laden and his cousins out of the United States we 
should do it.
    Talk to us about this green card policy. I frankly think 
this is just nuts to let a foreign national get a green card 
before you run the background check. It is unbelievable in an 
era when we know they are trying to sneak in and kill us.
    Mr. Gonzalez. Well, let me back up, sir, if I may, and I 
will answer that question for you.
    Security is in everything we do. Security over----
    Mr. Culberson. It is not in your testimony anywhere.
    Mr. Gonzalez. Sir, everything we do. Every one of my 
employees hears it regularly from me and my leadership. 
Security is second nature. Security is in everything we do. We 
do not sacrifice security for productivity. We do not sacrifice 
safety for productivity. It is a mantra of this agency.
    Our employees are told in any which way and form that if 
ever that is the case they should contact me or my deputy 
directly, so from our perspective everything we do, every file 
we touch, every interview we conduct, to include the Iraqi 
refugee interviews, which, if I could, is more comprehensive 
than any other interview that we do for refugees anywhere in 
the world.
    Security is job one in this agency, and it is the reason 
why we are a member of the Department of Homeland Security.
    Mr. Culberson. And your background would support that. You 
come from a long security background.
    Mr. Gonzalez. Yes, sir. My background is in national 
security, and we as an agency have inculcated this culture of 
security in our agency. So the fact that we are talking about 
issues such as budget and E-Verify does not negate the fact 
that security is paramount to everything we do.
    Getting to your case with the FBI, we do not issue a green 
card without conducting a security check. What we have decided 
to do is give the FBI 160 days to look at a file of individuals 
who have been in this country in some cases many, many years, 
and if there is no derogative information over and above the 
files that we have checked, because we also run our own checks. 
We also run FBI fingerprints. We run IBIS checks. We do the 
gamut.
    If after six months we cannot find any reason why we are 
not giving an individual an opportunity to become a legal 
permanent resident we will take that on and we will give them 
that green card.

                              NAME CHECKS

    Mr. Culberson. Even if the background check has not been 
performed?
    Mr. Gonzalez. Sir, there is a difference between background 
checks and----
    Mr. Culberson. The name check.
    Mr. Gonzalez [continuing]. What we are talking about is 
name checks. In over 99 percent of the cases the FBI name 
checks that are returned to us have no indication of adverse or 
derogatory information.
    Mr. Culberson. Well, the Chairman has been patient with my 
time. If I could just very quickly point out that this is only 
dangerous, it seems to me, Mr. Chairman, because you are 
granting the benefit without a full check, number one.
    But, number two, you are shifting the burden of proof to 
the United States to disprove that this individual is a 
potential threat. The burden today is on the individual 
applying to enter the United States.
    Mr. Gonzalez. Sir, and I take your point. These individuals 
have been here many, many years. We have gone through extensive 
searches and background checks in the past.
    What we are doing is we are trying to give these people the 
status that we believe they deserve, knowing full well that if 
for some reason they fall into that one percent of the cases 
where there is something adverse we can take that away, and it 
is only for a green card. It is not for citizenship.
    Mr. Culberson. So you will be issuing green cards to 
individuals without running a name check or a background check 
on some of these people?
    Mr. Gonzalez. We will be----
    Mr. Culberson. That is your policy now is to issue the card 
if within six months the customer, the foreign national----
    Mr. Gonzalez. Yes, sir.
    Mr. Culberson. And again that makes me nuts. Who are your 
customers?
    Mr. Gonzalez. Sir, we work for the United States of 
America.
    Mr. Culberson. Okay. But the customer are our kids----
    Mr. Gonzalez. Yes, sir.
    Mr. Culberson [continuing]. And the citizens of the United 
States, not the foreign national applying for the greatest 
privilege ever created in the history of humanity.
    Mr. Gonzalez. I agree. It is the----
    Mr. Rogers. Would the gentleman briefly yield?
    Mr. Culberson. Yes, sir. Please. I have taken too much 
time. Thank you.

                    SECTION 543 OF CURRENT YEAR BILL

    Mr. Rogers. I would remind us all that Section 543 of the 
current year bill, Section 543 says:
    ``None of the funds made available in this Act may be used 
by USCIS to grant an immigration benefit unless the results of 
background checks required by law to be completed prior to the 
grant of the benefit have been received by USCIS and the 
results do not preclude the grant of the benefit.''
    So by law you shall not grant benefits unless all the 
checks required by law to be completed prior to that have been 
done.
    Mr. Culberson. It seems like this policy is in violation of 
that explicit statutory requirement.
    Mr. Price. The gentleman's time has expired, but I want the 
witness to be able to respond.
    Mr. Culberson. Can we talk about that, Mr. Chairman?
    Mr. Scharfen. Yes. We are aware of that provision, and we 
believe that our policy is consistent with that.
    What we have done here is a weighing of the different risks 
that we operate under. One of the things here that we have not 
been talking about is the number of lawsuits and the courts 
where we have been sued on the delay in the granting of a 
benefit.
    Mr. Culberson. The statute is explicit.
    Mr. Scharfen. And we believe what we are doing is 
consistent with that statute, sir. The operative comment there 
is required by law, and it is not clear which of these name 
checks are required by law.
    There are a number of checks that are being done here. One, 
you are doing the IBIS text check, which is being done in all 
these cases. Two, you are doing the fingerprint check. Three, 
you are doing the name check.
    Mr. Culberson. But the statute says all.
    Mr. Scharfen. The name check is 180 days. It is still being 
done. In the event that something comes back that would have 
been derogatory we will then put the individual into removal.
    Mr. Culberson. But that is not what the statute says. The 
Chairman has been very patient with me. I will come back, but 
the statute says all and it does not say derogatory.
    Mr. Scharfen. And it is not clear when you take a look at 
that whether or not the FBI name check is required by law or 
whether it has been our policy to do that.
    It has been our position, and we can get back to you in 
writing on this to confirm it, but that has not been the 
requirement by law so we are in compliance with that statute.
    Mr. Price. I remind the gentleman that we spent a good bit 
of time on this committee formulating the provision you refer 
to, and the words by law are in there for a reason, and it has 
to do with the kind of requirements that Mr. Scharfen is 
talking about.
    I do think it would be helpful to the committee for you to 
follow up with the precise statement of the kinds of 
information that are available to you and are being reviewed, 
the kind of checks that are being conducted before the six 
month period expires and the basis on which you then will 
temporarily grant this green card.
    Mr. Scharfen. I appreciate the opportunity to do that, sir. 
It is a precise issue, and I would like to be able to answer it 
precisely----
    [The information follows:]

    Questions. USCIS states it will provide as follows:
    a. In response to Rep. Culberson--confirmation that it is in 
compliance with statutory requirements of Section 543 of the FY 2008 
DHS Appropriations Act.
    b. In response to Chairman Price--a precise statement of the kinds 
of information available to and being reviewed by USCIS, the kind of 
checks that are being conducted before the 6-month period expires, and 
the basis on which USCIS temporarily grants green cards.
    c. In response to Rep. Rogers--a statement of what USCIS is 
required by law to do.
    Insert for the Record. USCIS policy now authorizes the grant of 
adjustment of status where the FBI name check request has been pending 
for more than 180 days if the individual is otherwise approvable and 
the FBI fingerprint check and TECS (also referred to as TECS/IBIS) 
biographic-based check have been completed. The question has been posed 
whether this policy is consistent with section 543 of Division E of the 
Consolidated Appropriations Act, 2008, which reads: ``None of the funds 
made available in this Act may be used by [USCIS] to grant an 
immigration benefit unless the results of background checks required by 
law to be completed prior to the grant of the benefit have been 
received by [USCIS] and the results do not preclude the grant of the 
benefit.'' For the reasons stated below, USCIS policy is fully 
consistent with section 543.
    Section 543 applies to ``background checks required by law to be 
completed prior to the grant of the benefit'' (emphasis added). While 
USCIS has authority to conduct what background checks it deems 
necessary to determine whether an applicant for adjustment of status 
has met his or her burden of demonstrating that he or she is admissible 
as an immigrant and that adjustment of status should be granted as a 
matter of USCIS discretion, including an FBI name check if USCIS deems 
it appropriate, there is no statute or regulation that specifically 
requires an FBI name check (as opposed to other checks).

    Mr. Rogers. If the Chairman would briefly yield on that 
point?
    Mr. Scharfen [continuing]. With the assistance of our 
counsel, both departmental and agency.
    Mr. Rogers. It would be helpful if that included, and 
perhaps it was meant to be. If it included the things that are 
required by law that you do. It is just a matter of research. 
Could you include that as well?

                         NATURALIZATION PROCESS

    Mr. Scharfen. Yes, sir. I would be happy to.
    Mr. Price. And it is true, is it not, Mr. Scharfen, that 
when it comes to naturalization we are talking about the full 
process, including the full FBI check being----
    Mr. Scharfen. Yes, sir.
    Mr. Price [continuing]. Required before the grant of 
naturalization?
    Mr. Scharfen. Yes, sir. That is correct. What is being done 
here is just in the green card if there has been a six month 
wait. At that point the green card is issued. The FBI name 
check is continued to be done, however, in each one of those 
cases.
    We will monitor that, and when we complete that name check 
if any of those then have derogatory information, then we would 
take the steps necessary to put that individual into removal 
action.
    If I could just add two more things, Mr. Chairman? One, 
this is consistent with other practices within the Department 
of Homeland Security. Our IG had recommended that we be 
consistent within the Department and so we are making our 
process consistent with what, for instance, ICE does with its 
green card cases as well.
    The second thing I would like to point out is that as a 
manager and as a leader of an agency the Director and I have to 
be able to take a look at competing interests and ensure that 
national security is improved in all instances.
    In this instance we believe national security is going to 
be improved by this process because what is not going to be 
done, what frees us up, is from a number of lawsuits that are 
draining our legal abilities and our legal resources, excuse 
me, to draw them off from other cases.
    We just simply cannot manage the number of lawsuits we 
have. We were sued almost 6,000 times. There has been a 1,000 
percent increase in lawsuits in mandamus cases. The majority of 
those cases have been FBI name check cases.
    We just cannot maintain that litigation workload, and we 
made this policy change in full consultation with the 
Department of Justice.
    Mr. Price. Well, we will look forward to that more precise 
statement about the procedures you are following----
    Mr. Scharfen. Sure.
    Mr. Price [continuing]. And the kind of rationale that you 
have adopted.
    Dr. Gonzalez, I appreciate your statement about how 
security is at the forefront of your concerns every day and the 
fact that a given word is omitted from a formal statement is 
not really relevant to that overall perspective that you bring 
to the job. I think we all want to be assured of that, and I 
appreciate your assurance.
    I would also remind us all that this year's bill, the 
fiscal 2008 bill, expanded the CIS Fraud Detection Office with 
the agreement and cooperation of the Director. The fiscal 2008 
bill also expanded the field office budget for security 
reviews, both of these items in the 2008 bill, which presumably 
we agree will improve that ability to assure security.

                          APPLICATION BACKLOG

    Just finally on this backlog issue, I want to expand on the 
answer you were giving to Mr. Rogers, Dr. Gonzalez, about the 
staffing implications of this or what the relevance is of the 
measures you adopted in dealing with the earlier backlog.
    In 2005 and 2006 you eliminated what was actually a much 
larger backlog of work in part by temporarily assigning staff 
at your service centers to processing applications. I wonder if 
you are doing that now or plan to do it now.
    Are there other lessons learned from the past backlog that 
could be applied to this one, maybe applied more quickly than 
you have done so?
    Mr. Gonzalez. Yes, sir. Thank you. We are obviously moving 
work around. We are detailing people to those offices where 
there is greatest need. We are tapping into other resources.
    As Jock just mentioned, I spent Saturday in Baltimore at 
our district office there on a weekend to see not only 
adjudicators but asylum officers, individuals from our appeals 
office all working together to work through some of these 
naturalization cases. So we do have a work plan. We are hiring 
over 2,500 people this year. Over half of them are 
adjudicators. We are putting them in those places where they 
are most needed. So we are taking all necessary steps to 
address the surge.
    Each naturalization applicant has to be interviewed, and it 
is something that we will never abdicate. We will never 
outsource, and as a result, we have to have the trained 
immigration officers on board to be able to conduct those 
quality interviews and see whether someone is in fact worthy or 
eligible for U.S. citizenship. So we are bringing these people 
on as quickly as possible. We are detailing them to the offices 
that are in most need. We are enhancing our processes. We are 
using our lockbox in Chicago more forcefully.
    So we are doing process changes, and we are--because this 
is manpower-intensive work, we are ramping up our Immigration 
Officer Corps to the point where we will be able to work our 
way through this and through future surges. I am sorry, the 
second half of your question, sir?

                 LESSONS LEARNED FROM EARLIER BACKLOGS

    Mr. Price. Well, just in general, are there other lessons 
learned, particularly in terms of deploying personnel, rotating 
personnel, whatever, lessons learned that might apply in this 
instance?
    Mr. Gonzalez. No, our folks are doing God's work every day. 
They are volunteering. We have an Asylum Corps that is 
volunteering to help on weekends in their off time. Each office 
has a work plan that they have established to get themselves 
through the fiscal year and beyond. We keep our offices and we 
monitor those work plans regularly, understanding that we are 
not going to sacrifice security for productivity, but 
nevertheless, whenever we see that there is an office that, for 
whatever reason, may be falling behind and needs more 
resources, then we will take that on.
    But again, this is a function of resource management, 
resource deployment. Luckily, we have the financial resources 
that we need to get this done. It is the manpower and 
technology that we are going to ramp up now to make sure that 
we continue to be consistent in offering the individuals that 
come before us a transparent and fair----

                             MANPOWER NEEDS

    Mr. Price. Well, that was my next question, to what extent 
this is a resource issue and to what extent your present 
manpower and the way it is deployed are sufficient.
    Mr. Gonzalez. Well, sir, we have, as we mentioned, we have 
a plan to hire over 2,500 people this year. Where we do have a 
bottleneck, for lack of a better term, is in our training. You 
know, we cannot just go out and hire an immigration officer off 
a newspaper article and put him to work the next day. We have 
to take those individuals, we have to--obviously, trying to get 
anybody on board in the federal government can be a challenge.
    Once we get those individuals and they have passed their 
background checks, we schedule them for training. To give you 
an example, last year, we only trained four classes of 24 
people in a whole year. This year, starting in January, in the 
first week of January, we are churning out a class of 48 people 
every week. We are going to probably train somewhere upwards of 
1,200 adjudicators this year, which is huge. To do that, we 
even had to move to a new facility to be able to accommodate 
our needs.
    So when you talk about resources for additional personnel, 
my concern would be that, while we have this plan in place to 
address the surge, we can have all the resources to do it. If 
we had additional resources to go out and hire X number of 
individuals, two things would happen. One, we may very well 
have a front-log of people having to wait eight months before 
they can even be trained, and secondly, once we go through the 
surge, we may actually have excess capacity of too many 
employees to do the work that we have after we work our way 
through the surge.
    When we were able to increase our fees last year, it gave 
us the resources that we need, because we know that a lot of 
our work is cyclical, and some years will be higher than 
others, and it allows us to adjust. So what we did not want to 
do is, if we did have the additional money, go out and have to 
hire X number of additional--200, 300 additional people, and 
then find out that 24 months from now, a lot of these offices 
would be overstaffed and underworked.
    Mr. Price. Well, we do have these short-term needs. I 
appreciate fully what you are saying about training, however. 
It is not just a matter of bringing warm bodies onto the scene; 
it is a matter of----
    Mr. Gonzalez. And if I may, sir, that is actually--you 
know, when I first got here, some of the biggest criticism that 
we got is that people did not like the caliber of the officer 
they were meeting, or the training was inadequate, and we have 
gone out of our way to not only bring more officers on board, 
but at the same time, we have created a new, more robust 
training program. So we are actually increasing the numbers, 
and we are enhancing the training so that when that officer 
gets to the field, he or she will be able to start work day 
one, and not have to wait for a subsequent train-up or 
apprentice program, if you will, to start working.
    And it is a challenge because the absorption capacity of 
our agency is one that will dictate how many people we can 
bring in, how many people we can train.
    Mr. Price. Well, there too, if you could furnish for the 
record a bit more precise account of this ramp-up in training 
capacity----
    Mr. Gonzalez. Sure.
    [The information follows:]

    Question. In response to Chairman Price, USCIS should provide a 
more precise account of the ramp-up in training capcity for its 
officers and personnel.
    Insert for the Record. USCIS has significantly expanded its 
capacity to train a high volume of new Immigration Officers in a 
learning environment that is student-centric, accessible, and 
technology-rich. USCIS has completely reinvented its BASIC Training 
program, to include a revised 6-week residential classroom portion at a 
training facility, 1 week practical training at a national office, and 
2 weeks of practical training at selected representative USCIS field 
offices so that graduates are job-ready when they complete the 
training. The core learning objectives of the Academy's programs are 
follows: Build immigration expertise, foster a culture that honors 
public service, emphasize the significance of national security and 
public safety, underscore the human consequence involved in every USCIS 
decision, and cultivate the highest standards of professionalism and 
ethical conduct.
    Our goal is to train nearly 1,200 new officers in this fiscal year 
and an estimated 1,600 officers cumulatively through the remainder of 
this calendar year. This rate is more than ten times the number trained 
in previous years. Cohorts start almost weekly with approximately 48 
students each. The USCIS Academy currently is on pace to average more 
than 130 BASIC training graduates per month. Each of these graduates is 
prepared to contribute immediately as a member of the USCIS workforce.
    USCIS has procured additional training space in Dallas, Texas to 
accommodate the BASIC training needs of its expanded workforce under 
the fee enhancement plan as well as the surge response plan. 
Previously, this training has been conducted at the Federal Law 
Enforcement Training Center (FLETC) in Glynco, GA. However, the volume 
of new adjudications officers who need training could not be 
accommodated at FLETC.

    Mr. Price [continuing]. And how that is responsive, or the 
ways in which that is responsive to the situation you are 
facing.
    Mr. Rogers.

                         TRANSFORMATION PROGRAM

    Mr. Rogers. And another big part of the problem, I think, 
is--and I think you agree--is you are still tied to the paper 
process, manual paper process. There are as many as 55 million 
so-called alien files. A file is established for each alien 
seeking benefits. Fifty-five million files are stored in the 
National Records Center in Missouri and have to be physically 
transported to the hearing officer to permit review or process.
    I know you established in 2004 a Chief Information Officer 
position to try to integrate process and technology 
improvements into the way you do business, the so-called, is it 
called e-filing? By the end of 2008, you plan to expand e-
filing for citizenship applications, accept and deposit fees 
electronically and improve other citizenship-related processes, 
and you plan to award a large system integration contract this 
summer. Have I accurately stated where we are?
    Mr. Gonzalez. Yes, sir. The transformation solution 
architecture contract will be let sometime probably in the late 
summer. It is about a $3.5 billion project. We do have a 
Transformation Program Office, and we also have a CIO. 
Technology is something that we have to take very, very 
seriously, but we also have to do it right. We cannot afford, 
like other federal agencies that go out and spend hundreds of 
millions of dollars on technology, and then when they turn on 
the switch, the lights go out.
    So what we are doing is we are taking a very measured 
approach, one, to enhance our existing systems, while at the 
same time looking beyond, through our Transformation Program 
Office, to completely revamp the way we do business, our 
business processes, and use technology to increase efficiencies 
and securities.
    Jock, you want to give me the details there?
    Mr. Scharfen. Yes, sir. The Transformation Program is going 
to take our business and move it from a paper-based system into 
an automated system, and it is going to do it into different 
pieces, breaks it down into four different parts of our 
business. You were right, sir, to say that the first part of 
the business would be the citizenship part of the business, and 
that would be the first section that would be put through the 
Transformation Program. We are looking to do that in FY 2009.
    We would institute that and implement the Transformation 
Program for citizenship in FY 2009, and then the following 
year, we would do the immigration side of the business. The 
last years, the outlet years, we would do humanitarian, and 
then the last years would be the non-immigrant portion of the 
business, sir, completing the Transformation Program by 2013.
    Mr. Rogers. Well, I have seen some of these files and, let 
me say it again, there is 55 million of these files stored in 
Missouri, and if some action is needed to be taken on one of 
those cases, that file has to be transported, shipped, to 
wherever the hearing is taking place. Some of those files are 
this thick, are they not?
    Mr. Gonzalez. And bigger.
    Mr. Rogers. Or bigger. I mean, they are kind of like huge, 
heavy volumes of paper, and it seems to me that the electronic 
business that you anticipate would do more than anything else 
to speed up the processes.
    Mr. Gonzalez. Sir, one of the things that we are doing now, 
for example, we do scan on demand. When a sister agency needs a 
file, we will just scan it for them. By the way, it is closer 
to 100 million files that we own. That does not make you feel 
any better, but----
    [Laughter.]
    Mr. Rogers. I feel worse than I did before. [Laughter.]
    Mr. Gonzalez. But a large number of those files, I will 
tell you, they are my files, they are my dad's files, so the 
historical files are some that we are probably not in that much 
of a hurry to digitize as we are the ones of individuals that 
we are working cases on now, so----
    Mr. Rogers. So what percent of that 100 million are subject 
to being called up?
    Mr. Gonzalez. Oh, well, you know, we get 6 million 
applications a year. Some of those are adjustment of status or 
they may have existing files that we will add to. I can get you 
that number, but it is a huge number of files. People, for 
example, who are here under TPS, they have a file. I think we 
have already scanned most of the Temporary Protective Status 
folks' files, because we know we will be working on those 
again. So what we are trying to do is literally, to most 
degree, work backwards, and the most current files, be able to 
start digitizing those, and then understand that there are 
going to be tens of millions of files out there that, other 
than for genealogical reasons or historical reasons, there 
really is no sense of urgency to get those digitized.

                                E-VERIFY

    Mr. Rogers. Well, in addition to trying to catch up with 
the huge surge that you have been under, just applications, now 
the Department and the Congress is giving you huge new 
responsibilities; the E-Verify program, REAL ID, are enormous 
undertakings. Are those new responsibilities going to cause you 
trouble in carrying out your core responsibilities in terms of 
what we have been talking about?
    Mr. Gonzalez. No, sir. We have an entire section made up of 
verifiers in fact, and we are already planning with our own 
budget processes to create verification centers throughout the 
United States to help the employer participants. As we mention, 
we have 55,000 employers right now that use E-Verify, and we 
are increase to a tune of about 1,000 a week. We calculate that 
by the end of this year, we will have 150,000 employer on-
board, and by FY 2009, some 350,000.
    We have the technology to handle this. It is a very 
successful program. I will tell you that a large percentage of 
the program comes from Arizona, because it is mandatory there, 
but it is something that does not detract from our day job, if 
you will, because we have a very, very competent staff, and we 
have the very latest technology that allows us to do this in a 
very efficient way.
    Mr. Rogers. Well, I do not want us to underestimate or 
under-relate how important E-Verify is. Regardless of what you 
think about ``shutting down the border,'' quote, closing off, 
preventing people from coming here, we will never succeed in 
that regard, in my judgment, until we shut off the magnet that 
draws them here, and that is the economic betterment that they 
want to achieve, and the only way I think that we can do that 
is to punish employers in this country that offer jobs to 
illegals, and the only way that they can be prosecuted, in my 
judgment is if we, the government, furnishes the employer a 
foolproof way for them to check whether or not an applicant for 
a job is an illegal alien, and with this system in place, the 
E-Verify system, there is nothing to prevent an employer from 
calling that number and verifying whether or not a person is 
legal or not, correct?
    Mr. Gonzalez. Yes, sir. As long as they have registered for 
the program, yes.
    Mr. Rogers. And so for those who have registered, and you 
say you have got how many now?
    Mr. Gonzalez. 55,000.
    Mr. Rogers. Employers?
    Mr. Gonzalez. Yes, sir.
    Mr. Rogers. You are gaining a thousand a month?
    Mr. Gonzalez. A week.
    Mr. Rogers. A week. Four thousand a month. Well, for those 
people, if they are caught employing an illegal, they cannot 
claim they did not know.
    Mr. Gonzalez. Correct. We give them the tools for them to 
make an informed decision as to the immigration status of their 
employee.
    Mr. Rogers. That is what I am saying. They cannot claim in 
a criminal prosecution that they could not have known that this 
person was an illegal.
    Mr. Gonzalez. Correct.
    Mr. Rogers. Thank you.
    Mr. Gonzalez. If I could, just to follow up, sir, we keep 
enhancing E-Verify constantly, to include photos now. We 
downloaded millions of photos, so if an individual comes to you 
with a legal permanent resident card to apply for a job, we can 
actually download to your human resource office the exact same 
photo that is on his card to your office, and you can look at 
both. Our match rate is 93 percent of the time, there is an 
instant verification.
    Only about less than 1 percent of the people ever reclaim a 
mismatch, which means that the other 5 to 6 percent of the 
individuals simply realize that they are not authorized to 
work, and at that point, they either go away or the employer 
tells them that they need to get right with the Social Security 
Administration.
    Mr. Rogers. What motivated these 55,000, and 4,000 a month, 
what is motivating them to sign up with E-Verify?
    Mr. Gonzalez. With the exception of the ones in the State 
of Arizona, which are mandated to do it, folks are doing it 
because they want to. They want to understand that they are 
hiring the right people. This is a voluntary program, so nobody 
is, unless you live in a state where it is mandatory, nobody is 
holding a gun to their head, but they understand that this is 
an opportunity for them to have that additional check, besides 
whatever else an individual presents as proof of eligibility, 
to use.
    It is very, very simple. It costs nothing, and you get a 
response in nanoseconds. I mean, I have actually known how to 
use the system and I have done it myself and if I can do it, 
anybody can do it, and the response comes back literally in one 
to two seconds, and you can even actually put in my wrong 
Social Security number and it will tell you, you have got a bad 
Social Security number, and it gives you a list of what you 
need to do to get right with the law, and it also gives you a 
list of your rights and the responsibilities of the employer.
    Mr. Rogers. When you get an inquiry, an E-Verify request on 
a given name, what do you run that against? What do you check?
    Mr. Gonzalez. Social Security Administration database, and 
part of the enhancements that we are doing, because as I 
mentioned, less than 1 percent of the people can successfully 
reclaim that it was a mismatch, but a lot of times that has to 
do with the fact that maybe they used to be a legal permanent 
resident and now they are a citizen, and they did not tell 
Social Security that they are citizens. That is a mismatch 
because the records are not updated.
    So an individual is given a printout, literally a computer 
printout, of what he or she needs to do to rectify that 
mismatch, and they have X number of days, I think it is--eight 
days, excuse me. I have my E-Verify expert here. They have 
eight days with which they can go back and fix their situation.
    Mr. Rogers. Thank you.
    Mr. Price. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.
    The reason I launched earlier about customer service is 
that has been a hot button with me since I first visited a CIS 
office in Houston, discovered they literally were giving 
rewards to people for cranking them through, and I understand 
your background, Director Gonzalez, and appreciate that, and 
understand your focus on security. It is very distressing to me 
to see your testimony focus on customer service, and I do hope 
that we will continue to see you focus on the fact that the 
customers are the U.S. taxpayers, and your job is to make sure 
that--national security is your----
    Mr. Gonzalez. You will not see any parties or golf 
tournaments on my watch, number one, and----
    Mr. Culberson. You are not giving incentives to employees 
to crank them through?
    Mr. Gonzalez. We are not partying hard to get the numbers 
out. In fact, what I told my--I will be very honest. What I 
told my employees is, do the work, and let me take the javelins 
and the head shots, and get out there, and if somebody has a 
problem with the pace or if somebody has a problem with what 
you are doing or how you are doing it, tell me, but we are not 
going to let anybody influence them doing the right decision.

                                SECURITY

    And again, getting back to your point on security, security 
is second nature. Security, I believe that our folks understand 
that it is instinctive in what we do. We look at everything 
through the prism of security. We have established a very, very 
robust security apparatus with our Fraud Detection and National 
Security Directorate. We hire security specialists, fraud 
specialists, intelligence officers. I will tell you that we 
have the best security specialists the federal government could 
get their hands on.

                           GREEN CARD PROCESS

    Mr. Culberson. Let me if I could ask about and follow up on 
it, make sure I understood, because I want to make sure I 
understood the procedure you are following. Someone applies for 
a green card. A green card, of course, gives a foreign national 
the ability to travel without restriction to the United States. 
They can sponsor relatives to come in for legal status, so the 
green card has been described as sort of the Holy Grail of 
terrorist documents.
    You are issuing green cards to individuals before the FBI 
name check is complete if nothing else negative has popped up 
and they have been waiting six months. Is that correct?
    Mr. Scharfen. That is correct. I would just add that those 
individuals who have applied for a green card, they are being 
given travel documents and work authorization documents under 
the law already, so when we take a look at what we have--when 
we did our analysis here, we did not see this as changing the 
security status quo in that regard.
    Mr. Culberson. And your decision was based in part on the 
number of lawsuits, 1000 percent increase in lawsuits----
    Mr. Scharfen. A number of factors we considered was one, 
the amount of lawsuits that we had and our ability to defend 
those in trying to make decisions----
    Mr. Culberson. Has any court ever ruled against you and 
ordered you to expedite the process? Have you ever had a court 
order----
    Mr. Scharfen. We had some--it was upheld on appeal.
    Mr. Culberson. By an appellate court.
    Mr. Scharfen. I will give you some recent cases. These were 
not appellate cases, to my knowledge, but there were some 
district court cases----
    Mr. Culberson. A district court order that has been 
appealed is not final. My point is that--and this really 
strikes me as just not--this just is dangerous, it seems to me, 
in an era when we have got terrorists trying to sneak in, if 
you are issuing a green card to an individual before all the 
security checks are done, I believe it is a violation of 
federal law, it puts the nation at risk, and it does not make 
any sense, and I just think it is dead wrong, and intend to 
vigorously oppose that policy and see you reverse it.
    It just is not, I think, it just defies--it defies good 
sense for you to allow an individual--because then the 
presumption, the burden shifts to United States. We have got to 
disprove that this guy is entitled to access to the United 
States, whereas the burden is now on the foreign national. It 
is a shift in the burden of proof, is it not? That individual 
has now got a benefit that you have to take away from him.
    Mr. Scharfen. I think that the standard of proof is the 
same. That individual----
    Mr. Culberson. But they have got a right, they have got a 
benefit that they did not have before that you are going to 
have to prove a compelling reason to take it away from him.
    Mr. Scharfen. That individual could have----
    Mr. Culberson. They can sue you.
    Mr. Scharfen. That individual could have appealed it, been 
before an IJ in either event, sir, and in either event, the 
standard of proof as I understand it is the same.
    Mr. Culberson. It just does not make sense. I have got a 
brief amount of time. Forgive me. Let me ask also if I could, 
because my time is going to be--the Chairman is very patient 
with me and I appreciate it very much. The adjudicators, I know 
in the Houston office, still do not have full access to all of 
the criminal databases. It is my understanding that an 
adjudicator interviewing somebody cannot still access a lot of 
the criminal justice databases that they need to to run 
background checks.
    Can you talk to me about that?
    Mr. Scharfen. I will have to get back to you about the 
particular conditions at Eastern. That is the first that has 
been brought to my attention, sir, but I will look into that. 
All of our adjudicators should have access.
    [The information follows:]

    Question. In response to Rep. Culberson, USCIS states it will 
provide explanatory information on the particular conditions at Eastern 
relating to adjudicator access to criminal databases.
    Insert for the Record. All Adjudicators at the Houston office have 
access to all USCIS databases used for conducting required background/
security checks. This includes IBIS, FBI Name Check and FBI Fingerprint 
systems.
    In addition, the Houston district office has several officers who 
have access to commercial systems, such as Lexis/Nexis and Choicepoint. 
Not all officers have access to these commercial systems at their 
individual workstations due to licensing issues. However, all officers 
are aware of the availability of these systems and can access them via 
those officers who do have direct access.

    Mr. Culberson. Thank you.
    Thank you, Mr. Chairman.

                                E-VERIFY

    Mr. Price. Thank you. We are nearing the end here, but I do 
have some E-Verify questions of my own here, following up to 
some extent on those raised by Mr. Rogers, and would like to 
explore just, in the first place, a couple of things that are 
puzzling about this program and the way it is going that I hope 
you can clear up. Director Gonzalez, it is fair to say, I 
believe, that your statement gives a very upbeat account of E-
Verify. You say ``the mismatch rate for DHS information on 
work-authorized individuals is currently less than 1 percent.''
    As you know, though, there are some anomalies within some 
of these overall positive figures, and a recently completed 
assessment of the E-Verify systems, which employers use to 
validate the employability of these new hires, it shows that 
naturalized citizens face a 700 percent greater chance of being 
denied work authorization as compared to green card holders. 
Statistically speaking, nearly 1 in 10 naturalized citizens 
will have their work eligibility put on hold by the E-Verify 
system.
    Now, the figures, for the record, of the green card denial 
rates, are 1.4 percent, but the naturalized citizen denial rate 
is almost 10 percent, 9.8 percent, and I understand that this 
problem results from data miscommunications between the CIS and 
the Social Security Administration databases. Even so, it seems 
peculiar, and I wonder how you explain the error rate and what 
is being done to resolve it.
    Mr. Gonzalez. I do not think it is data--I think a lot of 
it has to do with the fact that many times when naturalized 
citizens go through E-Verify, and again, without knowing the 
individual case, they may not have informed the Social Security 
Administration that they were in fact a naturalized citizen. 
The Social Security Administration may have them as a legal 
permanent resident. That will then cause the system to say, 
hey, there is something here because this person is claiming 
citizenship when, according to maybe the Social Security, they 
are not.
    One of the things that we are going to be implementing very 
soon, probably at the end of this month, beginning of next 
month, is to balance our CLAIMS 4 computer system, which 
handles all of our naturalization database, with E-Verify, so 
we can actually check it first before we can send out a 
mismatch letter. We can see that this person was, Emilio 
Gonzalez was in fact naturalized last month, but perhaps he did 
not tell Social Security Administration, but we know that he 
did, so we can update that and we can----
    Mr. Price. Well, why would not you do that notification in 
the first place? Why should that be up to the individual 
citizen to--especially if this is not working very well, if 
there is a lot of slippage, is this the best system, where the 
burden is on the individual to make that notification?
    Mr. Gonzalez. Believe it or not, I have asked that question 
many times, and I would like to say that we are headed in that 
direction, and there ought to be a system where we could 
automatically download naturalizations into the Social Security 
database. I am not quite sure why we cannot now, and I do not 
know if you want to talk to that, Jock.
    Mr. Scharfen. That was the subject of interagency 
discussions, sir, and the best I can say at this point is that 
we have not been able to reach that. However, by, I believe, 
the end of the month, the CLAIMS 4 database will be available 
to this E-Verify system, and so that is our information, sir, 
and so I would see that as a, functionally, equivalency of 
that. The system now will be able to catch those individuals 
who we are missing now.
    In other words, we will know which individuals have been 
naturalized but for some reason are not getting their Social 
Security numbers. They will come up in our CLAIMS 4 database, 
and I believe those numbers that you just quoted will be much 
improved.
    Mr. Rogers. If the Chairman will yield? I will be brief.
    Mr. Price. Certainly.
    Mr. Rogers. Of course, Social Security has their own rules 
that they have to abide by on who gets onto their database, and 
I am sure one of those rules or laws is that the individual 
person has to, him or herself, apply or to notify somebody.
    Mr. Scharfen. Sir, I do not know if that is a rule or a 
practice or a policy----
    Mr. Gonzalez. The Social Security Administration is very 
sensitive to who accesses their mainframes and so forth. We are 
trying to mitigate that by doing our part at the front end and 
making sure that if you have got a mismatch because it says you 
are not a citizen, but we know you became a citizen last month 
or last week, then we can remedy that internally, but there is 
still going to be some individual responsibility that you have 
to take to go there and fix your account with Social Security.

                  PAYMENTS FROM CIS TO SOCIAL SECURITY

    Mr. Price. Well, let me ask more generally about Social 
Security Administration's database. In 2007, CIS paid Social 
Security $4.8 million to improve that agency's databases and 
clean out the Social Security records of people whose 
employment eligibility had been denied by the E-Verify system. 
I understand you do not yet have an agreement signed with 
Social Security for 2008, but I assume you will be paying at 
least that much, if not more, to the agency this year as part 
of your $100 million E-Verify request for 2009, $21 million 
would go to the Social Security Administration.
    So we are asking to fund data cleanup and IT system 
enhancements at Social Security. What do you estimate? How much 
investment does the Social Security database require? Is CIS 
going to have to pay for all of it? When is the database and 
its records going to be cleaned up enough to eliminate the 
mismatch errors that delay people's work eligibility? You 
focused on a fairly obvious problem here this morning. I do not 
know how widespread the other problems may be, but it does seem 
to be a problem that is not going away quickly.
    Mr. Rosado. Yes, we did reimburse them for that amount in 
2007. We do not know how much of that money they have spent so 
far, but in general, we are reimbursing them for their mismatch 
rate work, so the work that they do. That is generally what we 
reimburse them for, is their resolution of the mismatches. So 
in terms of system improvements and system enhancements, we do 
not have a full estimate of what they need and we certainly 
have not agreed with them yet on that.
    Mr. Price. Well, how do you formulate these agreements, 
though? I mean, you must have some longer-term view of what 
this database needs to look like to be serviceable from CIS's 
point of view. This is not, I would hope, a totally incremental 
process where year to year you are identifying a few more 
items. What does the overall prospect look like here?
    Mr. Scharfen. I will have to get back to you on that 
question, Mr. Chairman. I do not have that answer at this 
point, but we will look into it and get back to you.
    [The information follows:]

    Question. In response to Chairman Price, USCIS states it will 
provide information on what capabilities the SSA database needs to 
service USCIS requirements and an overall plan for achieving that level 
of service.
    Insert for the Record. USCIS is committed to working with the 
Social Security Administration to determine service requirements to 
support the processing environment for E-Verify queries as the program 
grows. We are in still in discussion with SSA on appropriate service 
level agreements for long term growth, but in the short term we are 
confident that SSA's database, NUMIDENT, is able to handle projected 
query volume based on a series of load testing exercises that were 
conducted in the summer of 2007.
    USCIS is also working with SSA to improve data accuracy in NUMIDENT 
by updating records for naturalized citizens. This effort will further 
reduce the number of E-Verify tentative non-confirmations (TNCs) for 
naturalized citizens, thus reducing the instances of ``walk-ins'' to 
SSA offices for naturalized citizens. The actual data exchange for 
updating records will begin in FY 2009, but in May 2008, USCIS will 
deploy the inclusion of naturalization records as part of the initial 
E-Verify check, where a person's full citizenship status will be 
checked before a mismatch is issued, and any out of date or incorrect 
citizenship record that SSA has on file will not prevent immediate work 
authorization for employees in a majority of these cases.

    Mr. Price. All right. I am surprised you do not have at 
least a ballpark answer because this has been a recurring item. 
It is something we are being asked to fund again. What is the 
rationale for the 2009 funding, for example?
    Mr. Rosado. For?
    Mr. Price. Social Security database operations.
    Mr. Rosado. I think it is mostly a ballpark estimate and 
just a placeholder because we are still working with them to 
figure out what we are going to fund with them, in terms of 
what we are going to do for them, versus what they will do. So 
I will get you an answer.
    [The information follows:]

    Question. In response to Chairman Price, USCIS must provide the 
rationale for the FY 2009 funding request for SSA efforts to resolve 
mismatches.
    Insert for the Record. Since SSA has not received appropriated 
funding for E-Verify, USCIS has traditionally reimbursed SSA for labor 
costs associated with resolving ``tentative non-confirmations'' (TNCs) 
in SSA field offices. These costs include salaries and overhead for SSA 
field office employees who resolve mismatches in the field, and 
salaries and overhead for SSA employees who staff the SSA toll-free 
number to answer calls from employees and employers.
    USCIS and SSA have not yet reached a final agreement for 
reimbursement for FY 2008 and FY 2009. In FY 2007, USCIS reimbursed SSA 
$4.8 million for this work, and $343,000 for EV-STAR. For FY 2008, 
USCIS budgeted $4.2 million, which is based on estimates of query 
volume and employer registrations in FY 2008. For FY 2009, USCIS has 
budgeted $6 million as a planning estimate.
    The downward trend in budgeted and reimbursed amounts during FY 
2007 and FY 2008 despite query and employer growth is due to program 
improvements and greater accuracy in query projections. The proportion 
of TNCs and thus ``walk-ins'' to SSA for case resolution is declining 
due to system improvements to correct typos and improved data matching. 
For FY 2008, SSA reduced its estimated ``fallout rate'' (the percentage 
of employees who follow up with SSA after a TNC is issued) to less than 
2 percent because of a new initiative to match SSA TNCs for citizenship 
with USCIS naturalization records. Query and employer growth estimates 
have also improved as the program's growth continues to stabilize and 
USCIS can better estimate projected growth based on states that are 
passing mandatory E-Verify laws. By FY 2009, USCIS expects that the SSA 
reimbursement amount will increase primarily because of continued 
program growth.

                      E-VERIFY SYSTEM INVESTMENTS

    Mr. Price. All right, we certainly do need more information 
on that. One last question on E-Verify. Last year, this 
subcommittee appropriated $60 million for E-Verify. That was 
twice the amount asked for in the budget. This year, though, 
you are requesting $100 million for the program. However, we 
understand the database itself is only operating at 5 percent 
of its projected capacity. I am not quite sure what that figure 
means, but nonetheless, that is the figure that is out there.
    Even if your enrollment rates climb quickly, and you 
anticipate they will climb quickly, by the end of 2009 you 
would have enrolled fewer than 15 percent of U.S. employers 
with five or more employees, so that does raise the question 
why this rather major increase in investment at a time that 
there appears to be a certain unused capacity. Or are we asking 
the wrong question? I just want to know what the reason is for 
that increased request.
    Mr. Rosado. Sir, most of the money that is to be used for 
E-Verify in 2009 is associated with staffing increases they are 
going to put in place for compliance monitoring activities, so 
the majority of that money that is needed is to sort of 
annualize that cost from 2008 to 2009, in terms of staffing for 
compliance monitoring.
    Mr. Price. Well, I think it is fair to say we do need a 
little more information on that.
    Mr. Rosado. Sure.
    Mr. Price. What are these compliance monitoring people 
going to be doing? What would justify an increase of that 
magnitude?
    Mr. Rosado. Only about $15 million would be used for sort 
of system enhancement.
    Mr. Price. So you are saying that the increase is not 
related directly to system capacity?
    Mr. Rosado. Not all of it, correct, yes. If we talk about 
the system in terms of the broader concept of all the folks 
involved in the operational concept in terms of compliance and 
monitoring, so the system as a whole, yes, it is associated 
with that. If we are talking sort of IT enhancements, it is not 
mostly about the IT enhancements to the capacity, in terms of 
to handle the number of queries.
    Mr. Price. All right. We clearly do need a more detailed 
justification of that request.
    Mr. Rogers, do you have any further questions?
    Mr. Rogers. Briefly on that topic, you are asking 17.2 
million above your 2008 level for E-Verify. Is that because of 
this huge new numbers of employers that are part of the system?
    Mr. Rosado. No, sir. Most of that increase has to do with, 
again, annualizing the compliance and monitoring activity for 
sort of the long-term vision of the organization in terms of 
employer relationships across the country. There is a portion 
of that that is related to sort of the fraud work in terms of 
the enhancements, the $17 million in terms of technological 
enhancements with passport photo work and the current 
enhancements to the photo tool, those types of activities.
    It is not directly related, necessarily, to the amount of 
workload in terms of the number of queries.

                      EMPLOYERS SERVED BY E-VERIFY

    Mr. Rogers. Did I hear you say that the members, or the 
55,000 employers that are now part of the system, that that is 
roughly 15 percent of the members you anticipate?
    Mr. Gonzalez. I think the total number of employers out 
there is about 7 million.
    Mr. Rogers. I am sorry?
    Mr. Gonzalez. Seven million.
    Mr. Rogers. What?
    Mr. Gonzalez. Employers. Potential--if we had every 
employer in the United States, it would be about 7 million.
    Mr. Rogers. Well, how many people can this system that you 
have now take care of?
    Mr. Gonzalez. The system that we have, I guess if you want 
to call it the bandwidth, for lack of a better term----
    Mr. Rogers. Would you mind using the microphone? I am 
having trouble----
    Mr. Gonzalez. I am sorry, sir. We created a system that 
would allow us to exponentially absorb employer applicants. So 
we could very easily ramp up--I mean, if you were to tell me 
that we would have 7 million applicants tomorrow, that would be 
a chore, but we can very easily ramp up exponentially to where 
we need to be, and then we can absorb as many people as--you 
know, like I said, we are getting a thousand a week now.
    That does not really change how fast a response comes back 
when you put in a query because we have the technology in place 
now to continue to absorb thousands and thousands of new 
employers.

                        E-VERIFY MISMATCH RATES

    Mr. Rogers. Well now, my numbers do not agree with what has 
been said here. Correct me on these. My numbers say that 93 
percent of the inquiries come back immediately with a match. 
Five percent come back with no match, and only 2 percent are 
considered errors or mismatches, and usually that mismatch is 
due to a married woman having changed her name and then failed 
to notify Social Security. What is wrong with the numbers I 
just gave?
    Mr. Gonzalez. I think they are pretty accurate, sir. I do 
not see anything wrong with that. We do have about a 5 percent, 
I believe it is 5 percent of people that, for whatever reason, 
they do not match, and then they either go away, the employers 
say, get your stuff in order, go to the Social Security 
Administration, and then they never come back, but your numbers 
are fairly accurate, sir.
    Mr. Rogers. Well, help me again. The $17.2 million above 
2008, put that in real words for me. What is that for?
    Mr. Rosado. A specific spend plan will be developed with 
that $15 to $17 million, but at least 15 would go to IT 
enhancement.
    Mr. Rogers. I cannot hear you. Use the microphone, please.
    Mr. Rosado. I am sorry. At least $15 million of that 17 
will go to system enhancements that----
    Mr. Rogers. Tell me what that means.
    Mr. Rosado. Mainly tied to fraud detection type of 
activity, meaning photo tools, bringing passport photo tools 
into the system, expansion of the current photo tool system, so 
ensuring that employers can check the photos of the folks who 
are getting their names checked in the system against the 
documents that they hand the employers.
    Mr. Rogers. What else?

                          E-VERIFY SPEND PLAN

    Mr. Rosado. So those are the main enhancements, but a 
detailed plan with the remaining portion of those enhancements 
would have to be developed.
    Mr. Rogers. You are going to get us the spend plan?
    Mr. Rosado. We can get you a more detailed spend plan, 
correct, sir.
    [The information follows:]

    Question. In response to Rep. Rogers, USCIS states it will provide 
a spend plan for the $17.2 million requested for IT enhancements.
    Insert for the Record. USCIS estimates that with carryover and new 
appropriations, the program will use approximately $31 million to 
support IT operations, maintenance, enhancements and upgrades. The 
estimated spend plan for the Verification Information System (VIS), the 
technology that supports E-Verify, is as follows:

                             [$ in millions]
------------------------------------------------------------------------
                  Spend plan for IT                         FY 2009
------------------------------------------------------------------------
VIS Contract (O&M)...................................                  2
VIS Contract (Helpdesk, Security, Data Center,                        11
 Training, etc.).....................................
Naturalization data exchange \1\.....................                  6
Photo Tool Upgrades (DMVs, DOS, AAMVA) \2\...........                  4
Other Enhancements (electronic Form I-9, monitoring                    8
 and compliance, registration, and other enhancements
 \3\.................................................
                                                      ------------------
      Total..........................................                 31
------------------------------------------------------------------------
\1\ The Naturalization data exchange is an effort to update citizenship
  status for SSA records with USCIS data in an effort to reduce data
  mismatches for naturalized citizens.
\2\ The Department of State (DOS) data sharing initiative is budgeted
  for $2 million, and will also include labor costs for system
  enhancements. The DMV photo pilot is estimated to cost approximately
  $2 million and involves procurement for services with the American
  Association of Motor Vehicle Administrators.
\3\ The development of an electronic Form I-9 for the E-Verify system is
  estimated at $1.4 million. Other enhancements will include the re-
  engineering of the E-Verify registration process ($3.8 million),
  establishing a compliance tracking and monitoring system for the E-
  Verify Monitoring & Compliance division ($2 million), among other
  initiatives.


    Mr. Rogers. Yes, we are going to need that, because you are 
talking gibberish with me now. I want some details. Will you 
get us the spend plan for the $17.2 million?
    Mr. Rosado. We will.
    Mr. Rogers. Thank you.
    Mr. Price. Thank you, and with that we will conclude the 
hearing. We appreciate all of you being here and your 
testimony. We will look forward to following up with you and 
collaborating as we put the 2009 bill together.
    Mr. Gonzalez. Thank you, sir.
    Mr. Price. Thank you very much. The subcommittee is 
adjourned.

[GRAPHIC] [TIFF OMITTED] T3385A.223

[GRAPHIC] [TIFF OMITTED] T3385A.224

[GRAPHIC] [TIFF OMITTED] T3385A.225

[GRAPHIC] [TIFF OMITTED] T3385A.226

[GRAPHIC] [TIFF OMITTED] T3385A.227

[GRAPHIC] [TIFF OMITTED] T3385A.228

[GRAPHIC] [TIFF OMITTED] T3385A.229

[GRAPHIC] [TIFF OMITTED] T3385A.230

[GRAPHIC] [TIFF OMITTED] T3385A.231

[GRAPHIC] [TIFF OMITTED] T3385A.232

[GRAPHIC] [TIFF OMITTED] T3385A.233

[GRAPHIC] [TIFF OMITTED] T3385A.234

[GRAPHIC] [TIFF OMITTED] T3385A.235

[GRAPHIC] [TIFF OMITTED] T3385A.236

[GRAPHIC] [TIFF OMITTED] T3385A.237

[GRAPHIC] [TIFF OMITTED] T3385A.238

[GRAPHIC] [TIFF OMITTED] T3385A.239

[GRAPHIC] [TIFF OMITTED] T3385A.240

[GRAPHIC] [TIFF OMITTED] T3385A.241

[GRAPHIC] [TIFF OMITTED] T3385A.242

[GRAPHIC] [TIFF OMITTED] T3385A.243

[GRAPHIC] [TIFF OMITTED] T3385A.244

[GRAPHIC] [TIFF OMITTED] T3385A.245

[GRAPHIC] [TIFF OMITTED] T3385A.246

[GRAPHIC] [TIFF OMITTED] T3385A.247

[GRAPHIC] [TIFF OMITTED] T3385A.248

[GRAPHIC] [TIFF OMITTED] T3385A.249

[GRAPHIC] [TIFF OMITTED] T3385A.250

[GRAPHIC] [TIFF OMITTED] T3385A.251

[GRAPHIC] [TIFF OMITTED] T3385A.252

[GRAPHIC] [TIFF OMITTED] T3385A.253

[GRAPHIC] [TIFF OMITTED] T3385A.254

[GRAPHIC] [TIFF OMITTED] T3385A.255

[GRAPHIC] [TIFF OMITTED] T3385A.256

[GRAPHIC] [TIFF OMITTED] T3385A.257

[GRAPHIC] [TIFF OMITTED] T3385A.258

[GRAPHIC] [TIFF OMITTED] T3385A.259

[GRAPHIC] [TIFF OMITTED] T3385A.260

[GRAPHIC] [TIFF OMITTED] T3385A.261

[GRAPHIC] [TIFF OMITTED] T3385A.262

[GRAPHIC] [TIFF OMITTED] T3385A.263

[GRAPHIC] [TIFF OMITTED] T3385A.264

[GRAPHIC] [TIFF OMITTED] T3385A.265

[GRAPHIC] [TIFF OMITTED] T3385A.266

[GRAPHIC] [TIFF OMITTED] T3385A.267

[GRAPHIC] [TIFF OMITTED] T3385A.268

[GRAPHIC] [TIFF OMITTED] T3385A.269

[GRAPHIC] [TIFF OMITTED] T3385A.270

[GRAPHIC] [TIFF OMITTED] T3385A.271

[GRAPHIC] [TIFF OMITTED] T3385A.272

[GRAPHIC] [TIFF OMITTED] T3385A.273

[GRAPHIC] [TIFF OMITTED] T3385A.274

[GRAPHIC] [TIFF OMITTED] T3385A.275

[GRAPHIC] [TIFF OMITTED] T3385A.276

[GRAPHIC] [TIFF OMITTED] T3385A.277

[GRAPHIC] [TIFF OMITTED] T3385A.278

                                          Thursday, April 10, 2008.

    DEPARTMENT OF HOMELAND SECURITY FISCAL YEAR 2009 BUDGET REQUEST

                                WITNESS

HON. MICHAEL CHERTOFF, SECRETARY, UNITED STATES DEPARTMENT OF HOMELAND 
    SECURITY

                  Opening Statement by Chairman Price

    Mr. Price. Subcommittee will come to order. Good morning, 
everyone. Mr. Secretary, welcome to you. It is a pleasure to 
have you testify before the subcommittee today. And we thank 
you once again for your dedicated service to our country. 
    Our hearing today is the culmination of a series of 14 
hearings that this subcommittee has held over the past two 
months. Those hearings have informed many of the questions that 
we will have for you, Mr. Secretary, today. We will also ask 
questions about several of the announcements the Department has 
made within the past few weeks, including the waivers for fence 
construction, the border security expenditure plan, the 
criminal alien deportation plan, and the revised no match 
employer regulatory filing. But first let me say a few words of 
the overall 2009 budget request for the Department of Homeland 
Security that you submitted in February.
    I know that you have been a strong advocate within the 
Administration for your department's priorities, and I do 
appreciate that you were able to secure some additional funding 
for important initiatives. But as you might expect, I feel the 
budget falls short in a number of areas, many of which we will 
discuss today.
    For fiscal year 2009 you ask us to appropriate $38.8 
billion. That is only $97 million more than we appropriated for 
the current fiscal year if we include emergency funding. That 
is an increase of only two-tenths of 1 percent, well below the 
rate of inflation. Such a flat budget fails to address many of 
the nation's continuing and unmet homeland security needs.
    Turning to more specific policy issues I am particularly 
concerned that your budget once again proposes drastic cuts for 
first responders, transit and port grant programs, this time by 
$2 billion, 49 percent below this year's level of $4.15 
billion. This subcommittee hears over and over again from 
outside experts about the need for greater support from the 
Federal Government for state and local first responders, 
including the critical need to ensure the interoperability of 
communications. On top of this we have the cost of meeting the 
unfunded Real I.D. mandate, currently estimated by your 
department to be $1 billion in 2009. Any argument that this 
funding should be cut must be made in the context of the 
dynamic threat environment we face and the unmet needs that 
remain.
    The Administration has touted an increased border 
enforcement budget but the proposed funding level is not an 
increase when considering the emergency funding for border 
enforcement that was appropriated in the 2008 Omnibus Bill. In 
reality, the combined funding for Customs and Border 
Protection, Immigration and Customs Enforcement, and U.S. 
Visit, that combined funding would actually decrease by $8 
billion in 2009 under the budget you propose.
    I am also concerned, Mr. Secretary, that your border and 
immigration budget will provide no additional funding to 
identify and remove criminal aliens who have been judged 
deportable. It seems to me that this should be your first 
immigration enforcement priority. But a look at this budget and 
the history of the last four years gives the impression that it 
is not. Your testimony highlights how DHS has increased 
worksite apprehensions by 816 percent from 2003 to 2007. Over 
that same period, removal of aliens with criminal convictions 
increased only 16 percent.
    Your budget proposed to repeal the legislative language we 
included in the 2008 Appropriations Act allowing Customs and 
Border Protection officials to convert to law enforcement 
status. Now, we have heard consistently from DHS staff how 
important this authority is to ensure retention of these 
critical officers who are in all but title law enforcement 
officers. Just last week a senior Customs and Border Protection 
official sat in the seat you are sitting in now and praised 
this initiative, describing it as ``one of the most critical 
things facing our workforce that needs to be followed through 
on.'' I would be interested to know, Mr. Secretary, if you 
agree with that assessment.
    Your budget proposes only $153.9 million for aviation 
explosive detection systems. That is a 48 percent reduction 
from 2008, in part because you propose a new passenger 
surcharge to fund these systems on the mandatory, not the 
discretionary, side of the budget. Now, we have only made a 
dent in the $5 billion in funding needs in this area so I doubt 
whether the Appropriations Committee can or should reduce 
funding here, even if the authorizing committees were to act on 
the passenger surcharge proposal and Congress was to enact it, 
which as you know are uncertain prospects.
    Mr. Secretary, we all want a strong and effective 
department that protects the country and is a wise steward of 
taxpayer dollars. We realize that we have to be smart about the 
solutions we deploy to build a more secure nation. That is why 
we ask in the 2008 Appropriations Act for your department to 
provide the committee as part of the Secure Border Initiative 
Expenditure Plan an analysis of each proposed fencing segment 
compared with other alternative means of ensuring operational 
control. We received the Department's expenditure plan last 
week but the alternative analysis was conspicuously missing 
and, of course, we wonder why.
    Finally, I believe we can agree that central to the 
Department's ability to adequately protect the country is a 
strong FEMA. Based on the Inspector General's report last week 
there is truly work left to be done as four of the nine key 
preparedness areas were lacking in progress. Within the coming 
months we expect that you will use the additional funding we 
provided to make significant improvements in these areas.
    Mr. Secretary, I would be remiss if I failed to recognize 
that this is likely your last appearance before this 
subcommittee. You have only nine more months to implement your 
priorities. Perhaps that is both a blessing and a curse since 
we know of the long hours and intense effort that this job 
requires of you. Of course, you will not be surprised to know 
that we have some ideas about what we would put on your ``to 
do'' list for these last nine months and we would like to hear 
from you about what is on your short list.
    Before proceeding with your testimony, which we will ask 
you to summarize as usual and, of course, it will all be 
printed in the record, before proceeding I want to recognize 
Mr. Rogers for his remarks. I also want to point out that 
because this is our last currently scheduled public hearing for 
the year this could well be Mr. Rogers' last such hearing as 
Ranking Member of this subcommittee. I personally want to thank 
him for his leadership and his colleagueship. This has gone on 
a long time but on this subcommittee it particularly involves 
his role, his outstanding role as the founding chairman of this 
subcommittee and for the current Congress as Ranking Member.

                Ranking Member Rogers Opening Statement

    So, Mr. Rogers, we would be happy to hear from you.
    Mr. Rogers. Well thank you, Mr. Chairman, and thank you for 
those nice words. This subcommittee is a hard-working 
subcommittee. It has had a tough chore, one of the tougher 
chores I think in the U.S. House over these last five years 
because of the difficulty of the problem we found ourselves in 
after 9/11 and then the response of the Congress to create this 
subcommittee and the simultaneous work with a brand new 
department that was being born. So it has been a tough chore 
but I have enjoyed every minute of it, especially my 
association with the Chairman who I think has done an 
outstanding job as the new chairman of this subcommittee. And I 
look forward to working with him the balance of the year and 
perhaps I will stay on the subcommittee.
    Welcome, Mr. Secretary. I am convinced that despite the 
daunting challenges facing our country, despite the constant 
threat of natural disasters, despite the all too real and 
persistent danger of violent extremism around the globe this 
great nation is unquestionably safer and more secure today than 
it was before 9/11. And that is in no small part due to the 
laudable efforts of thousands of DHS employees on the 
frontlines and the resolve with which you have approached your 
job as Secretary over the last three years.
    I think your job is perhaps the toughest job in Washington. 
It is certainly the most thankless job in Washington. But you 
have handled it superbly. I cannot imagine the three years that 
you have gone through being constantly aware that it would be 
your efforts or the lack of your efforts that the safety of 
millions of Americans are depending on. So I thank you for the 
responsibility that you have shouldered and are shouldering 
even as we speak. You have made great progress in the 
department. We have a ways to go but we have come a long way 
under your superb leadership.
    So as you make what is perhaps your final appearance before 
this subcommittee I want to first thank you for your service. 
We should all recognize that while there is certainly much more 
work to be done, tremendous progress has been made under your 
watch, including some noteworthy successes. Let me just mention 
a few:
    Aiding in the disruption of several terrorist plots.
    Ending the flawed practice of catch and release on the 
border.
    Hardening our critical infrastructure.
    Integrating the IDENT and IAFIS databases, across the FBI 
and all other agencies so that we can better serve the public.
    Strengthening the controls in our seaports and ports of 
entry.
    Layering the security framework across all modes of 
transportation from passenger aviation to seaborne cargo.
    Acknowledgement of these achievements is in order. From 
this side of the dais I have watched as DHS has labored through 
the largest federal reorganization in more than a half century. 
This task, creating the third largest cabinet agency within the 
government, with a complex mission of protecting and preparing 
our country and responding to threats and disasters while 
simultaneously facilitating legitimate travel, legitimate 
immigration and trade. This has certainly presented many 
challenges for both the Administration and the Congress.
    So as I think about the expectations for a maturing 
department I must remind myself that DHS is in fact only five 
years old. But I am the last person to make excuses for the 
Department. Failure is not an option. We cannot tolerate poor 
performance or inaction in an area of such criticality.
    Since this subcommittee was formed we have stressed 
results. And that mantra has continued under Chairman Price's 
leadership. As I reflect upon these early formative years I 
believe DHS's fundamental struggle has been with finding the 
proper balance across all its functions: balancing legitimate 
commerce with security, balancing privacy concerns with 
appropriate information analyses, balancing federal roles with 
the responsibilities and obligations of state and local 
government, and balancing finite resources with competing 
priorities that range from border security and cyber security 
to disaster response and marine safety.
    Which brings us to today and a discussion that I believe 
will transcend your budget request for 2009. I see this hearing 
as an opportunity to not only look back upon these early years 
but also to take stock of where the Department is today, and 
perhaps most importantly, discuss how prepared the Department 
is for the future. And as we look to the future I want to offer 
a note of caution. As we have discussed the missions of medical 
preparedness and cyber security over just this past week, tasks 
with leadership responsibilities that are more like a labyrinth 
than a chain of command, I am concerned about accountability. 
As the old saying goes, if two people are in charge no one is 
in charge. And if three people are in charge, well, I believe 
they call that a bureaucracy.
    While the mission of Homeland Security is not confined to 
the Department of Homeland Security, there must be clear lines 
of responsibility for all critical security functions, 
especially as we approach the transition to a new 
administration. It is extremely important for DHS to have a 
strong foundation when you depart, a foundation that allows the 
Department to rise above and beyond traditional hurdles and 
jurisdictional infighting. This and future Congresses and 
presidents must not allow typical bureaucratic inertia which so 
often grips and expands government to take hold. I hope this 
subcommittee and your successors at the Department will all 
strive to help DHS to mature into what it was initially 
conceived to be: a nimble, effective organization that 
successfully interacts with the private sector and across the 
government to realize the security this great nation both needs 
and deserves.
    Mr. Secretary, I sincerely appreciate you being here today 
before us. As we have always in the past, we look forward to a 
candid discussion of the issues. No one wants to see you 
succeed more than this subcommittee, I think this member 
especially. It has been a pleasure working with you these 
years. We have many more months to go but this being a grand 
occasion to say how much we appreciate your work I wanted to 
seize that opportunity. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Mr. Secretary, please proceed.

   Statement of Mr. Michael Chertoff, Secretary, U.S. Department of 
                           Homeland Security

    Secretary Chertoff. Thank you, Mr. Chairman. Thank you, 
Ranking Member Rogers.
    I really am delighted to appear here in my fourth 
appearance testifying with respect to a presidential budget in 
what I believe will be my last appearance on budget testimony. 
It is a good opportunity for me to say that I cannot imagine a 
better group of partners in preparing to enhance the security 
of the homeland than the partners on this subcommittee. Both in 
hearings and more often informally we have had the opportunity 
to talk through some tough issues. The guidance, advice and 
wisdom from this subcommittee has been very valuable in helping 
shape the Department.
    I think the public should be proud of the work of this 
subcommittee in being tough but fair stewards of the public 
purse, making sure that we are efficient, that we are 
responsible and that we are disciplined in how we spend money. 
And also in being creative advocates for the kind of security 
that, as Ranking Member Rogers said, does balance our civil 
liberties and our prosperity and our economic needs with the 
very important need to protect the country against all kinds of 
disasters, whether they be manmade or natural.
    So at the risk of sounding like it is the last day of 
school and this is the last exam, I do want to say that it is a 
great opportunity to reflect back on how far we have come. Of 
course there is a lot more to do but I think that the fact that 
we have not had a successful attack in this country is a 
testament to the work that all of us collectively have done 
across the government and also at the state and local level in 
strengthening homeland security. It is not cause to hang up our 
cleats and get off the playing field, but it is cause to kind 
of redouble the effort as we continue to move forward.
    As we turn to the budget, and if I just may summarize, I 
believe that the President is presenting a sound, fiscally 
responsible budget to advance the Department's most critical 
priorities and to give our 208,000 employees the tools that 
they need to continue to do the superb job they are doing.
    In all we are requesting $50.5 billion, which is a $3.2 
billion increase over base in our total funding for fiscal year 
2009. That is a 6.8 percent increase over the base of the 
previous year and a 62 percent increase since our creation 
nearly five years ago. I am sure we will get into the details 
in discussion during the course of the hearing but I know that 
this subcommittee knows as well as anybody, better than most, 
the difficult tradeoffs one has to make in putting together a 
budget. There are many fine initiatives that one could always 
fund at a greater level but you would have to then sacrifice 
funding for something else. And because this subcommittee has 
had the experience, as I had, of trying to get all this to fit 
within a reasonable budget overall, and also to recognize that 
other departments have their budget needs, I think you will 
appreciate that we have struck a balance that I think is 
sensible, robust, and does promote homeland security.
    Let me talk about a little bit of our progress in what I 
consider to be the five major goals that this Department has. 
First with respect to protecting our nation from dangerous 
people who want to come in:
    At the border itself as of the end of last month we have 
built over 313 miles of fencing, including pedestrian and 
vehicle fencing, at the southwest border. I might add that is 
by a factor probably tenfold as much as we had built during all 
the prior history of Border Patrol activities. We are now over 
15,800 Border Patrols as of March 15.
    As Ranking Member Rogers mentioned, we have sustained the 
ending of the old pernicious catch and release system for 
coming up on two years now. And we have seen positive metrics. 
Apprehensions are down 20 percent if you look at fiscal year 
2007 compared to the prior fiscal year. And in the first 
quarter of this year they continued to go down.
    There was a fairly compelling article on the front page of 
The Wall Street Journal today that talked about the dramatic 
increases in the interior in deporting people who are here 
illegally as overstays. I think a number of media sources, even 
those that are frankly not necessarily hospitable to the 
Administration, have acknowledged, whether they like it or not, 
that we are having a real impact on the flow of illegal 
immigrants into this country.
    For fiscal year 2009 we are requesting a $3.5 billion 
budget figure for the Border Patrol which is an increase of 
about half a billion dollars. This will allow us to continue to 
train and equip new agents, getting us up to 20,000 by the end 
of fiscal year 2009. In addition, we are requesting $775 
million to continue to move forward on SBI which is our total 
package of technology and tactical infrastructure with which we 
have made great progress.
    At the interior I am delighted to say we had a record year 
last year with respect to criminal arrests: 863 criminal cases 
brought, which is more than in any prior year, resulting in 482 
convictions. Among the examples I can give was the sentencing 
to approximately 10 years in prison of a CEO of a company that 
was systematically violating the immigration laws.
    We are requesting a total of $1.8 billion to again enhance 
ICE custody operations, allowing us to expand detention beds so 
that we can detain and deport those who we catch who are here 
illegally.
    In addition, we are requesting an increase of $311 million 
for interior enforcement-related activities, including fugitive 
operations, the criminal alien program, support for state and 
local anti-illegal immigration initiatives, anti-gang 
initiatives, and worksite enforcement.
    We are requesting $100 million, an increase for $40 
million, for the E-Verify automated system of employment 
authorization, as well as the reauthorization of that program. 
This is a very popular program. It has essentially been gaining 
new companies at the rate of 1,000 a week. We are up to over 
58,000 companies that use the program. It is a tool that allows 
those who want to obey the law to make sure that they are 
capable of obeying the law.
    The next goal we have is protecting the nation from 
dangerous goods. And again, just to survey very generally. We 
are now scanning close to virtually 100 percent of containers 
coming into this country at the southern border and at our 
seaports. And we are over 90 percent with respect to our 
northern border. We have expanded our container security 
initiative overseas. And we have launched our overseas scanning 
secure freight initiatives with 100 percent radiation scanning 
at three pilot ports outside the country, including in a port 
in Pakistan.
    With respect to protecting critical infrastructure we have 
completed the National Infrastructure Protection Plan, and we 
have completed the 17 sector-specific plans. We released and 
are beginning to implement the chemical security final rule. 
And we have added additional layers of security to aviation, 
most notably demonstrated a couple of weeks ago when one of our 
new capabilities, our behavioral detection capability, resulted 
in the detection of the components of an explosive device that 
someone was trying to check into a commercial aircraft in 
Orlando, Florida. This is exactly what the American public 
expects us to do and we are producing results.
    With respect to IED prevention and protection against 
improvised explosive devices, if you look at all of the 
agencies, across the entire Department, we are requesting $1.3 
billion, an increase of over $350 million, including $1.1 
billion for TSA explosive detection technology, $50 million for 
science and technology development, and additional monies for 
training of transportation security officers and our Office of 
Bomb Prevention. Included in this, I might add, is an increase 
of $15 million for additional behavior detection officers that 
will do exactly what our officer in Orlando did a couple of 
weeks ago in preventing explosive materials from getting on a 
commercial airliner.
    Additionally, with respect to cyber security we are 
requesting $293 million, an increase of $83 million, to further 
deploy our Einstein system and to move forward on the 
President's national strategy against cyber threats. Of course, 
as you know, that is only a small part of what the government 
as a whole is intending to devote to this because much of this 
will be in other agencies which have classified budgets.
    With respect to emergency response, which is our fourth 
goal, we have made a lot of progress although we still have 
more to do with respect to FEMA. We have issued our national 
response framework. We have filled the senior positions with 
experienced emergency managers. And we have responded 
effectively over the last year to a significant number of 
disasters, including last year's very effective response to 
California wildfires. We now have 60 mobile disaster recovery 
centers. We are transitioning from a temporary emergency 
workforce to a core cadre of several hundred leaders who can be 
there as full-time employees and around whom we can build a 
surge capability. And we are continuing to work on a robust 
system for evacuation, sheltering and housing.
    As a consequence, we are requesting $164.5 million, an 
increase of over $64 million, for FEMA's Vision initiatives to 
continue to bolster emergency preparedness and response 
capabilities. And we are requesting $2.2 billion, which was the 
same as our request last year, for grants to state and local 
governments.
    One last area I would like to turn to before I conclude is 
the issue of our management and operations, with our fifth goal 
being to strengthen the capability of the Department to 
function as a mature operation. I have seen a huge amount of 
progress in our ability to plan, train and exercise together as 
a single department. But to get this job done and to get it 
institutionalized we are long overdue to have a headquarters 
that allows us to bring together all the principal component 
elements of the Department in one place as opposed to being 
scattered all over the Washington Metropolitan Area. As a 
consequence, we have requested $120 million to consolidate 
Coast Guard Headquarters, DHS Headquarters and component 
mission functions at St. Elizabeth's. I think when we get this 
job done we will not only have a more efficient and a more 
mature department but we will actually wind up saving money 
over the long run.
    I can tell you from personal experience that continuing to 
limp along with what we have at the Nebraska Avenue Complex 
where my office is currently located, where we have bursting 
pipes on a regular basis and we need to constantly go back and 
prop up a declining infrastructure, in the end that is the 
least efficient way from a fiscal responsibility standpoint and 
from an efficiency standpoint to run the Department.
    So with that let me again thank this committee for its 
engagement, its partnership, its wisdom and its oversight. I 
look forward during my remaining months to continue to work 
with you to deliver until the day we turn over the keys for the 
very best Department of Homeland Security to the people of this 
country.
    Thank you.
    Mr. Price. Thank you, Mr. Secretary. We are told that some 
votes are going to be called on the Floor in a few minutes, 
including one, as it turns out, to recognize and honor your 
department on its fifth anniversary. So I suppose that is 
appropriate given the circumstances. We regret though that we 
are going to have to interrupt this hearing. We will try to 
minimize the interruption and we will try to move the questions 
right along.

                          BORDER FENCE WAIVERS

    And I will start with a question about the waiver authority 
that you have recently exercised. On April 3 you published your 
intent to waive 37 laws on construction of fencing or tactical 
infrastructure. Now, you have exercised this discretion three 
times before for smaller projects in California and Arizona, 
but this is a different order of magnitude. You have proposed 
to apply this to 470 miles of the southwest border through two 
blanket waivers. So a couple of questions.
    One has to do with the mileage that you are talking about. 
As of March 1 you need to complete only 367 additional miles of 
fencing to reach your declared goal of 670 miles total. So why 
does this waiver cover 470 miles? Are you simply covering your 
bases for anything you might conceivably want to build? Or are 
we to understand you have not settled on which 360 miles to 
build? Why 470?
    Secondly, this is a major, this is a major exercise of this 
waiver authority which goes beyond what many of us I think 
anticipated. You said you are committed to environmental 
responsibility. We want to know just what that means. That you 
are going to conduct reviews, you say, where no construction 
has begun? That you will continue to work closely with the 
Interior Department and others to design and implement 
environmental and other mitigation efforts despite having 
waived your obligation to do so? So what does this mean, have 
you instructed your staff to use a certain process for doing 
this? Does that process involve local consultation? Does that 
process involve coordination with other federal agencies 
charged with environmental responsibilities?
    What if that process takes a while? What if it is not just 
a snap? Or is there any chance that this would prevent you from 
constructing the mileage of fencing you want to construct where 
you want to construct it?
    Secretary Chertoff. Thank you, Mr. Chairman. I am delighted 
to answer the question. Let me deal with the first question.
    You are correct that the 470 miles we identified for the 
waiver is more than we need to get to the 670 mile goal. That 
does not reflect an uncertainty about where we want to build; 
it reflects two possibilities. First is a possibility that we 
may retrofit existing areas that are a vehicle barrier as 
pedestrian fencing. That would not be additional mileage 
although it would convert vehicle barrier fencing into 
pedestrian fencing. And that would require a brand new 
engagement of all of these regulatory requirements. So we 
wanted to be able to have the option if we retrofit to include 
that in the mileage for which the waiver was issued.
    Secondly, we do have contingency miles. In the event that 
some unanticipated difficulty or delay comes up with those 
miles that we have identified are our highest priority for this 
year, there are other miles that would be a lower priority that 
might be carried forward in future years which we would 
nevertheless get a start on if it turns out for reasons that we 
cannot anticipate that the priority mileage cannot be 
accomplished.
    But let me step back and put this in a larger context. As 
you know, not only in 2005 but again in the Consolidated 
Appropriations Act earlier this year Congress mandated that I 
get 370 miles of pedestrian fencing done by the end of this 
calendar year. I take the mandate seriously, as I do take the 
mandate to get 700 miles of fencing in total done, recognizing 
that I--and thanking Congress for giving me flexibility about 
exactly what kind of fencing to use and whether the rest of 
this fencing can be vehicle barriers or not. In order to 
accomplish this goal, however, we sat down and looked at all of 
the mileage that needed to be covered and we considered the 
fact that with respect to the pedestrian miles we are going to 
be building we have already completed interim environmental 
assessments or interim environmental impact statements.

                       BORDER FENCE CONSULTATIONS

    We recognize that if we were to engage in each of the 
individual regulatory elements that are currently required 
under these multiple statutes it would be unquestionably 
impossible to come close to meeting Congress' mandate to get 
this mileage done. So recognizing I think in substance the vast 
majority of this mileage has already been analyzed for 
environmental and other considerations, recognizing that in 
terms of consultation we have held--we have contacted almost 
600 landowners, we have had over 80 meetings with state and 
local officials, we have had town halls, we have had open 
houses--and after carefully considering what the alternatives 
would be, as I set forth in some considerable length in the 
statement that I issued when I granted the waiver, I believe 
the waiver will allow us to complete the mandate without 
materially sacrificing the substance of the environmental and 
other protections that are called for by the various statutes 
that I have waived.
    To give you a couple of examples: In Hidalgo County the 
local officials came to us and said they needed to rebuild 
their levees to protect themselves from floods. We worked out 
an arrangement where we could combine our objectives, and we 
could work with them so they could rebuild the levee in a way 
that would protect against floods and satisfy our need for 
barriers. Having achieved that consensus, which was a direct 
result of consultation, I wanted to move forward not only to 
build our fence in time but because the community needs to 
rebuild its levee in time to avoid the possibility of flooding. 
So that is one example of how I think we have worked 
cooperatively.
    I have directed in writing that we continue for those areas 
where we have not done an environmental analysis to complete 
the analysis before we do any substantial building, to engage 
with the local community and to consult, and to make 
modifications as we have done historically where we need to do 
so in order to mitigate environmental harm. But in the meantime 
we can begin the preparatory work, the surveying, the 
contracting, the ordering, all of which needs to get done to 
live up to this commitment that we have made to get 370 miles 
done by the end of the year.
    Mr. Price. I am sure, Mr. Secretary, we will return to this 
in the course of this hearing.
    I, of course, am aware that you are working with a 
congressional mandate. It is also true that Congress has 
granted you flexibility in the way you address this mandate. 
And Congress has also said that it does matter how you do this 
in terms of local consultation, in terms of a detailed 
expenditure plan, a justification and so forth. So we will 
continue in this vein. There are many interrelated questions 
that I do think we need to raise.
    Mr. Rogers.

                           MERIDA INITIATIVE

    Mr. Rogers. Well, I am sure we will come back to this 
repeatedly. But let me switch topics for a moment and ask, I 
want to know about the Merida Initiative. I know it is a multi-
agency effort and it is a multinational effort to try to 
control what flows across that border with Mexico, especially 
drugs. I know that is not your primary purpose in being there, 
other agencies do that, but it has to be a joint effort.
    I am alarmed at the seeming war that is going on across 
that border in places between thugs in Mexico and Border Patrol 
and other U.S. agencies on our side and repeated incursions by 
those insurgents on the Mexican side onto U.S. soil, especially 
the drug cartels. And it is not just a local thing anymore. In 
my district in Kentucky the law enforcement people tell me that 
the biggest source now of methamphetamines in rural east 
Kentucky is from Mexico. It formerly was local-made products. 
Now it is cheaper apparently to import it from the drug cartels 
in Mexico across that border. And I understand the Merida 
Initiative will give us a cooperative effort with Mexico 
especially to try to bolster their side of law enforcement of 
the border with our agencies on the U.S. side. Can you help me 
understand it better?
    Secretary Chertoff. I think, Congressman, you have 
accurately captured what the situation is with one--I would 
make one correction. Actually I consider the interdiction of 
dangerous drugs to be our highest priority at the border. We 
actually have the responsibility at the border to keep not only 
people out who should not be coming in, but things that should 
not be coming in. And part of what I tried to communicate in 
connection, frankly, with the fencing issue is that it is as 
important or maybe more important to me to have the fence to 
keep the drugs out and the criminals out as it is to keep out 
just the other illegal migrants.
    We are seeing in Mexico, as you have properly observed, the 
major pathway for getting methamphetamine into the United 
States. We are seeing increased violence along the border, both 
directed at our Border Patrol and directed at the local 
authorities in Mexico. This is a direct consequence of the 
success we are having in cracking down on illegal businesses.
    I know you know this because you were a prosecutor. I 
certainly know this from my years as a prosecutor. When you 
crack down on illegal organized crime activities those criminal 
businesses fight back because this is their lifeblood. That is 
why when you are not enforcing the law there is very little 
violence; everybody is very happy to get along and get their 
ill-gotten gains. But as you crack down you start to see a 
spike in violence. They fight among themselves and they fight 
with us in order to preserve their organized criminal 
activities.
    We are dealing on our part of the border with the 
enhancement of the Border Patrol and the building of fencing 
and other tactical infrastructure as well as some investigative 
things we are doing. We are doing what we need to do to protect 
ourselves against violence and criminals coming in. But to 
really crack these organizations the Mexicans have got to 
attack the problem at its source.
    The good news is the president of Mexico is more committed 
than any I have seen in history to getting the job done at 
considerable personal risk to himself and his top leaders. They 
are retooling their enforcement system. They are using the 
military. They are retooling their judicial system. We need to 
help them. We need to enable them to do the job not only on 
their northern border but also to help them do it on their 
southern border. It is very much to our benefit for them to do 
that job properly.
    And let me finally indicate as we look down the road we 
have to worry about what is going on in the rest of Latin 
America. We have MS-13 which is a highly organized, dangerous 
criminal gang with thousands of members in the U.S. and is 
active in Central America where they really have their home 
base. We have President Chavez who just relying on open source 
information has enabled the FARC, which is a terrorist drug 
organization. All of these incipient threats are threats to our 
part of the continent. And a strong Mexico is a very important 
partner in making sure those threats do not materialize in our 
country.
    Mr. Rogers. Well, at a hearing yesterday the ATF director, 
Alcohol, Tobacco and Firearms director, called the Mexican 
government's efforts to stop smuggling and gun trafficking 
``heroic'', that the president and the government are really 
cracking down in Mexico on those who are smuggling, weapons, 
drugs, guns, people into the U.S. Would you agree with his 
characterization of their efforts?
    Secretary Chertoff. Absolutely. And unfortunately there 
have been assassination attempts on senior leaders which just 
underscores that.
    Mr. Rogers. Well, for example, I am told that many Mexican 
sheriffs are being assassinated if they do not take bribes to 
protect the organized crime. The chief of police in Palomas, 
Chihuahua, Mexico, recently turned himself in to Border 
Protection officials in New Mexico requesting asylum due to a 
claim of credible fear from cartel threats.
    I am told that there have been instances where the gang 
have come on American soil with weapons and had shootouts.
    Is all of that accurate?
    Secretary Chertoff. It is accurate. We have seen an 
increase in violence on our part of the border but, frankly, 
nothing like what we have seen on the southern side of the 
border where we have seen ambushes of public officials by these 
gangs and gangs who are as equipped as a military force could 
be.
    Mr. Rogers. So briefly and quickly, this initiative is 
ongoing.
    Secretary Chertoff. We are awaiting congressional action to 
fund this initiative which I think would really put our current 
efforts working with Mexico on turbochargers. And there is not 
a minute to wait to get this done, to get the funding.
    Mr. Rogers. Well, it is urgent. And I congratulate you for 
putting it together.
    Mr. Chairman.
    Mr. Price. Thank you. Ms. Kilpatrick.

                        HOMELAND SECURITY GRANTS

    Ms. Kilpatrick. Thank you, Mr. Chairman.
    Good morning, Mr. Secretary. The fence issue continues to 
be something we will discuss, and I am going to leave that a 
further round, I will not have time on my first round here. But 
Homeland Security we always talk about it is really hometown 
security too. And it cannot work unless the partnership of 
local and state government and the Federal Government and your 
agency are actively working together. Throughout the budget 
that is before us today the Safer Grant Program, the Fire Grant 
has been cut 50 percent and took out the Metropolitan, you all 
took it out, we are going to put it back, the Metropolitan 
Medical Response System. And even the State Homeland Security 
Grant Program cut by 79 percent.
    Why, how, and how effective with what you are doing around 
the borders and otherwise will your job be, and I come from a 
border state, Canada, one of our friendly neighbors, northern 
border always underfunded, understaffed all of that in my 
opinion, we have had that discussion, but the local communities 
across the country, and certainly in Michigan as well, the Fire 
Grants, the Safe Grants, as well as the State Homeland Security 
Grant Program those are paramount to how they take care of 
their own locales as well as interact with the Federal 
Government, how do you justify that?
    Secretary Chertoff. I think, Congresswoman, what we have 
done, and this is consistent with past years--we try to target 
homeland security grants on what truly are homeland security 
activities. For example, in the area of State Homeland Security 
Grants, although our proposed number is below what we requested 
last year in the general category, which as you know is not a 
risk-based category, there are some minimums.
    Ms. Kilpatrick. Absolutely.
    Secretary Chertoff. We then suggested taking, adding 
additional money for Real ID grants and Buffer Zone Protection 
grants. So actually it is more a question of targeting the 
money on a risk basis as opposed to putting it in kind of a 
lump sum and then distributing at least part of it on a fixed 
formula state by state.
    Ms. Kilpatrick. And I would support doing that. We had that 
discussion last year as well.
    Secretary Chertoff. And I appreciate that.
    On the issue of the SAFER Grants, I think it is just a kind 
of plain out philosophical issue. We believe that what the 
Federal Government ought to be investing in is capabilities, 
that means equipment, it means training. And of course once you 
have provided the equipment--and I think we have provided over 
$20 billion of grants over the last several years--once you 
have provided the equipment you do not provide the same 
equipment every year.
    Ms. Kilpatrick. Agree with that.
    Secretary Chertoff. What we tend to resist though is grants 
like the SAFER program where it is essentially paying people's 
salaries, paying for personnel costs. We do it for two reasons. 
First of all, that is really a classic state and local 
function. Secondly, it is a very bad idea I think from a fiscal 
responsibility standpoint.
    Ms. Kilpatrick. Okay, let me make the case because my time 
is going out. And I understand exactly where you are coming 
from. With limited resources and a war that we never should be 
in and all that is going on with that you do not have the money 
that you need to secure the nation, we believe that.
    At the same time local communities where real people live 
who send their taxes to you to do what you need to do deserve, 
need and must have some internal investment as it relates to 
this area. I too believe that it has to be prioritized in terms 
of risk. And I think we had that and went through much of that 
last time when we talked. But to rule them out--and I agree, 
salaries, some of those are good, equipment, they have to have 
it. To buy it over and over, no, that is not it. But rather 
than blanketly say they do not need it I would much rather see 
a cooperation and a partnership with your agency and those 
local communities because they have real needs. And those 
dollars that are sent here that you spend as you see, but I 
also think they should go back.
    And, Mr. Chairman, I saw you raising up. I will continue 
that one.

                      CONTAINER SCANNING/SCREENING

    One other thing. We had testimony the last week or two from 
the World Shipping Council and others that 5 to 10 percent of 
the containers are being inspected. You just said 100 percent 
from the southern border and 90 percent from the northern 
border. Why the discrepancy? Which is right?
    Secretary Chertoff. What I said was virtually 100 percent 
are being scanned, meaning they are going through radiation 
scanning equipment as a mechanical matter.
    Secondly, we analyze all the containers that come in, we 
screen them all in terms of the manifest, what we know about 
the shipper and the destination.
    What we do not do 100 percent of is physically open every 
container. And that is I think what the discrepancy is. I think 
the Shipping Council when they talk about inspection I think 
they mean a physical inspection as opposed to a scanning or a 
screening.
    Ms. Kilpatrick. So that is a big discrepancy there. I think 
we need a better feel on what actually happens. We do not 
expect you to open all, I do not think they do.
    Secretary Chertoff. I do not think you would want me too. I 
think it would be a disaster.
    Ms. Kilpatrick. No, absolutely not. We think the radiation, 
being able to see inside and the technology you use is probably 
fine. But the difference in what they say.
    Secretary Chertoff. I think that, I think the inspection 
that they refer to is physical opening. When I talk about 
scanning I mean passing the container through radiation 
scanning equipment.
    Ms. Kilpatrick. I have been through them. I have seen them 
done. I have seen the big machines that do that. They led us to 
believe it was something less than that. I think we ought to 
clear that up.
    Secretary Chertoff. Okay.
    Ms. Kilpatrick. Thank you.
    Mr. Price. Thank you. Mr. Carter.

                    VIOLENCE AT THE SOUTHWEST BORDER

    Mr. Carter. Thank you, Mr. Chairman. And, Mr. Secretary, 
good to see you, glad you are here. Hope this is not too 
painful. Your job is pretty painful as it is.
    I have got to go back to the Texas border or the Mexican 
border from the Arizona, New Mexico and California included. 
When I was down on the border the Border Patrol reported to me, 
this is about a year ago, maybe eight months ago, that they 
were fired upon regularly from the Mexican side of the border. 
We now see what is very courageous as far as I am concerned on 
the part of the Mexican government they have sent troops to at 
least Nuevo Laredo that I know of for a fact, and they have had 
a fairly intense gun fight in Nuevo Laredo with the Mexican 
troops.
    These cartels we have seen what they did in Colombia, and 
it is the same people. We have seen what they did in southern 
Mexico. We know what they are capable of doing. And they can 
fight warfare just about as good as regular army troops. And 
they obviously demonstrated that in Nuevo Laredo. Now, as 
Mexico attempts to drive them out they are driving them in our 
direction, okay. And they are going to cross the border into 
Texas or Arizona or New Mexico. But in Nuevo Laredo at least 
they will cross into Texas.
    My first question, I do not know the answer to this and I 
would like to know it, by some kind of international treaty, 
why when fired upon can law enforcement officers not fire back 
into Mexico? That is a question I would like answered first.
    Then secondly, if they start across into Texas, I do not 
know if everybody has all been down to that border but if you 
are right there at Laredo, yeah, there are a lot of folks 
there, but if you get about 20 miles upstream or 20 miles 
downstream from Laredo there is not anybody out there but 
people sneaking into the country and a few people riding 
horses. It is real wide open country full of a lot of things 
you do not want to step on. And so out there they could be in 
30 miles before we even knew they were in there. I want to know 
what the confrontation and fire back policy would be upon 
people who invade our country into the State of Texas both from 
the Federal Government, and if the Federal Government does not 
do it is there anything by treaty that would prevent the state 
government fighting back?
    Secretary Chertoff. I will try to give you a general 
answer. Let me caution by saying I am not, I do not have all my 
law books with me so I do not want to be giving legal advice 
here. But the general rule is this: in fact in order to engage 
in self defense or to protect themselves the Border Patrol are 
entitled to discharge their weapons. You know, there are rules 
of engagement. You should start where possible with non-lethal 
force but if necessary you use lethal force.
    We have sometimes done that across the border. If fired 
upon from across the border, our agents have shot back across 
the border. I am not aware of any treaty that prevents that. 
Our preference is to have the Mexicans actually address the 
problem on their side of the border. And we have actually built 
some protocols so that when something happens we can contact 
the Mexicans and they come in.
    But, you know, at bottom if our agents are fired upon and 
they need to protect themselves they are entitled to do it and 
they can fire back. That is certainly also true within the 
United States. And we want to make sure they have the 
capability to defend themselves.
    I hate to keep going back to the fence, but part of the 
reasons we are putting fencing in some areas is precisely in 
order to be a force protection measure, to protect the Border 
Patrol. I had the unhappy circumstance a few weeks ago of being 
with a family of maybe the first agent during my tenure who was 
deliberately killed by smugglers. He was run over by a vehicle. 
If we had vehicle barriers that were effective in that area 
that vehicle would not have come across.
    So I take everything we are doing, fencing, virtual 
fencing, enhancing the Border Patrol; I take it very seriously 
as a protection measure in addition to an anti-crime measure.
    Mr. Carter. Well, it seems to me I am confused because I 
was told by more than one agent that they, after telling me a 
story about a female agent who had been shot in the hip and was 
under fire from across the border and they basically had to 
crawl in under fire and pull her out and not fire any shots 
across the border. And they were under specific orders not to 
return fire and so agents had to crawl in and pull a wounded 
female agent out under fire north of Laredo.
    Now this was a year-and-a-half ago, okay.
    Secretary Chertoff. I am subject to being corrected on the 
law but I know of at least a couple of occasions where we have 
had agents fire back. They try to use non-lethal force and 
that, I believe that is appropriate as a first resort.
    Mr. Carter. I agree with that. I believe that our law 
enforcement policies are appropriate policies. But also our law 
enforcement policy is once you are fired upon you return fire. 
And I do not think an invisible border ought to be any barrier 
to returning fire, especially in a circumstance where at least 
my experience on the Texas border is we are outgunned about, 
you know, 90 to 1 because they are using automatic weapons and 
we are using handguns.
    Thank you for your answers.
    Mr. Price. Mr. Rodriguez.

                          BORDER FENCE WAIVERS

    Mr. Rodriguez. Thank you very much. And, Mr. Secretary, I 
do not think we have had a chance to meet. I have been on the 
committee for a couple of years. This is my second year. And I 
am Ciro Rodriguez and I represent the longest U.S.-Mexico 
border district in the entire country, some 785 miles. My 
district has more than half of the Texas border and 
approximately one-third of the entire southern border, 
including six land ports of entry, and 13 different Border 
Patrol stations within three separate Border Patrol sectors.
    Border issues, especially those dealing with border fencing 
are extremely important to my folks, who are U.S. citizens on 
the border that feel the same way you do about illegal 
immigration. They agree that we have to stop illegal 
immigration. In the Texas delegation I have worked in a 
bipartisan way with Senator Kay Bailey Hutchison on provisions 
that would require DHS consultation with community members 
before the construction of any fencing.
    Mr. Secretary, I wrote you a letter in January after the 
President signed the omnibus spending measure that included 
consultation language and asked for a response from you 
regarding how DHS would be proceeding. Last week I contacted 
your office and I have a copy of the letter; but I still have 
not gotten a response from you. I find that extremely 
troubling, especially after hearing about your decision to 
waive over the 30 provisions from the Homeland Security 
Subcommittee bill provisions. I understand you have the 
authority to seek waivers from enacted bill language. 
Nonetheless that does not mean you have to exercise that right, 
especially as it relates to sensitive and volatile matters 
associated with private property that will be impacted by 
fencing.
    Do you honestly believe that waiving 36 provisions of law 
without having met with local experts, community leaders and 
members of Congress like myself is consistent with the spirit 
and intent of the law? Unlike the Department of Homeland 
Security, I have had community meetings and I think in all 
honesty that you have been misinformed by your own people. I 
have conducted meetings and I know the agency took credit for 
them. And so, as we proceed on this issue, no one, no one knows 
better than people who live on the border how to prevent and 
stop illegal immigration.
    I understand the need for some fencing, and I am not 
against the use of barriers. I have had a chance to tour the 
border and there is no doubt a need for car barriers. But there 
is a serious need for dialogue and compromises with local 
communities and private property owners.
    You know, I have to admit that the DHS approach reminds me 
of the Administration's attitude towards Iraq. We went in there 
no matter, and use a unilateral approach. Regarding fencing I 
really believe that when you have to do it you have got to do 
it. But in this case I think that we can go a long way by 
reaching out to local communities and officials along the 
border, in addition to U.S. citizens that own private property 
on the border.
    Regarding fencing, according to the Chief of Border Patrol, 
they only have two to three minutes to respond to illegal 
immigrant crossings. I think that you are way behind in terms 
of developing technology that guarantees Border Patrol officers 
more than just three minutes to respond to border incursions.
    I am concerned about meetings where DHS dictates to 
communities what they plan to do, such as build a fence through 
a golf course in Eagle Pass, or by an an elementary school in 
Roma, TX.

                       BORDER FENCE CONSULTATIONS

    Secretary Chertoff. I can just briefly respond on 
differences of recollection or differences of perspective on a 
particular meeting. I know there have been a lot of meetings 
and I know there has been a lot of outreach. And the proof of 
the pudding is on some of them where I have been involved I 
have actually seen that we have modified our plans when the 
community comes up with a reasonable alternative.
    For example, there was--I think it was Laredo, some part of 
Laredo--we wanted to build a fence and they persuaded the 
Border Patrol that cutting the cane and putting some technology 
up would do a good job. And we were persuaded.
    In Hidalgo County the county officials, the county judge 
and officials came to us and said, Look, here is an 
alternative.
    Cameron County is now for the first time beginning to 
engage with us about an alternative. That is good. And we are 
always open to alternatives that achieve our results in a way 
that are more palatable to the community. I will tell you 
though sometimes people say that we have not negotiated and we 
have. And I know there is a court case now where some 
individual has claimed that we did not communicate with her. 
And the evidence has shown time and again efforts were made and 
she rebuffed them. That is not a failing on our part of 
consultation; that is a failure on the part of the individual 
who, for whatever reason, chooses not to engage and then 
complains that we are not engaging.
    So what I have noticed which I guess maybe is grounds for 
optimism is that as the communities realize we are serious 
there is now a greater willingness to come forward. So I am--
you know, my direction, and I believe it is being executed is, 
to continue to talk even as we are moving forward.
    But I do want to conclude by saying this: not only is there 
a congressional mandate on building the fence--and we build it, 
of course, you know, where we think it is appropriate to 
build--but we have made a commitment to the American people. I 
lived through the comprehensive immigration reform debate and 
my take-away from that was the reason we failed was that we 
could not convince the American people we were serious about 
dealing with the enforcement problem. They became cynical about 
30 years of promises that were made and then when their back 
was turned we never carried it out. And if it is the last thing 
I do in this job I am going to with every fiber of my being and 
totally within the law and in a reasonable way live up to the 
commitments that we have made to the American people.
    Mr. Price. Mr. Culberson.

                          OPERATION STREAMLINE

    Mr. Culberson. Thank you, Mr. Chairman. Mr. Secretary, 
thank you for coming. I want to particularly compliment you on 
your Chief of Staff Chad Sweet doing a superb job. He has been 
very, very supportive and helpful in working with me and other 
members of the committee. And I want to echo my good friend 
Ciro Rodriguez's comments, and he and my good friend John 
Carter, the other Texans on the subcommittee, Chet Edwards, we 
have all been working arm in arm on a very serious law 
enforcement problem on the southwest border. It is bipartisan. 
Ciro is exactly right that the communities along the river 
support enforcing the law. Who does not if you have kids, you 
own a business, you have a home, it makes a big difference when 
the laws are enforced.
    And it has been my sincere privilege to work with Ciro. We 
were elected together in 1986 to the Texas House and have been 
good friends every since. And we have found, Ciro and I and 
Henry and our friends, in particular Ciro and Henry, a win/win 
situation for you, Mr. Secretary, in Operation Streamline, the 
zero tolerance effort that has been so successful in Del Rio 
and Laredo, the overwhelming--the support of the local 
community has been overwhelming. The results have been 
dramatic, as you know, in the Tucson, excuse me, in Del Rio, 
Laredo and Yuma where the zero tolerance operation Streamline 
Program is in effect. They are enforcing existing laws with 
existing personnel and some modest increase in resources. And 
the local community is just thrilled with it. And the results 
have been dramatic.
    In Del Rio, Ciro, I know that you are familiar with these 
as well, they have had a 76 percent drop in the crime rate. In 
Del Rio they have seen the lowest level of illegal crossings 
since they started keeping statistics in 1973. And there are 
vacant beds, Mr. Secretary, the Del Rio sector has plenty of 
vacancies in the beds because as the criminals and the illegal 
alien populations figure out that the law is enforced in Del 
Rio they just do not cross there. There is an initial surge in 
demand for bed space and then it drops off.
    In fact, my staff and I have found that, and as you know, I 
have devoted a lot of time and thought to this and I do my best 
to do my homework, and we have identified 8,000, 8,000 vacant 
private prison beds that are available today between Louisiana 
and California. And those beds cost about $56 a day. That is 
about $448,000 a day if you were to use those beds and about 
$13.4 million a month. And I cannot think of a better use for 
your money than using them.
    What I am leading up to, and I take it at your word you 
said I know you are law enforcement, you are a former judge, 
you are a committed law enforcement officer and I take it at 
your word that before you leave this office you want to fulfill 
the promise of the Administration and the Department of 
Homeland Security to enforce our laws and secure our borders. 
But I have to tell you it is, you know, not happening and the 
evidence does not support that.
    The statistics you have given us on the end of catch and 
release, for example, only apply to people who are from 
countries other than Mexico. And people that are from countries 
other than Mexico make up less than 12 percent of all the 
arrests that are made on the border. 88 percent of the people 
arrested on the border are crossing illegally from Mexico. In 
fact, in the 12-month period 1,057,000 of the 1.2 million 
arrested on the border, 1,057,000 were from Mexico.
    Now, if you set aside the OTMs and the early release folks 
that are no longer being released early, what is essentially 
happening then in every sector other than Del Rio, Yuma and 
Laredo the folks that are crossing illegally from Mexico, 
whether they be carrying drugs or weapons, are essentially 
being turned loose. Now, the Border Patrol is only catching 
maybe one in four. That means about 3.6 million people entered 
the United States successfully between October 2005 and 
September 30, 2006, plus about 1 million from Mexico who are 
just released and not incarcerated or prosecuted.
    So I have to tell you it is, you know, not working. The 
border is not secure. That means that about 5 million people 
every 12 months are entering the United States illegally 
without any fear of being prosecuted, which is just 
unacceptable. And those are just facts. I mean just look at the 
numbers and they are there.
    And the Chairman has been generous with his time and a vote 
has been called but let me just walk you through quickly the in 
particular how serious a hemorrhaging we have in Yuma. I mean 
the entire border about 5 million people just walk in every 12 
months successfully, get past Homeland Security. So I applaud 
you for trying to achieve the goal but it is not being done. 
And in Arizona, in Tucson in particular, Mr. Secretary, where I 
visited in early February going out to try to help them 
implement Operation Streamline, I was dumbfounded to discover 
that of the people arrested by the Border Patrol in the Tucson 
Sector 99.6 percent of all the people arrested by the Border 
Patrol will never be prosecuted, including drug smugglers 
carrying less than a quarter ton of dope. You have a 99.6 
percent chance of never going to jail if you are arrested in 
Tucson.
    So it is not working. You have a success story in Operation 
Streamline. And I want to ask will you please work with Ciro 
and me and my friends on this committee to put Operation 
Streamline in effect from Brownsville to San Diego?
    Secretary Chertoff. If I can just answer the question, Mr. 
Chairman. Let me first say I cannot substantiate some of the 
figures of flow that you have stated here, so I do not want to 
have my silence taken as somehow agreeing with it. I will tell 
you with respect to catch and release we do not have catch and 
release for Mexicans because Mexicans are deported and returned 
to Mexico. And that is what we do with non-Mexicans.
    As far as the use of Operation Streamline is concerned, I 
agree with Operation Streamline. I think it is a very good 
program, and we are working to get it expanded across other 
parts of the border because I do agree with you it has a great 
deterrent effect. I should observe that I cannot spend other 
agencies' money; I have to spend mine. What I think has been 
the constraint on rolling Operation Streamline out is once you 
take people into the criminal justice system, which is a 
Department of Justice budget issue of course, you have to have 
not only prosecutors to prosecute the cases and jail space to 
house the individuals that are convicted, you need to have 
judges to try the cases.
    We are working with the Department of Justice, and I think 
it is part of the money that was enacted in the 2008 
comprehensive budget package--I think there was money given to 
DOJ to allow them to expand their resources and get the 
personnel involved in order to deal increasingly with this 
problem by bringing criminal cases. And obviously most of the 
individuals who are apprehended are committing misdemeanors. An 
illegal entry is a misdemeanor. But even that works.
    So I agree with you it is a good program. I think thought I 
want to--I do not want to leave a misimpression about what the 
definition of ``success'' is. I spent a lot of years 
prosecuting cases. There is no place in the United States of 
America where 100 percent of the people who commit crimes wind 
up going to jail. There are always decisions prosecutors make 
based on the seriousness of the crime and the priorities.
    Mr. Culberson. But nor is there anyplace where 99.6 percent 
of them go free as they do----
    Secretary Chertoff. Right. But I have to say that by 
definition everybody who enters illegally has committed a 
misdemeanor.
    Mr. Culberson. Versus a little gentlemen.
    Mr. Price. Gentlemen, time has expired and we do have other 
members waiting for questions.
    Mr. Culberson. Thank you, Mr. Chairman.
    Mr. Price. Please finish your sentence, Mr. Secretary.
    Secretary Chertoff. I was going to say I endorse the idea 
of Streamline because I think it is an effective tool to 
prosecute some of these cases. I think, however, to suggest 
that 100 percent of the cases will be prosecuted criminally is 
not likely to happen without----
    Mr. Culberson. That is not what Streamline does.
    Mr. Price. Mr. Farr.

                              BORDER FENCE

    Mr. Farr. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here today.
    I am constantly reminded that we talk a lot about the 
border. And without understanding how big the border is, we 
have trouble getting a mental picture. We were told last year 
that the border is longer than is the distance between the 
Capitol and the city of San Francisco. Do we have a figure for 
the border, in mileage?
    Secretary Chertoff. It is about 1,900 miles in the southern 
border, I think it is obout 5,000 in the northern border and 
then you have the coasts which are also a border. So I think we 
are talking about, you know, literally 7,000.
    Mr. Farr. So, out of 1,900 miles, you are waiving laws on 
construction, as you pointed out, of 470 miles. How much of 
that is on military land?
    Secretary Chertoff. Some of it is on military land as it 
goes through the Barry Goldwater Range. A lot of it is on 
Department of Interior land when you get into Arizona. I 
think----
    Mr. Farr. Are you doing pedestrian fences in those very 
rural areas?
    Secretary Chertoff. No, we are not. We are generally doing 
vehicle barriers. But we need to do the same waiver for vehicle 
barriers; it is the same legal issue. We are doing vehicle 
barriers in rural areas. We are doing pedestrian fences 
generally where we are dealing with a metropolitan area or a 
town where there is major infrastructure.
    Mr. Farr. You are not doing pedestrian fences on the 
military lands in the Barry Goldwater Range?
    Secretary Chertoff. There we did a pedestrian fence because 
the Barry Goldwater Range had an unusual problem. The entry of 
individuals on foot caused the range to shut down its training 
activities.
    Mr. Farr. As it did in Utah and Nevada too.
    Secretary Chertoff. Yes. So the Department of Defense had a 
more rigorous requirement for--to step back, usually when 
people enter on foot in an area that is rural we have a defense 
in depth. We can intercept them inside the country and so we 
are satisfied with that amount of tactical infrastructure.
    Mr. Farr. So we had to build a fence so the military could 
carry out their military training.
    Secretary Chertoff. Correct. The Goldwater range.
    Mr. Farr. Why was that fence not on their dime?
    Secretary Chertoff. I think we actually shared the money 
with them.
    Mr. Farr. I see.
    Secretary Chertoff. I think they put a lot of--they kicked 
money in and they kicked labor in through the National Guard or 
through some of the forces.
    Mr. Farr. Well, what I am concerned about, as the Chairman 
pointed out, is the disrupting of cross-border migration 
patterns. I think that is very important and, as you know, a 
concern to an awful lot of people. In building a pedestrian 
fence in that rural area, it is going to require an awful lot 
of manpower to keep it open. Have you factored in all that 
additional cost?
    Secretary Chertoff. Well, the Goldwater fence is built. It 
is I think 36 miles. And that was factored in and DOD has 
assumed the obligation to make sure they contribute to the 
maintenance and, you know, repair of the fence obviously 
because it is necessary for their protection of their 
activities.
    Mr. Farr. Is there an intent here to build a fence across 
the entire 1,900 miles?
    Secretary Chertoff. No. No. The intent is to build by the 
end of this year 670 miles. And I think there probably is some, 
you know, some additional mileage.--I would say probably around 
50 or 75 miles that would be built in out years. The idea is to 
have a natural or physical barrier of some kind across the 
southwest border, recognizing that in Texas the river is a 
barrier in many good places. We have some areas in California 
and Arizona where there are mountain ranges and that is a 
pretty good natural barrier. But the rest of it we will have 
some kind of a barrier in place. It is not going to all be 
pedestrian fence, but it is going to be pedestrian fence in 
areas where there is a town or an urban area and vehicle 
barrier in more remote areas.
    Mr. Farr. So about 30 percent of the border line will have 
a fence and about 70 percent will not?
    Secretary Chertoff. That is about right, yes.
    Mr. Farr. And that will be sufficient to stop the 
trafficking?
    Secretary Chertoff. Not in and of itself. But combined with 
the fact that we are doubling the Border Patrol, we are putting 
up four, we have now four unmanned aerial vehicles, we are 
going to have 40 ground-based radar systems. We are using a 
whole range of different tools. All of that combined, yeah, is 
exactly what we need to get that border under control. Plus, I 
might add, consistent tough interior enforcement to attack what 
is drawing people in. Because obviously you want to deal with 
all elements of the problem. You do not want to just do it 
right at the border. That is important but other things you 
have to do address the interior. And we want to make sure we 
are addressing that too. That is part of our strategy.

                      MEXICAN SIDE OF BORDER FENCE

    Mr. Farr. In discussing these border improvements, has any 
consideration been given to trying to also improve the Mexican 
side of the border? When you have sewage treatment problems, if 
you have problems on one side it is going to affect the other 
side, the same is true for air quality problems. You just 
talked about law enforcement in Mexico being very 
collaborative. It seems to me we are fortifying one side of the 
border with, incredibly, almost a militaristic approach, with 
all of the unmanned vehicles and aerial vehicles and all the 
other technology, but are we doing anything to improve the 
quality of life on the Mexican side?
    Secretary Chertoff. Well, first of all, again I am straying 
a little bit outside of my department but, (A) we want to work 
and we are working closely with the Mexicans to help them 
enforce the law on their part of the border. I agree with you 
though, law enforcement is necessary but not sufficient. That 
is why I happen to believe--maybe it is unpopular these days, 
but I happen to believe NAFTA is actually a good thing for our 
security because by increasing the ability of the Mexicans to 
make their economy vibrant that actually keeps people in Mexico 
who should be working in Mexico. So I actually would argue 
NAFTA is a good thing for the border.
    Mr. Farr. Your department is not doing anything to help 
infrastructure on the Mexican side.
    Secretary Chertoff. No. That is outside of our authority.
    Mr. Farr. Thank you, Mr. Chairman.
    Mr. Price. All right. We do have to go to a vote. I would 
like to give Mr. Edwards----
    Mr. Edwards. I can come back.
    Mr. Price. You can come back.
    Ms. Roybal-Allard. If you can----
    Ms. Roybal-Allard. I will do it very quickly.
    Mr. Price [continuing]. Keep yourself to a brief question 
then we will resume after the votes.

                            MATERIAL SUPPORT

    Ms. Roybal-Allard. Mr. Secretary, I would like to raise two 
issues very quickly with you. Recent Washington Post articles 
have highlighted the case of an Iraqi refugee in the U.S. who 
had been denied legal permanent residence by DHS because of his 
past involvement with the Kurdish Democratic Party, a group 
that at one time worked to overthrow the regime of Saddam 
Hussein. His application was denied even though he was employed 
by the U.S. Army as a translator during Operation Iraqi 
Freedom. And he now works as a training contractor for the U.S. 
Marine Corps. After the Post article was published you 
exercised your exemption authority and this individual will 
soon have a Green Card.
    This subcommittee has heard many stories like this one. And 
last year Congress modified how DHS adjudicates material 
support cases so that common sense prevails. What is the CIS 
schedule for publishing new policy guidelines or federal 
regulations to implement the revisions Congress enacted last 
year?
    Secretary Chertoff. You are absolutely right that the law 
changed at the end of the year to allow us more discretion to 
give waivers. CIS issued an order freezing all current pending 
cases where people were seeking to have Green Cards but were 
being denied under the old rule. We are now in the process of 
reviewing those cases.
    This particular case you talked about had actually been 
adjudicated between the time the law changed and the time the 
guidance went out. But CIS has now gone back and made sure that 
everybody who is in the pipeline is frozen if they have been 
disqualified based on that, on the old law. So we are not going 
back through it under the new law.
    Ms. Roybal-Allard. And when will you be publishing these 
new guidelines?
    Secretary Chertoff. I do not know how it is going to be 
published. I do not know exactly in what form it is going to be 
published. I know that as of the end of last month we had 
exempted about 5,000 individuals because of the change in law. 
I do not know whether it requires a regulation or just a 
guidance and then we deal with these cases individually.
    Mr. Price. Perhaps they could respond to that question for 
the record.
    Secretary Chertoff. I will.
    [The information follows:]

    Question. When will/did USCIS publish new guidelines for material 
support cases?
    Response. USCIS does not believe that promulgation of federal 
regulations is required to implement the statutory changes enacted by 
the Consolidated Appropriations Act (CAA). USCIS has already issued 
interim instructions on the application of the ``automatic relief 
provisions'' of CAA and adjudicators are processing cases accordingly. 
In addition, USCIS anticipates that in the near future formalized and 
updated guidance will be issued to all adjudicators. Similarly, 
procedures for the exercise and implementation of the Secretary's 
authority not to apply certain terrorist-related grounds of 
inadmisssibility, as amended by CAA, does not require the promulgation 
of federal regulations. Notices of future exercises of the Secretary's 
authority under this provision will be published in the federal 
register, and USCIS will issue implementing instructions made available 
to the public.

    Mr. Price. Thank you very much.
    [Recess.]
    Mr. Price. Subcommittee will reconvene. I told Ms. Roybal-
Allard, Mr. Secretary, that we would be making certain that you 
had the full range of questions she had hoped to ask so that 
you can do a timely response.
    Mr. Edwards.

                           CONTAINER SECURITY

    Mr. Edwards. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for your public service and your leadership in protecting 
our country and our families. I respect your service greatly. I 
would like to ask about radiation detection screening of ship 
containers. I believe you testified that approximately 98 
percent of ship containers are screened for radiation purposes 
once they are here in U.S. ports, is that correct?
    Secretary Chertoff. That is correct.
    Mr. Edwards. What number would that be for ship containers 
that are sent through radiation detection screening at foreign 
seaports before they come to the U.S.? Is that less than five 
percent?
    Secretary Chertoff. It probably is. We have started a pilot 
program under Secure Freight, and we have got three ports now 
that are engaged; one is Southampton, one is Honduras and one 
is a port in Pakistan.
    Mr. Edwards. Right. And at those three ports you are 
screening 100 percent shipping containers bound for the United 
States, is that correct?
    Secretary Chertoff. Correct.
    Mr. Edwards. How is that working in those three ports?
    Secretary Chertoff. I do not have a final conclusion. I 
think it has got some logistical challenges in terms of both 
the capability of the individual countries to support what we 
are doing and some of the architectural issues. I cannot give 
you a definitive answer, but we should get a result on that 
pretty soon.
    Mr. Edwards. All right, and perhaps we can get lessons 
learned from that, but what I would like to ask you is if we 
can do 100 percent screening for nuclear devices at those three 
ports and if it works reasonably well, why are we only at five 
percent or less for ship containers coming in from foreign 
seaports?
    Obviously your goal, our goal as a country would be not to 
find out there is a nuclear device once it is sitting in the 
Port of Los Angeles or the Port of Houston. We would like to 
know about it before it is shipped to our country. Is there any 
kind of game plan? Do you have any goal that within the next 
five years, X percent of shipped containers will be screened 
before they leave foreign ports?
    Secretary Chertoff. I cannot give you a percentage. I can 
tell you there will be at least three constraints that we are 
going to have to deal with. One is going to be some countries 
may choose not to participate. We cannot make another country 
do this.
    Mr. Edwards. Could I ask you about that just in the limited 
time I have? Do we allow other countries to decide whether they 
are going to screen their passengers before they get on an 
airplane in Singapore to fly into the United States? Can they 
choose not to screen passengers for weapons or bombs?
    Secretary Chertoff. We could deny landing rights if we were 
not satisfied with the screening. And I suppose we could say to 
another country, ``If you do not do this, we will deny you 
shipping.'' I will tell you that I think the consequences of 
that to our economy would be disastrous. We would be cutting 
off our face to spite our nose. So that is one constraint.
    A second constraint is that the physical architecture of 
some ports do not lend themselves to doing this, and there are 
two characteristics. Some ports depend on the actual ground on 
which they are built, for some the background radiation creates 
a challenge. But more important than that, for a port that is a 
major transshipper, we do not currently have the technology 
that allows you to scan when you are moving from one ship to 
another ship. So that is an architecture constraint.
    The third constraint, I have to be honest, is I do not know 
that it makes a lot of sense to do this in every port. For 
example, we are doing it in the Port of Southampton, but the 
chances that a nuclear bomb is going to be loaded on a ship in 
Britain and sent to the U.S. I would say is about as remote as 
any threat I can think of.
    On the other hand, what we are doing in Pakistan makes 
quite a bit of sense because I think Pakistan is obviously an 
area where if there were to be a nuclear bomb or something of 
that sort loaded, you know, that would certainly be a place we 
would think about. So what we would like to do I think 
eventually is look at is there a way to do this by risk?
    Look at those ports where there is a higher risk, albeit 
still a low risk, and focus on those and work with those 
countries to see that they will agree to let us do this.
    Mr. Edwards. I would respect the fact with limited 
resources in implementing a program we ought to go to the 
highest risk ports first, although I would suspect if one were 
a terrorist that person would look for the weakest link in the 
chain link fence, so I am not sure I would agree with the idea 
that there are some ports because they are in friendly 
countries we should not have to consider that.
    I know we would not be happy--if I went to the Washington 
Airport, I know you would not change the policy to allow for 
convenience of flight that we only check five percent of the 
passengers getting on airplanes. I will finish with this.
    It seems to me that if it is worth the inconvenience, and 
economic disruption, whatever problems are caused, the cost, to 
check 100 percent of passengers getting on commercial airline 
flights, then perhaps we ought to be more aggressive in getting 
beyond two, or three, or four percent of sea containers that 
could well someday, God forbid, contain a nuclear bomb.
    Secretary Chertoff. I agree with you we should take it 
seriously. I do believe we should do foreign deployment of this 
in a risk-based way. I would add one other thing: I want to 
look not only at containers, but to be perfectly honest, the 
way I would get a nuclear bomb into the United States if I had 
one and I was a terrorist is I would rent a private jet and I 
would put it on the jet and I would just blow it up.
    The good news is we are addressing that as well. We have 
got--a measure is moving forward ultimately to do exactly this 
kind of radiation scanning for foreign private planes before 
they enter U.S. airspace. So we are very tuned in to this.
    Mr. Edwards. Okay. If you could just follow-up with written 
in answer to the question is there any kind of a goal over the 
next five or 10 years what percent of ship containers would be 
checked for nuclear devices?
    Secretary Chertoff. Sure.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3385A.279
    
    [GRAPHIC] [TIFF OMITTED] T3385A.280
    
    Mr. Edwards. Thank you.
    Mr. Price. Thank you. Mr. Serrano.

                       CBP SECONDARY INSPECTIONS

    Mr. Serrano. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary. Secretary, a recent GAO report stated that Customs 
and Border Protection conduct secondary inspections on 20 
percent of charter passengers arriving from Cuba at Miami 
International Airport, more than six times the inspection rate 
for other international arrivals, even from countries 
considered shipment points for narcotics.
    According to GAO, these inspections, ``have strained CBP's 
capacity to carry out its primary mission of keeping 
terrorists, criminals and nondocumented immigrants from 
entering the country at Miami International Airport.'' Would 
you agree that for the nation's sake it would be better to 
follow perhaps suggestions of the report for CBP to devote more 
of its time and energy to keeping terrorists and drugs entering 
the country than searching for cigars from Cuba?
    Secretary Chertoff. I do not want to get on the subject of 
cigars. You know, I have not seen the particular report, and I 
do not know the CONOPS for the operational plan that affects 
the way they do secondary inspections. I will be happy to find 
out about it. I mean, I think generally we put people into 
secondary inspections based on the risk.
    Obviously, terrorists are the thing we are most concerned 
about, but any kind of illegal smuggling is something we do 
have as part of our responsibility. As to the specifics of the 
number or how that has been derived, I will have to get back to 
you on.
    [The information follows:]

    Question. How does CBP determine how many people to put into 
secondary inspections (based on the risk) relating to charter 
passengers arriving from Cuba at MIA. (``As to the specifics of the 
number or how that has been derived, I will have to get back to you 
[Mr. Serrano].'')
    Response. At Miami International Airport (MIA), U.S. Customs and 
Border Protection (CBP) regularly encounters Cuban nationals arriving 
on scheduled flights, as well as seasonal charters from Havana, Cuba. A 
significant number of the Cuban arrivals at MIA are subject to National 
Security Entry Exit Registration System (NSEERS) registration based 
solely on Department of State (DOS) lookouts.
    Pursuant to requirements within the USA PATRIOT Act, the Department 
of Justice initiated NSEERS, which requires certain nonimmigrant aliens 
to register with the U.S. Government upon arrival and departure from 
the United States. Current procedures require CBP officers to refer 
NSEERS registrants for secondary processing upon application for 
admission to the United States, and require NSEERS registrants to 
report for departure verification and processing upon departure. The 
NSEERS secondary processing requires the collection of biometric and 
biographic information. Nonimmigrants required to register include 
citizens of Iran, Iraq, Libya, Sudan and Syria, as designated by the 
Secretary of the Department of Homeland Security (DHS) in the Federal 
Register; and other who have been designated by DOS or DHS in 
accordance with 8 CFR 264.1(f)(2).

    Mr. Serrano. I would appreciate that. I would just comment 
that I hope in getting back to us you also keep in mind, and 
while I understand that Homeland Security is a big department 
and you have a huge task in front of you, that we do not allow 
our war on terror to get muddled in this area in our failed 
policy towards Cuba.
    You know, you say to me I do not know some of things that 
we will put in place, and I accept that, but probably it has 
something to do with the fact that it is Miami and that there 
are some politics there that dictate that probably you are 
under pressure, not you personally, but they over at the border 
there are under pressure to do more about people coming from 
Cuba than any other place.
    Secretary Chertoff. I do not want to speculate about it. I 
mean, it may just simply be that history has shown there is a 
lot of cigars being smuggled in. Although I feel quite 
competent to discuss cigars at length, I think I probably do 
not want to waste the Committee's time by doing that, but I 
will find out what the specific CONOPS is.
    Mr. Serrano. I understand, and understand that this 
Committee would never feel that it is a waste of time to 
discuss good cigars or Mambo CDs or anything like that that we 
can have invading us from Cuba. Baseball players, you know, 
that kind of thing. The New York Times recently ran an item 
about how CBP is targeting Amtrak and Greyhound traffic to 
passers near the northern border.

                  CBP PROCEDURES ON IMMIGRATION STATUS

    I understand that this is part of your mandate to inquire 
into anyone's immigration status within a reasonable distance 
from any external boundary, and that is how it reads. What is 
the procedure your agents follow when they ask people for their 
papers on the train? How do you define a reasonable distance in 
the case of these recent incidents, such as train travel from 
New York or Chicago?
    Does there have to be a stop within a certain distance of 
the border or do the tracks merely have to pass within a 
certain distance? Finally, and I know I am giving you a few 
questions in one here because of time constraints, do you know 
if we have detained people who declared that they were U.S. 
citizens?
    Secretary Chertoff. With respect to the train program, 
there is authority to ask people about their immigration 
status. There is authority both at the border and there are 
some authorities even inside the country. I would not want to 
in the context of the hearing try to give a definitive answer 
as to what the legal requirements are, and so I will get back 
to you on that.
    [The information follows:]

    Question. What are the legal requirements relating to procedures 
CBP agents must follow when they ask people for their papers on a 
train? (i.e. How does DHS define a reasonable distance from an external 
boundary before it will check for US citizenships or travel documents?)
    Response. The authority for Border Patrol agents to board and 
search passenger trains is found in 8 U.S.C. 1357(a)(3) (INA 
Sec. 287(a)(3)) which provides:
    Immigration Officers have the authority without a warrant: ``within 
a reasonable distance from any external boundary of the United States, 
to board and search for aliens any vessel within the territorial waters 
of the United States and any railway car, aircraft, conveyance, or 
vehicle . . .''
    In 1957, Title 8, Aliens and Nationality, of the Code of Federal 
Regulations (CFR) further defined the statutory limit of ``reasonable'' 
as within 100 air miles from the border (See 8 C.F.R. 287.1(b)). This 
regulation permits the expansion of more than 100 air miles in unusual 
circumstances by Chief Patrol Agents in conjunction with the 
Commissioner of U.S. Customs and Border Protection (CBP).
    Additionally, 8 USC 1225(d)(1), (INA 235(d)1)) confers the 
authority to board and search conveyances. That section confers such 
power upon immigration officers who have reason to believe that aliens 
are being brought into the United States upon the conveyance to be 
searched and places no limitation as to the distance between the 
conveyance and the external boundary of the United States.
    The overall goal of the Border Patrol's National Strategy is to 
establish and maintain control (Operational Control) of the border 
using the right combination of personnel, technology, and 
infrastructure. The National Strategy recognizes that control of the 
border cannot be achieved by merely enforcing at the line and therefore 
includes a substantial defense-in-depth component. Some of our 
enforcement actions will take place away from the physical border, at 
transportation hubs, interior checkpoints, and lateral from these 
checkpoints. Further, the Strategy contemplates denial of transport 
modes used to move or transit illegal aliens, wherever they are located 
in the United States, in order to interdict illegal migrants before 
they reach their ultimate destinations i the interior of America.

    I am not aware that this program has yielded a situation 
where we have arrested or tried to deport a person who is an 
American citizen. Obviously, when you have the authority to 
stop and ask questions, and the standard for exercising that 
authority is a very, it is a pretty low threshold, you will 
obviously sometimes find people, you may ask a question, then 
they will turn out to be American citizens, and that is fine.
    As to whether anybody through this program has been 
actually detained for an extended period, I do not know the 
answer but I will get back to you on it.
    [The information follows:]

    Question. Have any Americans been detained for an extended period 
and if so how many?
    Response. Over the past five years, ICE has never knowingly 
detained an American citizen for an extended period to our knowledge. 
In 2007, ICE did detain a United States citizen who falsely claimed to 
be a citizen of a foreign country. This case involved Thomas 
Warziniack, who was incarcerated at the Colorado Department of 
Corrections (CDOC) facility serving a sentence for criminal 
impersonation and possession of a controlled substance. During his 
interview with ICE officers, Mr. Warziniack claimed to be a citizen of 
Russia, born in St. Petersburg on September 1, 1960, who last entered 
the United States in the late 1960's without permission. Mr. Warziniack 
was placed into ICE detention on December 18, 2007. When he appeared 
before the immigration judge the following month, he asserted U.S. 
citizenship, and at a subsequent immigration hearing, he produced a 
copy of a Minnesota birth certificate, which ICE authenticated. ICE 
thereafter released him immediately from detention and asked the judge 
to dismiss the case without prejudice.
    ICE has taken steps to ensure this does not happen again and is 
currently reviewing its policies and procedures to determine if even 
greater safeguards can be put in place to prevent the rare instance 
where this event occurs.

    Mr. Serrano. Please. I would appreciate it. Just one last 
comment. They do a pretty good job at Amtrak. I can attest to 
that. I take Amtrak every week, and I travel to New York and 
New Jersey, members of Congress, and I was the only one who was 
asked for ID seven weeks in a row. Must be my blond mustache. 
Thank you.
    Secretary Chertoff. You are welcome.
    Mr. Price. Mr. Fattah.

                                REAL ID

    Mr. Fattah. Mr. Secretary, your department just finished 
with the rule on REAL ID. It appears that it would cost states 
about $3.9 billion. This year alone almost $1 billion has been 
the cost to our states on REAL ID. Now, the budget that is 
being proposed has, if you make some assumptions about it, 
about $150 million for REAL ID.
    That is, if states were to use 20 percent of all of their 
Homeland Security grants for REAL ID, you know, you could get 
to the $150 mark, but it is in a budget in which those grants 
have been cut 78 percent. So I am trying to figure out whether 
the states are on board in terms of compliance and whether all 
the states, you know, have signed on to an extension of the 
whole REAL ID effort.
    If you could help the Committee with that, that would be 
useful.
    Secretary Chertoff. First of all, with respect to the 
money, this is a dramatic cut in the cost because of some 
changes we made in the rule and response discussions we had 
with the states. We are estimating over about a 10 year period 
$3.9 billion which comes out to about $8 a license. The $1 
billion in the first year, I have heard that estimate from the 
states. Frankly, it surprises me. I doubt you would need to 
spend $1 billion.
    We have also got I think $50 million in the proposed budget 
for CIS to complete the process of a hub that would allow the 
states to do some of the checking that they need to do. All of 
the states have now been granted extensions, at least one with 
some conditions that the state is committed to doing this year.
    Some states have state laws that prevent compliance with 
REAL ID, but what they have represented to us is that they have 
on their own completed about 90 percent of what they need to 
get there. So obviously that, you know, I think we are well 
underway with this. I know that there is controversy. I know 
that the governors would like to have it fully funded by the 
Federal Government.
    I think we have dramatically cut the cost, and I think, 
frankly, having a driver's license that complies with REAL ID 
will be a benefit to the citizens of the states. So I suspect 
this debate will be ongoing for a while, but I am pleased to 
say that I think we are actually in real life pretty far down 
the road to being able to get these out.
    Mr. Fattah. I have a question on a different subject, but I 
do want to just finish this. You said you do not think it will 
be a $1 billion in 2008, for instance. Have your people done a 
cost estimate?
    Secretary Chertoff. We relied on information provided by 
the states. I cannot dispute it, but I cannot necessarily 
validate it. I think that if the states were to come and say we 
want to have more money, obviously that will have to be 
supported with a spend plan to explain exactly how they would 
spend the money.
    We got kind of a general figure that the states provided 
us. I think the $3.9 billion I am comfortable with. It is just 
the $1 billion in one year I am not completely sure I can 
validate.
    Mr. Fattah. If your offices could provide the Chairman more 
information on the cost estimates, that might be useful to us.
    Secretary Chertoff. Sure.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3385A.281
    
                            SECURE PASSPORTS

    Mr. Fattah. My second question and my last question has to 
do with the new passports. There seems to be some controversy 
that the firm that has been retained to do I guess this 
computer chip, for lack of a better term, inside the new 
passports is a nondomestic firm and that the work is going to 
be done in Singapore.
    It just seemed that the production of American passports, 
the notion that we would be doing that in some place other than 
the United States, especially to the degree that we are doing 
it, for security purposes, it would seem that we would want to 
have complete control over the process. So if you could respond 
to that?
    Secretary Chertoff. On that one, I will have to actually 
refer the question to the Department of State because it is 
their contracting and their process. So I think in terms of 
explaining exactly how they are doing it and what the security 
features are, they are probably the better source, but I will 
convey that.
    Mr. Fattah. I understood that this was a collaborative 
effort.
    Secretary Chertoff. We both have a joint interest in the 
program, but the actual process of producing passports is a 
State Department function.
    Mr. Fattah. So the security features will not----
    Secretary Chertoff. Well, we have to be satisfied with the 
security features, but the process of actually assembling and 
manufacturing is a State Department function, and then they 
manage the contract and they have to actually execute on it.
    Mr. Fattah. Yes. I will not belabor, except my 
understanding is that the nature of the security feature is a 
process out of your shop and that it was therefore determined 
it could not be done domestically, and that is why it is being 
done by a Dutch firm that is actually contracted in Singapore 
to get this work done.
    Secretary Chertoff. I think maybe the best way to do this 
is for me to just send you something. Between the Department of 
State and my department, we will answer the question. We will 
figure out a way to.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T3385A.282
    
    [GRAPHIC] [TIFF OMITTED] T3385A.283
    
    [GRAPHIC] [TIFF OMITTED] T3385A.284
    
    Mr. Fattah. Thank you. Thank you, Mr. Chairman.
    Mr. Price. We will look forward to your response to both of 
Mr. Fattah's questions for the record.

                       BORDER FENCE CONSULTATION

    Mr. Secretary, I want to turn to the border security fence 
again for structure and technology, BSFIT expenditure plan. 
Before I do that, I want to underscore for just a minute the 
importance of Mr. Rodriguez's line of questioning about the 
consultation requirement with respect to border infrastructure.
    Mr. Rodriguez cited several examples and can cite several 
more of border communities, various stakeholders, who do not 
feel that the consultation process has been adequate or 
complete. I gather from what you have said you are not 
necessarily saying that it has been, that this is an ongoing 
process, but I want to just make sure of that.
    We do have stakeholders here who should be consulted. Our 
appropriations bill last year, as you know, required that. So 
we do need perhaps some clarity about how you are defining 
consultation, as required by the law, and to what extent you 
regard the required consultation as completed.
    Secretary Chertoff. I cannot generalize. I think 
consultation means that we have an obligation to consult with 
everybody who is affected with this. Consultation does not mean 
that they have to sign off on it because some people disagree.
    Mr. Price. Nobody is talking about a veto right.
    Secretary Chertoff. I think the vast majority of the people 
actually we have contacted have not raised issues about 
consultation, and I think the door is still open to consult. I 
do know of some instances where people have taken the position 
that we did not consult and it turns out we have delivered 
letters, we have asked them to call us and they are not 
responding, and so I consider a consultation to be giving 
people an opportunity to consult and a reasonable consultation.
    As I said, I mean, some people, even now if they want to 
come forward we are willing to listen and consult. I have to 
balance, though, to make sure that it does not become a 
delaying device.

                                 BSFIT

    Mr. Price. All right. Let me turn to the expenditure plan. 
In the case of complex investments, such as the secure border 
initiative, we do require the Department often to provide 
expenditure plans to demonstrate that thought and planning have 
gone into the proposed use of funds.
    The 2008 Appropriations Act requires your Department to 
submit a BSFIT expenditure plan that includes, among other 
things, information on the cost of per fencing segment and 
compares the proposed fencing to other means of achieving 
operational control, something quite basic to an investment 
decision of this magnitude.
    It also requires GAO to review the plan before you can 
obligate $650 million. GAO has reviewed the plan and reports 
that only half of the legislative requirements are fully met. 
For example, the spending plan does not link funding to secure 
border initiative objectives, does not show how funding is 
allocated to the highest priority border security needs, does 
not include an alternatives analysis and does not include the 
cost of per fencing segment.
    I hope it is clear that these are not mere quibbles. We are 
not playing gotcha here. We are talking about requirements that 
have substance and have importance. It is an important 
question, and I want to pose it to you today. Why are these 
elements not included, and what kind of plans do you have to 
correct these deficiencies?
    Secretary Chertoff. Mr. Chairman, I do not have the report 
in front of me. I am quite confident we can supply all the 
necessary information, but I do not know whether GAO felt what 
we presented in the document was insufficient, and so I am sure 
we will, as is not uncommon in this case, get back and resolve 
any outstanding discrepancies.
    I have no doubt, because I have been involved in the 
process myself to some degree, that there has been careful 
analysis of the alternatives because the basic principles about 
where fence makes sense are strategic principles that we have 
testified about here, we have discussed at length.
    So I will, you know, make sure that we adequately respond 
to the issues that GAO has raised. I want to, you know, satisfy 
everybody. I think the material is there. We need to make sure 
it gets properly documented. I do not know, by the way, what 
the date of the GAO report is.
    Mr. Price. The GAO report is pending, as I understand it.
    Secretary Chertoff. It has not been----
    Mr. Price. It is not yet in published form, but it is 
apparently ready to bring out.
    Secretary Chertoff. All right. Since I have not seen it, it 
is a little hard for me to----
    Mr. Price. That is right.
    Secretary Chertoff. We will certainly respond because we 
have done a lot of work in this area, and I want to get the 
Committee what it needs in order to validate this.
    Mr. Price. All right. That is very important to us as well. 
All I can say is if this information is readily available it is 
not available in the report, and that is of course what counts. 
So we need to make certain that the requirements have been met.
    Mr. Rogers.

                     MURDER OF BORDER PATROL AGENT

    Mr. Rogers. Did I hear you earlier in your testimony, you 
referred to a border patrol agent that was killed on the 
border, and he was run over apparently by a vehicle. What were 
the circumstances?
    Secretary Chertoff. I am going to be a little careful 
because I believe we are seeking to extradite the individual 
who did it who was apprehended, by the way, with the 
cooperation of the Mexicans. So I am going to be a little 
circumspect, but here is what happened. Recently, there was an 
agent, Agent Aguilar, who was in position I think in the Yuma 
sector just on the California side of the California, Arizona 
border.
    They were engaging in an operation to intercept smuggling, 
and a smuggler in a vehicle was trying to run away from the 
Border Patrol back into Mexico and in an effort to lay down a 
device they put on the road to basically cause punctures in the 
tire and slow down the truck, and also to make sure innocent 
bystanders were not injured, the Border Patrol agent, Agent 
Aguilar, was run over--he was a fairly experienced agent--by 
the smuggler.
    The smuggler then disappeared into Mexico. The same day I 
spoke to my counterpart, the Mexican Secretary of Public 
Safety, and they immediately began to cooperate with us. They 
identified the individual who is alleged to be the driver, the 
perpetrator.
    Mr. Rogers. Well, the point I wanted to make was if you had 
vehicle barriers in place or the fence in place the officer 
would not have been killed.
    Secretary Chertoff. I believe that to be the case.
    Mr. Rogers. So we are talking about the safety and security 
of a lot of American law enforcement officials, are we not?
    Secretary Chertoff. That is absolutely right.
    Mr. Rogers. Not to mention the civilians on both sides of 
the border. So that is the reason that you are hurrying to 
build that fence, is it not?
    Secretary Chertoff. Exactly.
    Mr. Rogers. Not to mention the fact that the Congress has 
said build the fence.
    Secretary Chertoff. That is also true.
    Mr. Rogers. And furnish you the money.
    Secretary Chertoff. Correct.
    Mr. Rogers. And enacted laws that allow you to waive 
certain requirements so that you can proceed.
    Secretary Chertoff. Correct.
    Mr. Rogers. The Congress can repeal that waiver law, can 
they not?
    Secretary Chertoff. It would be unwise, but you are 
correct, as well.
    Mr. Rogers. I mean, they can do it. If the Congress has the 
will to stop the fence they can repeal the waiver law.
    Secretary Chertoff. And that would stop the fence.
    Mr. Rogers. But in the meantime, as long as that law is 
there you have exercised your rights, we have furnished you the 
money, we have told you to build the fence and it would save 
lives, so get on with it.
    Secretary Chertoff. Which we are doing.
    Mr. Rogers. Thank you.
    Mr. Price. That sounded like a crescendo.
    Mr. Rogers. Well, it was, but you know, Wagner provided 
several of those. It is sort of like what Mark Twain said about 
Wagner's music, it is really better than it sounds. Quickly, 
TSA budget. For years we had a cap of 45,000 FTEs, employees, 
screeners, for the airports. Last year, we took that cap off. 
Against my vote, but nevertheless, we took it off.

                         TSA SCREENING STRATEGY

    Low and behold, TSA is exceeding that former cap, they are 
above the 45,000, as I figured that they would. Now, there is a 
reason for that cap, that we put it on at the very outset of 
that program. It was to try to force the bureaucracy to bring 
in machinery at airports which can more efficiently and more 
capably find bad things that people are trying to get onto an 
airplane, screening machines, both for checked baggage and for 
carry on.
    I have been to many airports, as have you certainly and 
others have, who still have the old sniffer machines in the 
lobbies of the airports getting in the way of people using the 
lobby, but more importantly, not very efficiently finding bad 
things. Number two, it is very labor intensive. If we would put 
machines in place of those sniffer gizmos we could cut back on 
the numbers of employees we have, get the machinery out of the 
lobby and more efficiently find bad things.
    That was the purpose of the cap, and it worked because for 
all those years we were increasing the numbers of machines in 
airports and reducing the number of personnel screeners in 
medium-small airports. Now, in the proposed budget not only are 
we seeing a request for monies that would exceed the numbers of 
employees that we formally had limited TSA to, but we are also 
seeing a decrease in the amount of money requested to put 
machines in the airports.
    So it is a double-edged sword cutting the wrong way, in my 
judgment, and I wonder what you think about it.
    Secretary Chertoff. I think we agree that getting the 
machinery that will give us a better capability is the desired 
end state. I have to say a couple of things, though. I am 
disappointed to tell you that a lot of these machines are not, 
they do not deliver what they promise. We have not yet found a 
machine I think that has really taken us forward in a 
significant way.
    We are continuing to work with some machines. There are 
some things that we are doing with magnetic waves, for example, 
that are very promising, but they are not there yet. The 
problem has been compounded by the fact, and here I wanted to 
be careful what I say publicly but it is illustrated by the 
London airline plot, that we are now dealing with a wide 
variety of types of explosives, including liquid explosives, 
and that has made the technological challenge greater.
    The third point I would make is that part of our decision 
to increase personnel is that we are changing the mission. We 
are moving not only from having people sit there with the 
machines and look at the bags, but we are using document 
checkers and behavioral detection officers, and a big chunk of 
the money that we are asking for in the increase is to promote 
these alternative programs.
    By way of example on the behavioral detection officers, two 
weeks ago in Orlando Airport one of these officers saw an 
individual behaving in a suspicious way. Before that 
individual's bags even entered a screening machine the officer 
arranged to have the individual surveilled, opened up the bags 
and found in the bags all of the components for an explosive 
device, including liquid explosives, BBs, a pipe and other 
materials.
    It was not an assembled device, and this is obviously now a 
criminal case so I cannot say very much more about it.
    Mr. Rogers. Well, let me interrupt you. I disagree that the 
machines that are on the market that can be placed in airports 
are inadequate for the purpose. I think they are perfectly 
adequate. In fact, that is why we have them there, and they are 
working. So the machines that can be procured are available, 
effective and I think needed.
    I still say we have too many screeners in the small and 
medium airports working on old swab machines that are labor 
intensive and ineffective. There are machines that can be 
bought to replace all of that, right?
    Secretary Chertoff. And we are currently testing some of 
those.
    Mr. Rogers. But in your budget request it does not reflect 
that.
    Secretary Chertoff. Part of it is of course this passenger 
surcharge to allow us to put more machines in. I think the 
budget request reflects where we want to be, given the existing 
state of technology, including the technology we are testing. 
We want to make sure before we make a substantial investment in 
current technology that we can identify emerging technology, 
put the money into that.
    I think a longer discussion would be finding a way to 
capitalize these investments so we do not simply buy machines 
that get obsolete, which is maybe outside the scope of this. 
But I think what we are doing is taking a balanced approach, 
both to proceeding with acquiring new equipment but also to 
making sure we are putting the personnel in place in a variety 
of missions, not just swiping, that have proven to be very good 
for security.
    Mr. Price. Thank you. Mr. Rodriguez.

                       BORDER FENCE CONSULTATION

    Mr. Rodriguez. Thank you. Mr. Secretary, I know in earlier 
comments that I made I indicated to you that I had sent you a 
letter and that I had not received it. I want to personally 
thank you. As of 11:29 a.m. today I received it, so I want to 
thank you for the quick response.
    Secretary Chertoff. Great.
    Mr. Rodriguez. One, I want to reemphasize the lack of 
communication between CBP and local residents. Let me give you 
an example. In Eagle Pass, Texas, I met with the border patrol 
and they told me they were willing to consider options to do 
this, about building fencing in a floodplain, because that 
would be wise and prudent.
    Then I go to the community, and the community tells me, no, 
they do not want to do that. This is an example of poor 
communication.
    So I just want you to reach out to the Eagle Pass community 
because it would be beneficial.
    Secretary Chertoff. I am delighted to hear that. I think, 
look, we are very happy to clear up the misunderstanding. I 
think our model of the best outcome is what happened in Hidalgo 
County where the community, and we, agreed on a solution that 
achieved both of our objectives. That is great. We want to 
continue to do that.
    Mr. Rodriguez. I know that there are some hearings that are 
scheduled on the border regarding the flood areas. I have one 
other little sector out there that people are concerned about. 
The river creates a situation where we have some pipelines and 
dikes where water flows through there and fencing would impact 
that area as well as the flood plain.

                     MURDER OF BORDER PATROL AGENT

    Now, I just want to follow-up on one other thing. You 
mentioned the situation with the border patrol agent getting 
killed. We do not want that to occur. Can I just ask you, did 
that happen at an official crossing?
    Secretary Chertoff. I think the actual occurrence was on a 
road that was headed into Mexico, but I do not know. I believe, 
and I cannot be sure about this, that was not a road that led 
across the border. It was a road that ran I think parallel to 
the border where this occurred. I do not know exactly how the 
person fled, but I believe they did not flee through a port of 
entry, they fled between ports of entry.
    Mr. Rodriguez. Yes. My only argument is that for us to get 
smart about that, and if that was at an official crossing then 
the fence would have been helpful, barriers would have been 
helpful, but an official crossing, as you well know, we use 
other forms of items to stop people from crossing illegally.
    Secretary Chertoff. Absolutely. No question. When someone 
crosses at an official crossing then we do not build the fence. 
Obviously, we have other means. Or if somebody crosses between 
ports of entry, a fence and barrier do help. If they cross at a 
port of entry then it does not help.
    Secretary Chertoff. Right, right. What I do not know is how 
the person fled. What I am saying is if you are coming in with 
a vehicle smuggling between the ports of entry, that is what a 
barrier stops.

                           FEMA PREPAREDNESS

    Mr. Rodriguez. Let me ask you, I know one of your agencies, 
FEMA, and I know you inherited a lot of these agencies that had 
problems before. I just want to see if you have any 
recommendations as to what do we do in the future? You know, 
regarding experiences associated with Hurricane Katrina. I had 
a personal situation with a tornado in Eagle Pass, and the town 
experienced numerous difficulties.
    What do we need to do there in order to be more responsive 
to our constituencies?
    Secretary Chertoff. Well, I do not know the specific issue 
in Eagle Pass. I have monitored pretty close in the last couple 
of years, talking to the local officials frankly how they feel 
FEMA's response has been in emergencies, and I have gotten very 
positive responses. In fact, some are pleasantly surprised. 
Obviously, the most well-known is the wildfires in California 
last year.
    I was out in, I think there were some tornados in Tennessee 
I was at late last year, and the governor told me he was very 
pleased with the response. I recognize sometimes under our 
standards, depending on the size of the disaster, federal 
funding may not be available, so there is always going to be 
some level of disappointment if people do not get money from 
the Federal Government.
    I think the larger lesson is first of all, the importance 
of planning and preparation.
    We have done a lot in that area with respect to not only 
our own components supporting FEMA but with respect to getting 
DOD, which is now much more closely aligned with us. We have 
gone from what was at the time of Katrina a very, very 
cumbersome process for getting requests satisfied to one now 
where we have literally hundreds of assignments that are 
prearranged that we can just turn the switch and DOD is there 
right away with additional resources.
    So that is all to the good. We do have some additional 
challenges, particularly in dealing with long-term recovery, in 
which I think we really should ask whether the process of long-
term recovery maybe belongs in a different agency. And once you 
get past the emergency and you are into years of 
reconstruction, and this is part of the White House Sessions 
learned report, that is an issue we should explore.
    Mr. Rodriguez. Thank you, Mr. Secretary, and thank you for 
your response.
    Mr. Price. Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman. While you are looking at 
that long term recovery, you might look at base closures as 
being a separate entity, too, from the Department of Defense. I 
will not argue that we need entities that really know how to do 
economic development reconstruction. They should not be in 
emergency response, and they should not be in the Department of 
Defense. That is not a bad idea.

                          MODEL PORTS OF ENTRY

    As I told you earlier, I am co-chair of the Congressional 
Travelism and Tourism Caucus, and I have some travel and 
tourism questions. You know, one concern of this caucus is that 
we have the worst entry process for an international citizen to 
navigate. We are the hardest country to enter.
    In fact, last January, the Sunday Times of London wrote a 
piece entitled, ``Travel to America; No Thanks'' encouraging 
Britains not to travel to the U.S. to avoid the spirit 
crushing, frosty reception.
    These negative perceptions have hurt our ability to attract 
overseas visitors and thereby, are having a negative impact on 
the California and the U.S. image abroad.
    I know that, following the 9/11 Commission's 
recommendations, Congress put money towards creating these 
model ports of entry; and we have appropriated $40 million to 
hire 200 new CBP officers at our airports.
    The program was to expand beyond the pilot of Washington 
Dulles/Houston International to the 20 top international 
inbound airports. Can you tell the committee which of the 20 
airports DHS has designated as model airports?
    Secretary Chertoff. I think it is a joint thing with the 
State Department. I will have to get back to you on what the 
next phase of this is with respect to the other airports.
    I do know that we have been pursuing the pilot in Houston 
and in Dulles. I know we have been hiring additional border 
inspectors to make sure we have better capability to deal with 
the flow.
    We have also talked about some other measures we might try 
to make the experience more pleasant, recognizing that we have 
actually seen, I think, a steady increase in the number of 
travelers. Sometimes these news articles in the foreign papers, 
you know, they have got their own motives for writing them. But 
I will get back to you.
    [The information follows:]

    Question. Please provide what the next phase for creating model 
ports of entry, particularly with respect of our airports.
    Response. The following 20 airports have been designated as Model 
Ports: Atlanta, Boston, Chicago (O'Hare), Dallas/Ft. Worth, Detroit, 
Ft. Lauderdale, Honolulu, Houston, Los Angeles, JFK, Las Vegas, Miami, 
Newark, Orlando, Philadelphia, San Francisco, San Juan, Sanford, 
Seattle and Washington-Dulles.
    Through our pilot Model Ports at Houston and Washington-Dulles, 
U.S. Customs and Border Protection (CBP) has implemented a number of 
measures to make the entry process more streamlined, user-friendly and 
understandable. Model Ports include improved signage and a new CBP 
video that contains practical information about the entry process 
including how to complete entry documents. It is broadcast to arriving 
travelers in English, French, German and Spanish. In addtion, CBP is 
researching additional languages to further accommodate international 
travelers. A new ``Welcome to the U.S.'' brochure has been published to 
further explain entry requirements for international visitors.
    CBP is working in partnership with airport authorities, airlines 
and the travel industry to identify wasy to more efficiently move 
people throught the entry process. This includes measuring customer 
satisfaction (surveys), wait times and processing times. CBP is 
updating its annual professionalism training, and is working on 
professionalism training for new CBP officers upon their return from 
the CBP Academy. In addition, CBP is developing Customer Service 
Standards for all CBP officers that cover areas including phone 
etiquette and greeting passengers. CBP has allocated funding for a 
recognition program to reward employees who demonstrate daily acts of 
professionalism. Passenger Service Managers (PSM), the public's single 
point of contact for passenger service issues, will be found at Model 
Ports beginning in the summer of 2008. PSMs were designated at the 20 
Model Ports in April 2008, and will be trained at the end of June 2008 
in Washington, DC.
    The Global Entry trusted traveler program will allow for expedited 
CBP clearance of preapproved low-risk air travelers and will be piloted 
at the John F. Kennedy International Airport, Houston-George Bush 
Intercontinental Airport and the Washington-Dulles International 
Airport in June 2008. CBP began accepting applications for the program 
on May 12, 2008, and began interviews at CBP's Trusted Traveler 
Programs Enrollment Centers on May 28, 2008.

    Mr. Farr. Well, we have a lot of dignitaries visiting us, 
and we have had comments from parliamentarians of other 
countries about how difficult it is to enter this country. So 
there are anecdotal stories heard here on the Hill quite often.
    Secretary Chertoff. I know it is a challenge. It is a mixed 
challenge. Some of it is the architecture of the airports 
themselves. There are things we can do. I have talked to the 
Commissioner about the need to make sure that people are being 
polite, and that we are fully manning the lanes when we have 
busy times.
    We are discussing some other things we might do to actually 
make the experience a little bit more tolerable. So we are 
definitely pursuing this, and I will get back to you on the 
additional airports.

                          VISA WAIVER PROGRAM

    Mr. Farr. The Visa Waiver Program, you have really worked 
with the State Department and others to get this program up and 
going again. Do you expect that the memorandum of understanding 
on the Visa Waiver Program will be signed next week with South 
Korea?
    Secretary Chertoff. I do not think we have a plan for South 
Korea next week. I know we signed a number of agreements with 
Eastern European countries. We are working with South Korea. I 
do not have a date when it is going to be signed.
    I should caution that under the statute, the signing of the 
agreement is an important step, but it does not complete the 
process. There are other things that have to happen.
    Mr. Farr. Yes, I understand. I have some questions about 
Chile, Brazil, and Taiwan, but I will wait for another round.
    Mr. Price. Thank you; Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Secretary, do you want to discuss some Presidential 
politics?
    Secretary Chertoff. Actually, no.

                       ADMINISTRATION TRANSITION

    Mr. Serrano. I am only kidding. But let us discuss 
Presidential transition. The department will undergo its first 
transition next January; and if there is a department that has 
to be able to have a smooth transition, it has to be your 
department.
    I am concerned especially about the political appointees 
who have knowledge in the great work that they do for the 
agency. Is the agency ready to deal with this, and have you 
entertained the possibility of once we know who the nominees 
are--Republicans know who the nominees are, but we are still 
trying to figure it out--you know, meeting with them; again, I 
repeat, if there is ever an agency that needs to keep the 
nominees up to date, even before the election.
    Secretary Chertoff. Absolutely; let me say that I fully 
agree with you. Starting back some months ago, we identified 
the issue of a smooth transition as a critical thing we had to 
do this year, because we are a new department and because 
experience shows, not in this country but in other countries, 
that sometimes people will try to exploit a transition in order 
to carry out an attack.
    So let me give you some idea of what we have done. We have 
built a succession plan that puts into place at every 
significant component an experienced career person to step in 
and take the acting leadership of the component, once the 
political appointees leave.
    That means that even as the new President is populating the 
Department with his or her folks, there will be somebody there, 
and there will be somebody there afterwards. Because we have 
generally tried to get the number two and number three spot in 
each of the components to be the career spot. We have tried to 
really increase the number of high level career spots.
    Secondly, we have tried to reduce to writing a lot of the 
doctrine and policy we have developed over time; and we have 
worked with the Council for Excellence in Government and the 
National Association of Public Administration to actually put 
together good transition plans.
    One of these I have said I would like to do, once we have 
candidates identified, is not only meet with them but encourage 
them with the Homeland Security people who are working with 
them, not only to become informed about what we are doing; but 
actually after the election to participate in a tabletop 
exercise.
    So hopefully the people who would have the responsibility 
on January 20th or 21st of next year would at least have seen, 
in a simulated way, what it is that they might be facing as 
early as the next day. So we have all of that underway in 
accordance with the plan, and I have my deputies personally 
supervising that.
    The last element of this which I will encourage the Senate 
to do--and I know the House cannot do much about it--is to act 
promptly on the next President's nominees. I was in office at 
the Department of Justice on 9/11. But there were not many of 
us who have been through the confirmation process. It certainly 
was not a good situation to be in. We should not be there 
again.
    Mr. Serrano. I thank you for that answer. It seems to me, 
from what I hear, that there is something in place, and 
something very good in place.
    You know, you wonder, at times, if during a transition, our 
enemies may think that we are not together; we are not in 
place, if you will.
    I often wonder why no one wrote about the fact that 
September 11th in New York was primary day. You know, one 
target was the Executive or Legislative Branch, which never 
took place. One target was the financial center. That was New 
York City. Then there was the Pentagon, the military target.
    Well, one thing that one wrote about was that they also 
disrupted on that day our electoral process. Because we had a 
serious election going on, and that was stopped about 11:00 
a.m., and then re-run two weeks later. Every police officer in 
New York was at the polls that day, as you know; not that that 
would have probably made a difference. But I am glad to hear 
that you have got things in place to deal with that; thank you.

                           DHS HUMAN CAPITAL

    Mr. Price. Thank you. Mr. Secretary, we will undertake a 
final round of questioning. I believe we have time to do that 
before a vote, which will be called a little after 1:00.
    I am going to pick up on Mr. Serrano's theme of transition 
in a couple of respects. First, with regard to political 
appointees and the practice that sometimes takes place, prior 
to changes in Presidential Administrations, where political 
appointees will burrow in, so to speak. In fact, there is a 
term called burrowing in or transitioning from an appointed 
person to a civil position within agencies.
    We understand that at least one former TSA political 
appointee has now been non-competitively appointed to a career 
position in DHS. That seems to be a clear case of burrowing in. 
I wonder if there are more cases like that, that you know of or 
can anticipate?
    Then more broadly speaking, I am aware you have signed an 
interchange agreement to ``facilitate the movement of TSA 
employees into competitive civil service positions.''
    Under this interchange agreement, a TSA employee who was 
not competitively selected can move into a civil service 
position at another Federal agency after one year, without 
being competitively selected for that position.
    So I wonder how many people might be involved in this kind 
of transition. From the data given to us by TSA, there are 
several thousand TSA employees who were not competitively 
hired. But they are eligible to be non-competitively selected 
for career slots at other Federal agencies.
    That, of course, is not desirable; or would not seem to be 
desirable. I doubt it is what you are aiming to achieve. So I 
wonder if you would consider, would you support a change in 
this policy to make it only apply to employees who began 
working at TSA after a competitive selection; or who were 
transferred from other Federal agencies to TSA, after having 
been competitively selected at their original agency?
    Secretary Chertoff. As you know, Mr. Chairman, the reason 
there was originally a lot of non-competitive hires is that as 
they were standing up, a lot of people went very quickly for 
TSA. Then there were transfers, because you would move to DHS.
    I would have to reflect on that, to be honest. I do not 
know what the numbers are or what the statistics are, what the 
composition is of those people who became non-competitively 
selected to TSA when it was first stood up. Many of them did 
come from other agencies, where they had originally been 
competitively selected. So I would have to look at that issue.
    On the issue of so-called burrowing, I do not know the 
particular individual you are talking about. There is no 
concerted policy to move people who are political appointees 
into career slots; nor am I aware of any great interest in 
those people doing that, and I have not heard a great 
expression of interest.
    What we have done is moving the career people into high 
ranking slots. As we have taken people who are long time career 
civil servants in the agency, and we have promoted them and 
moved them up, I think that is a positive thing to do.
    You know, our nominee for the Under Secretary for 
Management, who is currently Deputy Under Secretary Elaine 
Duke, I think, is a career civil servant with many, many years 
of experience.
    So we are committed to populating the leadership, you know, 
as appropriate, with career civil servants. On this particular 
issue of TSA, I will have to look at it.
    Mr. Price. Well, I think on the ``burrowing in'' question, 
I trust our disposition is clear; or at least my dispositions 
are clear.
    On the other question, I understand that TSA employees were 
hired under special circumstances. By the same token, this 
should not become a reason for bypassing competitive hiring or 
the normal civil service procedures.
    Secretary Chertoff. I would say one thing. In general, we 
do want to encourage people in DHS to have experience in 
multiple components. This is kind of the equivalent of what DOD 
now does under the Goldwater-Nichols Act.
    So on the one hand, I am going to want to make sure that we 
are continuing to make the career paths for people who are 
committed to being career employees; and not only a track path 
for them, but one that broadens their experience in the 
Department. So we achieve the kind of joint capabilities that 
we now have in DOD.
    Mr. Price. All right, well, we will look forward to your 
reflections on this, and your advice as to what ways this 
policy might be adjusted.

                         CRIMINAL ALIEN REMOVAL

    Let me finally ask you about a matter of some importance to 
this committee. It is something that I think, if it is done 
right, it can count as a major cooperative achievement.
    Our Appropriations bill last year provided $200 million for 
ICE to make sure that it was identifying and removing all 
criminal aliens held in penal custody in the United States and 
who are judged deportable.
    We also required ICE to submit a plan for how this money 
would be used. We got the first draft of that plan from ICE two 
weeks ago. Just yesterday, we received a revised plan 
addressing the concerns that we had had with the first draft. I 
am sure you are aware of this.
    We are pleased that ICE is working with us on this issue, 
since we believe it ought to be a priority for the agency to 
remove every deportable individual who has been convicted of a 
serious crime. Whatever other debates we might have about 
immigration policy, surely this we could agree on. We made a 
$200 million appropriation, a downpayment on doing this.
    Now there still are some questions, as I indicated in my 
opening statement, about where this ranks among your 
department's immigration enforcement priorities. Work site 
enforcement increased by 856 percent since 2003. But the 
removal of criminal aliens has increased by only 16 percent 
over the same period.
    So I wonder, first of all, if you share my concerns about 
criminal aliens avoiding deportation; and then I am interested, 
of course, in the implementation of the plan that we are 
discussing.
    The plan that DHS submitted spreads the $200 million over 
the next two years, with only $25 million used this year for IT 
investments mainly, and then $175 million in 2009 on actual 
removal efforts.
    Now the plan estimates it is going to cost upwards of $2 
billion to $3 billion annually to identify and remove every 
criminal alien. So it is not clear, on the face of it, why more 
funding has not been requested in 2009 to accelerate this 
initiative. The ICE plan estimates it will take three and-a-
half years to remove just the most violent criminal aliens in 
custody; those convicted of crimes like murder, rape, armed 
robbery, and aggravated assault--three and-a-half years.
    Do you really believe we should wait that long? How long is 
it going to take before the department can guarantee that every 
alien convicted of crimes and judged deportable is removed?
    Secretary Chertoff. Well, I think first just let me just 
put it in perspective. We appreciate the $200 million. We have 
requested in the budget over and above that in 2009, $189 
million. That would be additional, and that is about $10 
million more than was enacted in 2008 and about $50 million 
more than was enacted in 2007. So we are on the upswing.
    With respect to the CAP program, my statistics tell me that 
in fiscal year 2006, we removed 67,000 people. Last year, we 
removed 164,000 people. That is a huge increase.
    To date, and we are now, I guess, only about part way 
through the fiscal year, we are at 91,000 which is already more 
than all we did in 2006.
    The constraint here will be the following, and I think the 
plan makes it clear we want to prioritize: We will need to have 
an IT capability that networks us not only with the federal 
prisons and the state prisons, but with the county correctional 
institutions all over the country.
    As that capability gets built, and part of that will be the 
operational procedures that the individual states and 
localities put into effect to implement their side of this--as 
that gets built out, we will then have more and more people to 
deport, and that will result obviously in increased expenses.
    So I think that the idea is to scale this up, but to scale 
it up in a way that matches what we envision participation in 
the program to be as we roll it out, and as we engage more and 
more of the state and local correctional authorities in this 
process.
    Mr. Price. Well, we are talking here though about actual 
deportation.
    Secretary Chertoff. Right.
    Mr. Price. There is no question the IT piece is important. 
But your own plan estimates it is going to cost $2 billion to 
$3 billion to identify and remove these criminal aliens. The 
2009 money that we provided does not approach that.
    This three-and-a-half year timeframe for the most dangerous 
criminals seems fairly relaxed. So I just do not understand the 
absence of a request in 2009 to get going on this.
    Secretary Chertoff. I think our priority is, first of all, 
to start with the most dangerous criminals and work our way 
down to the least dangerous.
    The second reason: As I said, I think given the fact that 
we are almost halfway through or maybe actually halfway through 
this fiscal year, and given the money that already has been 
given to us by the appropriations, we have got no wait; plus, 
the money we are asking for, which is an increase, I think we 
are in good shape to get where we need to in an expanded 
fashion.
    If it should turn out in 2009 that we need more money, 
because we can do it more quickly, and some of this depends 
upon cooperation with our partners, then I am sure we can re-
visit this; because I think we all want to get to the same 
place.
    We are just trying to balance what we think is a reasonable 
drive path to getting there with all of the other things we are 
trying to accomplish.
    Mr. Price. Well, we will want to work with you as we write 
the bill. Mr. Rogers.

                          DHS 5TH ANNIVERSARY

    Mr. Rogers. Well, we took a break awhile ago to go vote on 
the Floor, and one of the things we voted on was to 
congratulate the department on its fifth anniversary. I am 
happy to tell you, it carried. It was a little bit like the 
Senator who was ill at home and was sent a get well card by his 
committee, and was informed that it carried eight to seven. 
[Laughter.]
    Secretary Chertoff. I hope we did a little better than 
that.

                            PROGRESS AT DHS

    Mr. Rogers. Well, you did. I think there were two or three 
dissenting votes. But I wanted to use that to close out my part 
of the questioning here, and give you a chance to tell us, to 
reflect a bit, philosophically, on your tenure, where you 
started and where you are, and where you hope to go before you 
leave here. How have you done so far, do you think?
    Secretary Chertoff. You know, I used the fifth anniversary 
as an opportunity to reflect on that a little bit, too. I think 
that, first of all, looking back in the three years I have had 
and then where the Department began under Tom Ridge, I am 
remarkably grateful to the people of the Department for the job 
they have done in a very short period of time, creating a much 
more mature department. I think you remember at the time you 
were Chairman, we could barely get responses in on reports and 
letters.
    Mr. Rogers. I remember that very well.
    Secretary Chertoff. I think that is really largely turned 
around. It is emblematic of the fact that we now have 
management tools, including metrics reporting and planning that 
are, I think, equal to that of most departments, and that is a 
very long distance in terms of our operations.
    I think it is not an accident that we have not had a 
successful attack in this country since 9/11. It is certainly 
not only DHS. A credit for that is shared, not only across the 
Federal Government, but with state government and with some of 
our foreign partners, as well.
    But it reflects that it is much tougher to get into our 
ports of entry now if you are using phony documents, because of 
the measures we have put in place. It is tougher to smuggle 
things in the ports, because of the measures we have put in 
place.
    We have planning and infrastructure protection now, which 
we only dreamed about having, some years back. We have got a 
degree of international cooperation on information sharing that 
was just a glimmer in our eye when I came on board three years 
ago.
    These are all, I think, really positive developments that 
give me the confidence that if we keep doing what we are doing 
and keep challenging ourselves, we will stay ahead of the 
enemy.

                           FUTURE CHALLENGES

    What are the things we need to continue to do? I think we 
need to continue to build standards for identity and 
identification documents at the border and for people who want 
to get on airplanes. We are on track to do that. But there are 
some people who think it is going to be inconvenient or bad for 
business. If those who want to stop making progress prevail, we 
will then find ourselves slipping backwards.
    I think we need to continue to work with FEMA, to 
particularly get them focused on the issue of emergency 
management. As I said a little bit earlier to Congressman 
Rodriguez, in terms of planning and capability for emergencies, 
FEMA is light years ahead of where I found it when I came on 
board shortly before Hurricane Katrina.
    But I will also tell you that the burdens that have been 
placed on the agency have expanded dramatically to include 
major reconstruction efforts, including efforts that may be 
years ultimately before they are concluded; efforts that 
require sophisticated case management; communities that are in 
distress, require a lot of medical attention, and require 
essentially urban redevelopment.
    I am taking the somewhat uncharacteristic position of a 
cabinet secretary in suggesting that some portion of the domain 
in my department maybe does belong in another department.
    This was an issue which Fran Townsend put in her White 
House lessons learned from Katrina; once the emergency was 
over, and once we have dealt with the urgency of action, in 
those rare occasions when we are re-constructing a city or re-
constructing part of a city, and we are talking about re-
developing housing, re-developing medical capabilities, and 
case management for people who have a whole lot of problems 
apart from the disaster.
    There may be other parts of the Government that are better 
equipped, through the capabilities of the people and the 
capabilities of the Department itself, to take a hand-off of 
that and continue to move it forward.
    I guess I would say the final issue was this. I know there 
are some people who believe that to talk about terrorism and to 
talk about the threats we face, which I think are just Al 
Qaeda; but they are Hezbollah. It is international organized 
crime. It is what is going on in South America with the FARC, 
and what Venezuela is doing to kind of enable the FARC.
    All of these things--I do not think talking about these 
things is fear mongering. I think the press reporting of what 
is going on in London, the trial that is revealing what 
occurred in August of 2006, is a very vivid recollection of 
what we are facing.
    That does not mean I suggest we need to be hysterical. I 
think that the country should have a calm and deliberate, but 
nevertheless serious, attitude about these threats. I know this 
committee takes that view.
    I think as long as we continue to be transparent about the 
threats we face, disciplined about using risk as a way of 
addressing those threats, I think we will be in a very good 
place over the next five years.
    But if we allow ourselves to get distracted, or allow 
ourselves to get exhausted by thinking about this, which I know 
the members of this committee will not do, then I think I would 
hate to see us in another five years, being in a place where 
there is another 9/11 Commission, and everybody says, why did 
the Government lose its focus after the terrible events of 9/11 
and everything that has happened in the world since then?
    So I appreciate your giving me the opportunity to kind of 
sum up, and once again, to really thank this subcommittee. I 
think the American public, if they knew not only just the 
public interchange, but the private interchange we have had on 
these issues, we would feel very good about the Government.
    We do not always agree. But I have never left a discussion 
or meeting without feeling that it has helped me understand 
better what I need to do, and I hope I have been able to convey 
the same to you.
    Mr. Rogers. Well, I thank you, Mr. Secretary, for that 
summary. That was enlightening.
    Reflecting back to actually before there was a department, 
when Tom Ridge was the White House Advisor to the President on 
Internal Security, and we were trying to debate about whether 
or not to create a new department and, if so, what would be in 
it, or would it be better to do some other way to get at 
homeland security; those discussions from that point on until 
this moment were dealing with things we had never done before 
as a nation. We have never had to protect our bridges and 
tunnels and nuclear power plants and cyberspace and so forth, 
because there was no threat to us. Yet, now we find all of 
those things threatened, plus a lot more.
    So you have been a pioneer. You have occupied that chair at 
the department much longer than anyone else has, and you have 
brought it a long way. It has been a really tough chore. We 
understand that; 22 agencies that had to be uprooted from their 
former location and thrown together under one umbrella, and get 
along and organize and be a machine.
    That has been an extremely struggle. You have got 204,000 
or so employees now. But you have had to plow new ground and do 
things that we had never done before, and put some sort of 
policy behind that and make it work. This subcommittee has been 
having to do the same thing. We were plowing new ground up 
here, as well, trying to run things.
    So I want to congratulate you on the department's five 
years of life, and your third year, more or less, as the head 
of that agency; and say that we have disagreed many times along 
the way. We have agreed most of the time along the way. But I 
do think that the department is functioning a heck of a lot 
more smoothly than it was a year or two ago, when we were 
hammering you for reports and threatening you with everything, 
almost to the day.
    So congratulations on bringing us this far, and I want to 
wish you good luck for the remainder of your tenure and your 
life.
    Secretary Chertoff. And I appreciate the privilege of 
working with you. I know we will continue to work together 
informally, and I look forward to continuing to see you.
    Mr. Price. Thank you, Mr. Rogers, for that statement, and 
you, too, Mr. Secretary. Mr. Farr.

                          U.S.-VISIT EXIT RULE

    Mr. Farr. Thank you, Mr. Chairman.
    Congress mandated that by June 30th, 2009, the Department 
of Homeland Security would collect departure information on all 
international visitors, using a biometrics program.
    U.S. Visit announced several months ago that it intends to 
issue a proposed rule outlining its plan to collect the 
biometric exit information, but no such rule has been published 
in the Federal Register. Could you find out when they are going 
to do that?
    Secretary Chertoff. I will be happy to answer that. This is 
going to come out very shortly. I want to be very clear. We are 
very strongly committed to getting this done, and it can be 
done as of 2009. But I am going to make a prediction to you. 
The airlines will go ballistic over this. I am sure you felt it 
on Capitol Hill. They have been very vocal in opposing this 
biometric exit rule.
    [The information follows:]

    The Department of Homeland Security (DHS) is establishing biometric 
exit procedures under which most non-U.S. citizens who currently 
provide biometrics upon entering the United States will also provide 
digital fingerscans before leaving the United States by air or sea.
    On April 24, 2008, DHS took a significant step toward 
implementation of biometric exit procedures by publishing a notice of 
proposed rulemaking in the Federal Register. This began a 60-day public 
comment period. DHS welcomes feedback on this proposed regulation so 
that formal comments can be considered in the rulemaking process.
    Following the public comment period and a comprehensive review, DHS 
will publish a final rule outlining the new requirements and the date 
on which they will take effect.

    Mr. Farr. Opposing any effort to force them to collecting 
the data?
    Secretary Chertoff. Well, it is not only that. But they 
oppose it because they feel that anything that slows the flow 
of people in the airport, like by making them spend five 
seconds putting their fingerprint on a machine, is bad for 
their business.
    This is going to be an area where I am going to argue 
vigorously that while we may be prepared to entertain different 
models for achieving this, I do not think we should compromise 
on the end result. We have the capability under current 
technology to capture the biometric fingerprint of everybody 
who leaves through an airport. If we have the willpower to do 
it, it will get done, and I am committed to doing that.
    Mr. Farr. Okay, as long as everything works. It is when it 
does not work that----
    Secretary Chertoff. I can tell you it works coming in, 
because U.S. entry works terrifically. So this is an area where 
it has proven itself and I do not think we have to speculate. I 
am committed to moving it forward. The rule will come out very 
soon.

                     TRAINING FOR FIRST RESPONDERS

    Mr. Farr. I want to follow up on what Mr. Rogers was 
asking, and also what Ms. Kilpatrick indicated. I am very 
pleased with the work you have done with the Naval Postgraduate 
School in setting up a Master's degree program in Homeland 
Security for the nation.
    I represent Santa Cruz and Monterey Counties. We have had 
seven or eight Presidentially-declared natural disasters. So 
all the issues and all the discussion is all about first 
responders.
    The reports to this committee last year was that first 
responders are first responders, whether it is to a natural 
disaster or to a terrorist disaster; and that you really have 
to have the local infrastructure so that first responders are 
well trained.
    So much of the discussion about Homeland Security has just 
been about almost 100 percent focused on terrorism, and so 
little discussion or dialogue about really what, as Ms. 
Kilpatrick points out, are threats to hometown security.

                             GANG VIOLENCE

    One of the issues that I think ought to be included in your 
department is gang violence. In some areas, it is increasing at 
a staggering rate. In many instances, it is transnational gangs 
involved in drugs, smuggling, and so on. This is a significant 
Hometown Security threat.

                        OPERATIONAL COORDINATION

    Stanford University Center for International Security and 
Cooperation released an in depth report indicating that within 
your office, you disbanded the operational integration staff 
that once existed. Sort of as the Joint Staff helps provide 
integration among the military services in DoD, an equivalent 
organization, modified to meet the unique challenges of DHS 
could be equally valuable for providing centralized guidance on 
strategic priorities, planning, and operational development 
across the DHS agencies. Do you have any views on that 
recommendation?
    Secretary Chertoff. Yes, I strongly support and we are 
implementing the idea of having an increased and enhanced 
operations coordinations staff. With the military, we call it 
J-3 and J-5 combined.
    This is something that is not only useful in our own 
department for joint planning, but useful at the federal level 
on an inter-agency basis for joint operations.
    We used exactly this during the wildfires last year in 
California to help us integrate with the Interior Department, 
the Agriculture Department, which had the fire fighting assets; 
and then FEMA, which had the response assets.
    Mr. Farr. But so much of that also is driven by the 
capability of on-ground. You could not find a better first 
responders than the California rural wildland fire responders.
    Secretary Chertoff. Correct.
    Mr. Farr. I mean they are the experts.
    Secretary Chertoff. They are outstanding. So it was a happy 
marriage between federal coordination and a well coordinated 
state response.
    Where this has to go is, not only do we have to therefore 
continue to build our plans, we have a series of plans at the 
federal level for kind of the 15 major types of catastrophes 
including, I fully agree, natural disasters and not just 
terrorism. But we have got to continue to work with the states 
so that their plans are integrated with ours.
    California happens to be kind of at the leading edge of 
doing that kind of work with us. Florida is very good, as well. 
New York is very good. There are other states that we need to 
help a little bit more.
    But I think I totally agree with that vision. In addition 
to which, I completely agree and I am going to try to make the 
point this year publicly that while terrorism is our number one 
focus, it is not our only focus. We are an all-hazards agency, 
and we need to be able to look beyond just the threat of the 
moment to the threat of the next year or the next decade and 
even the next century.
    That includes trans-national organized crime gangs. I mean, 
we are not police, but part of our border strategy and our 
outreach has to be to focus on MS-13. You know, these gangs are 
criminal now. But if you look at the FARC, it is easy to see 
how they could migrate into becoming more than criminal. They 
could become ideological.
    That is why I think it is exactly right that we be looking, 
you know, obviously at this year, but really five years out. I 
think that things you have highlighted are just dead right in 
terms of where we have to be headed.
    Mr. Farr. I hope you will continue to support or sustain 
those investments you have made in the educational studies that 
created the California Homeland Security Consortium.
    Secretary Chertoff. We will. I think that is very 
important, building a framework for what we are doing.
    Mr. Farr. Thank you; thank you, Mr. Chairman.
    Mr. Price. Thank you, Mr. Farr. Mr. Serrano.

                         VENEZUELA AND THE FARC

    Mr. Serrano. Thank you; I would just like to make a 
statement, based on a comment you made. But first, let me tell 
you that I join the other members in thanking you for your 
service.
    I am not saying goodbye to you, because we do not know who 
is going to be President, and that person may ask you to stay 
on. Both parties have candidates running who say they are 
bipartisan in nature, and no one has ever asked you if you are 
a Democrat or a Republican. That is not important to me.
    I sat on the committee for many years since its inception 
and saw you answer some tough questions. We have not always 
disagreed, but I have a lot of respect for your service and for 
the great work you have done in most of the areas which we 
agreed on. It was only that immigration part that was given to 
your agency that we had problems with. I do not know why they 
gave it to you. But sometimes I think it is better now than 
when it was by itself.
    But you did make a comment that I think, just for the 
general debate and for information, it reminds me of something. 
When Madeleine Albright was Secretary of State, Mr. Rogers was 
my Chairman and I was Ranking Member, on the last day, she 
still did not tell me that there was anything wrong with our 
Cuba policy. The next day that she left the State Department, 
the first statement that she made was that our Cuba policy was 
all wrong.
    You said what Venezuela is doing with the FARC. I have an 
advantage over some folks, and that is that I buy a cable 
package in New York that allows me to see stations in Latin 
America in real time. They are not state-owned stations. For 
the most part, these are stations that attack Bolivia and Korea 
and Morales and Chavez and so on.
    But they also tell me how they feel about us. Their sense 
was that Chavez was negotiating with the FARC as only he could 
have, to a point where some folks in this country and a lot of 
folks in Miami, anti-Castro folks in Miami were nervous that he 
might run away with the Nobel Peace Prize.
    So Areva put a stop to those negotiations where the FARC 
was considering releasing all the hostages and becoming a 
political party. Somebody had to screw that party up.
    I think if we continue to demonize people that are elected 
to public office that we do not like, it is not going to make 
our situation better.
    Now I will make probably the wildest statement of it all. 
If we continue to make political life miserable for leaders in 
Latin America and we, in fact, accomplish disrupting their 
governments, the panic in those countries would only mean 
people fleeing north. If you think you have an immigration 
issue today, just think of what happens if Bolivia, Ecuador, 
Venezuela, Brazil, and others where we do not like the 
leadership, run into turmoil.
    So I am not here promoting Mr. Chavez or Mr. Morales. But 
they are not accidents of history, Mr. Secretary. They are the 
result of a couple hundred years of suffering by a lot of 
people.
    That is why, on the other hand, Secretary Powell, on his 
last day before our committee, he told both Mr. Rogers and I, 
this country has to get used to one thing; that in Latin 
America, people are electing more people who look like 
themselves. In the process, they come with an agenda that may 
sound anti-American. But it is pro-native people and people of 
color. Thank you for your service.
    Secretary Chertoff. Well, thank you, I appreciate that. I 
guess the only thing I will say on the comment I made is, there 
is a New York Times piece that ran in the last couple of weeks 
that laid out some of those issues of the relationship between 
Chavez and the FARC. The Times article speaks for itself.

                   U.S. RELATIONS WITH LATIN AMERICA

    I do agree with you about one thing. I have tried to do 
this, and we have talked about it a little bit with Mexico. 
Many people think that our focus in this department is only on 
the Middle East and what is going on in South Asia. We have an 
equal focus with what is going on in Latin America. That is not 
because we want everybody in Latin America to agree with 
whatever the United States does. That is not realistic for a 
whole lot of reasons.
    But a healthy Latin America is good for the United States. 
Because among other things, it is the best incentive for people 
not to come in illegally. What is very important is that we be 
engaged with Latin America in a constructive way.
    You know, our closest obvious neighbor in this respect is 
Mexico. But we are also working with Central American countries 
to try to help them, for example, with their governance. I 
mean, they face MS-13, as well. In a small country, MS-13 is a 
much more powerful problem than it is in a big country.
    So I look forward to continuing to work during my time here 
on a strategy for strengthening the rule of law of Latin 
America, strengthening the economics of Latin America, 
strengthening our friends in Latin America and, you know, 
accepting disagreement, as long as that disagreement does not 
turn into some kind of effort to actually injure Americans.
    Mr. Serrano. I understand; and very briefly, Mr. Chairman, 
in finishing up, a healthy Latin America is one where my 
country, this country, has to understand that if you elect 
people who have never been elected before, coming from 
communities that have never been elected before, you have to 
understand that their rhetoric, their approach, is going to be 
different.
    Hugo Chavez did not have a pair of shoes until he was 13 
years old. He has dark skin and curly hair. That is not the 
kind of leader they used to elect in Venezuela. He comes with 
an agenda that is more dramatic.
    Morales is the first Indian elected in a country that is 
90-something percent Indian. His agenda cannot be the same as 
in the past.
    We need to understand that; and our bottom line should be, 
you got elected. You did not take over by power. You got 
elected. Let me talk to you before I try to overthrow you.
    Mr. Price. With that, we will conclude, again with our 
thanks, Mr. Secretary. The subcommittee is adjourned.

[GRAPHIC] [TIFF OMITTED] T3385A.285

[GRAPHIC] [TIFF OMITTED] T3385A.286

[GRAPHIC] [TIFF OMITTED] T3385A.287

[GRAPHIC] [TIFF OMITTED] T3385A.288

[GRAPHIC] [TIFF OMITTED] T3385A.289

[GRAPHIC] [TIFF OMITTED] T3385A.290

[GRAPHIC] [TIFF OMITTED] T3385A.291

[GRAPHIC] [TIFF OMITTED] T3385A.292

[GRAPHIC] [TIFF OMITTED] T3385A.293

[GRAPHIC] [TIFF OMITTED] T3385A.294

[GRAPHIC] [TIFF OMITTED] T3385A.295

[GRAPHIC] [TIFF OMITTED] T3385A.296

[GRAPHIC] [TIFF OMITTED] T3385A.297

[GRAPHIC] [TIFF OMITTED] T3385A.298

[GRAPHIC] [TIFF OMITTED] T3385A.299

[GRAPHIC] [TIFF OMITTED] T3385A.300

[GRAPHIC] [TIFF OMITTED] T3385A.301

[GRAPHIC] [TIFF OMITTED] T3385A.302

[GRAPHIC] [TIFF OMITTED] T3385A.303

[GRAPHIC] [TIFF OMITTED] T3385A.304

[GRAPHIC] [TIFF OMITTED] T3385A.305

[GRAPHIC] [TIFF OMITTED] T3385A.306

[GRAPHIC] [TIFF OMITTED] T3385A.307

[GRAPHIC] [TIFF OMITTED] T3385A.308

[GRAPHIC] [TIFF OMITTED] T3385A.309

[GRAPHIC] [TIFF OMITTED] T3385A.310

[GRAPHIC] [TIFF OMITTED] T3385A.311

[GRAPHIC] [TIFF OMITTED] T3385A.312

[GRAPHIC] [TIFF OMITTED] T3385A.313

[GRAPHIC] [TIFF OMITTED] T3385A.314

[GRAPHIC] [TIFF OMITTED] T3385A.315

[GRAPHIC] [TIFF OMITTED] T3385A.316

[GRAPHIC] [TIFF OMITTED] T3385A.317

[GRAPHIC] [TIFF OMITTED] T3385A.318

[GRAPHIC] [TIFF OMITTED] T3385A.319

[GRAPHIC] [TIFF OMITTED] T3385A.320

[GRAPHIC] [TIFF OMITTED] T3385A.321

[GRAPHIC] [TIFF OMITTED] T3385A.322

[GRAPHIC] [TIFF OMITTED] T3385A.323

[GRAPHIC] [TIFF OMITTED] T3385A.324

[GRAPHIC] [TIFF OMITTED] T3385A.325

[GRAPHIC] [TIFF OMITTED] T3385A.326

[GRAPHIC] [TIFF OMITTED] T3385A.327

[GRAPHIC] [TIFF OMITTED] T3385A.328

[GRAPHIC] [TIFF OMITTED] T3385A.329

[GRAPHIC] [TIFF OMITTED] T3385A.330

[GRAPHIC] [TIFF OMITTED] T3385A.331

[GRAPHIC] [TIFF OMITTED] T3385A.332

[GRAPHIC] [TIFF OMITTED] T3385A.333

[GRAPHIC] [TIFF OMITTED] T3385A.334

[GRAPHIC] [TIFF OMITTED] T3385A.335

[GRAPHIC] [TIFF OMITTED] T3385A.336

[GRAPHIC] [TIFF OMITTED] T3385A.337

[GRAPHIC] [TIFF OMITTED] T3385A.338

[GRAPHIC] [TIFF OMITTED] T3385A.339

[GRAPHIC] [TIFF OMITTED] T3385A.340

[GRAPHIC] [TIFF OMITTED] T3385A.341

[GRAPHIC] [TIFF OMITTED] T3385A.342

[GRAPHIC] [TIFF OMITTED] T3385A.343

[GRAPHIC] [TIFF OMITTED] T3385A.344

[GRAPHIC] [TIFF OMITTED] T3385A.345

[GRAPHIC] [TIFF OMITTED] T3385A.346

[GRAPHIC] [TIFF OMITTED] T3385A.347

[GRAPHIC] [TIFF OMITTED] T3385A.348

[GRAPHIC] [TIFF OMITTED] T3385A.349

[GRAPHIC] [TIFF OMITTED] T3385A.350

[GRAPHIC] [TIFF OMITTED] T3385A.351

[GRAPHIC] [TIFF OMITTED] T3385A.352

[GRAPHIC] [TIFF OMITTED] T3385A.353

[GRAPHIC] [TIFF OMITTED] T3385A.354

[GRAPHIC] [TIFF OMITTED] T3385A.355

[GRAPHIC] [TIFF OMITTED] T3385A.356

[GRAPHIC] [TIFF OMITTED] T3385A.357

[GRAPHIC] [TIFF OMITTED] T3385A.358

[GRAPHIC] [TIFF OMITTED] T3385A.359

[GRAPHIC] [TIFF OMITTED] T3385A.360

[GRAPHIC] [TIFF OMITTED] T3385A.361

[GRAPHIC] [TIFF OMITTED] T3385A.362

[GRAPHIC] [TIFF OMITTED] T3385A.363

[GRAPHIC] [TIFF OMITTED] T3385A.364

[GRAPHIC] [TIFF OMITTED] T3385A.365

[GRAPHIC] [TIFF OMITTED] T3385A.366

[GRAPHIC] [TIFF OMITTED] T3385A.367

[GRAPHIC] [TIFF OMITTED] T3385A.368

[GRAPHIC] [TIFF OMITTED] T3385A.369

[GRAPHIC] [TIFF OMITTED] T3385A.370

[GRAPHIC] [TIFF OMITTED] T3385A.371

[GRAPHIC] [TIFF OMITTED] T3385A.372

[GRAPHIC] [TIFF OMITTED] T3385A.373

[GRAPHIC] [TIFF OMITTED] T3385A.374

[GRAPHIC] [TIFF OMITTED] T3385A.375

[GRAPHIC] [TIFF OMITTED] T3385A.376

[GRAPHIC] [TIFF OMITTED] T3385A.377

[GRAPHIC] [TIFF OMITTED] T3385A.378

[GRAPHIC] [TIFF OMITTED] T3385A.379

[GRAPHIC] [TIFF OMITTED] T3385A.380

[GRAPHIC] [TIFF OMITTED] T3385A.381

[GRAPHIC] [TIFF OMITTED] T3385A.382

[GRAPHIC] [TIFF OMITTED] T3385A.383

[GRAPHIC] [TIFF OMITTED] T3385A.384

[GRAPHIC] [TIFF OMITTED] T3385A.385

[GRAPHIC] [TIFF OMITTED] T3385A.386

[GRAPHIC] [TIFF OMITTED] T3385A.387

[GRAPHIC] [TIFF OMITTED] T3385A.388

[GRAPHIC] [TIFF OMITTED] T3385A.389

[GRAPHIC] [TIFF OMITTED] T3385A.390

[GRAPHIC] [TIFF OMITTED] T3385A.391

[GRAPHIC] [TIFF OMITTED] T3385A.392

[GRAPHIC] [TIFF OMITTED] T3385A.393

[GRAPHIC] [TIFF OMITTED] T3385A.394

[GRAPHIC] [TIFF OMITTED] T3385A.395

[GRAPHIC] [TIFF OMITTED] T3385A.396

[GRAPHIC] [TIFF OMITTED] T3385A.397

[GRAPHIC] [TIFF OMITTED] T3385A.398

[GRAPHIC] [TIFF OMITTED] T3385A.399

[GRAPHIC] [TIFF OMITTED] T3385A.400

[GRAPHIC] [TIFF OMITTED] T3385A.401

[GRAPHIC] [TIFF OMITTED] T3385A.402

[GRAPHIC] [TIFF OMITTED] T3385A.403

[GRAPHIC] [TIFF OMITTED] T3385A.404

[GRAPHIC] [TIFF OMITTED] T3385A.405

[GRAPHIC] [TIFF OMITTED] T3385A.406

[GRAPHIC] [TIFF OMITTED] T3385A.407

[GRAPHIC] [TIFF OMITTED] T3385A.408

[GRAPHIC] [TIFF OMITTED] T3385A.409

[GRAPHIC] [TIFF OMITTED] T3385A.410

[GRAPHIC] [TIFF OMITTED] T3385A.411

[GRAPHIC] [TIFF OMITTED] T3385A.412

[GRAPHIC] [TIFF OMITTED] T3385A.413

[GRAPHIC] [TIFF OMITTED] T3385A.414

[GRAPHIC] [TIFF OMITTED] T3385A.415

[GRAPHIC] [TIFF OMITTED] T3385A.416

[GRAPHIC] [TIFF OMITTED] T3385A.417

[GRAPHIC] [TIFF OMITTED] T3385A.418

[GRAPHIC] [TIFF OMITTED] T3385A.419

[GRAPHIC] [TIFF OMITTED] T3385A.420

[GRAPHIC] [TIFF OMITTED] T3385A.421

[GRAPHIC] [TIFF OMITTED] T3385A.422

[GRAPHIC] [TIFF OMITTED] T3385A.423

[GRAPHIC] [TIFF OMITTED] T3385A.424

[GRAPHIC] [TIFF OMITTED] T3385A.425

[GRAPHIC] [TIFF OMITTED] T3385A.426

[GRAPHIC] [TIFF OMITTED] T3385A.427

[GRAPHIC] [TIFF OMITTED] T3385A.428

[GRAPHIC] [TIFF OMITTED] T3385A.429

[GRAPHIC] [TIFF OMITTED] T3385A.430

[GRAPHIC] [TIFF OMITTED] T3385A.431

[GRAPHIC] [TIFF OMITTED] T3385A.432

[GRAPHIC] [TIFF OMITTED] T3385A.433

[GRAPHIC] [TIFF OMITTED] T3385A.434

[GRAPHIC] [TIFF OMITTED] T3385A.435

[GRAPHIC] [TIFF OMITTED] T3385A.436

[GRAPHIC] [TIFF OMITTED] T3385A.437

[GRAPHIC] [TIFF OMITTED] T3385A.438

[GRAPHIC] [TIFF OMITTED] T3385A.439

[GRAPHIC] [TIFF OMITTED] T3385A.440

[GRAPHIC] [TIFF OMITTED] T3385A.441

[GRAPHIC] [TIFF OMITTED] T3385A.442

[GRAPHIC] [TIFF OMITTED] T3385A.443

[GRAPHIC] [TIFF OMITTED] T3385A.444

[GRAPHIC] [TIFF OMITTED] T3385A.445

[GRAPHIC] [TIFF OMITTED] T3385A.446

[GRAPHIC] [TIFF OMITTED] T3385A.447

[GRAPHIC] [TIFF OMITTED] T3385A.448

[GRAPHIC] [TIFF OMITTED] T3385A.449

[GRAPHIC] [TIFF OMITTED] T3385A.450

[GRAPHIC] [TIFF OMITTED] T3385A.451

[GRAPHIC] [TIFF OMITTED] T3385A.452

[GRAPHIC] [TIFF OMITTED] T3385A.453

[GRAPHIC] [TIFF OMITTED] T3385A.454

[GRAPHIC] [TIFF OMITTED] T3385A.455

[GRAPHIC] [TIFF OMITTED] T3385A.456

[GRAPHIC] [TIFF OMITTED] T3385A.457

[GRAPHIC] [TIFF OMITTED] T3385A.458

[GRAPHIC] [TIFF OMITTED] T3385A.459

[GRAPHIC] [TIFF OMITTED] T3385A.460

[GRAPHIC] [TIFF OMITTED] T3385A.461

[GRAPHIC] [TIFF OMITTED] T3385A.462

[GRAPHIC] [TIFF OMITTED] T3385A.463

[GRAPHIC] [TIFF OMITTED] T3385A.464

[GRAPHIC] [TIFF OMITTED] T3385A.465

[GRAPHIC] [TIFF OMITTED] T3385A.466

[GRAPHIC] [TIFF OMITTED] T3385A.467

[GRAPHIC] [TIFF OMITTED] T3385A.468

[GRAPHIC] [TIFF OMITTED] T3385A.469

[GRAPHIC] [TIFF OMITTED] T3385A.470

[GRAPHIC] [TIFF OMITTED] T3385A.471

[GRAPHIC] [TIFF OMITTED] T3385A.472

[GRAPHIC] [TIFF OMITTED] T3385A.473

[GRAPHIC] [TIFF OMITTED] T3385A.474

[GRAPHIC] [TIFF OMITTED] T3385A.475

[GRAPHIC] [TIFF OMITTED] T3385A.476

[GRAPHIC] [TIFF OMITTED] T3385A.477

[GRAPHIC] [TIFF OMITTED] T3385A.478

[GRAPHIC] [TIFF OMITTED] T3385A.479

[GRAPHIC] [TIFF OMITTED] T3385A.480

[GRAPHIC] [TIFF OMITTED] T3385A.481

[GRAPHIC] [TIFF OMITTED] T3385A.482

[GRAPHIC] [TIFF OMITTED] T3385A.483

[GRAPHIC] [TIFF OMITTED] T3385A.484

[GRAPHIC] [TIFF OMITTED] T3385A.485

[GRAPHIC] [TIFF OMITTED] T3385A.486

[GRAPHIC] [TIFF OMITTED] T3385A.487

[GRAPHIC] [TIFF OMITTED] T3385A.488

[GRAPHIC] [TIFF OMITTED] T3385A.489

[GRAPHIC] [TIFF OMITTED] T3385A.490

[GRAPHIC] [TIFF OMITTED] T3385A.491

[GRAPHIC] [TIFF OMITTED] T3385A.492

[GRAPHIC] [TIFF OMITTED] T3385A.493

[GRAPHIC] [TIFF OMITTED] T3385A.494

[GRAPHIC] [TIFF OMITTED] T3385A.495

[GRAPHIC] [TIFF OMITTED] T3385A.496

[GRAPHIC] [TIFF OMITTED] T3385A.497

[GRAPHIC] [TIFF OMITTED] T3385A.498

[GRAPHIC] [TIFF OMITTED] T3385A.499

[GRAPHIC] [TIFF OMITTED] T3385A.500

[GRAPHIC] [TIFF OMITTED] T3385A.501

[GRAPHIC] [TIFF OMITTED] T3385A.502

[GRAPHIC] [TIFF OMITTED] T3385A.503

[GRAPHIC] [TIFF OMITTED] T3385A.504

[GRAPHIC] [TIFF OMITTED] T3385A.505

[GRAPHIC] [TIFF OMITTED] T3385A.506

[GRAPHIC] [TIFF OMITTED] T3385A.507

[GRAPHIC] [TIFF OMITTED] T3385A.508

[GRAPHIC] [TIFF OMITTED] T3385A.509

[GRAPHIC] [TIFF OMITTED] T3385A.510

[GRAPHIC] [TIFF OMITTED] T3385A.511

[GRAPHIC] [TIFF OMITTED] T3385A.512

[GRAPHIC] [TIFF OMITTED] T3385A.513

[GRAPHIC] [TIFF OMITTED] T3385A.514

[GRAPHIC] [TIFF OMITTED] T3385A.515

[GRAPHIC] [TIFF OMITTED] T3385A.516

[GRAPHIC] [TIFF OMITTED] T3385A.517

[GRAPHIC] [TIFF OMITTED] T3385A.518

[GRAPHIC] [TIFF OMITTED] T3385A.519

[GRAPHIC] [TIFF OMITTED] T3385A.520

[GRAPHIC] [TIFF OMITTED] T3385A.521



                           W I T N E S S E S

                                                                   Page
Chertoff, Hon. Michael...........................................   367
Cotten, Catheryn.................................................     1
Gonzalez, E.T....................................................   267
Myers, J.L.......................................................     1
Rosado, Tim......................................................   267
Scharfen, Jonathan ``Jock''......................................   267


                               I N D E X


IMMIGRATION ENFORCEMENT: IDENTIFICATION AND REMOVAL OF CRIMINAL ALIENS, 
           STUDENT AND EXCHANGE VISITOR PROGRAM FEE INCREASES

                                                                   Page
Opening Statement of Chairman Price..............................     1
Opening Statement of Ranking Member Rogers.......................     3
Statement of Ms. Catheryn Cotton, Director, International Office, 
  Duke University................................................     5
Balancing Security and Student Needs.............................    22
Anticipated Benefits of Increased Fees...........................    23
Integrity of Student Visa Process................................    24
Anticipated Benefits of SEVIS II.................................    25
Estimates of Student Populations.................................    26
Security Reviews in the Student Visa Process.....................    30
Trends in Foreign Student Enrollment.............................    31
Post-Education Opportunities for Foreign Students................    32
Purpose of SEVIS Fee Increase....................................    32
Competition for International Students...........................    33
SEVIS Training for Academic Administrators.......................    34
Introduction of Ms. Julie Myers, Assistant Secretary, U.S. 
  Immigration and Customs Enforcement............................    36
Opening Statement of Ms. Myers...................................    36
ID Tracking of Criminal Aliens...................................    60
ICE Strategy Report Requirement..................................    60
Prioritizing Incarcerated Criminal Aliens........................    62
2009 Funding Levels for Criminal Aliens..........................    63
Relationships between ICE and State Correctional Agencies........    64
Biometric Identification of Criminal Aliens......................    64
Apprehension of At-Large Fugitives...............................    65
2009 Budget for Bed Space........................................    65
Conditions at Detention Facilities...............................    66
Fines Levied Against Employers of Illegal Aliens.................    66
Operation Streamline.............................................    67
Visa Issuing Authority...........................................    67
Operation Streamline.............................................    69
ICE Agent--Houston Jail..........................................    71
Criminal Alien Program......................................72, 88, 208
Enforcement Priorities and Alien County of Origin................    74
Victor Arellano's Death..........................................    75
Unaccompanied Children...........................................    77
Student Exchange Visitor Program................................77, 236
Federal Protective Service.......................................    79
287(g) Program..............................................80, 82, 215
Hutto Family Detention Facility..................................    80
Cyber Security...................................................    81
Luis Posada Corilles.............................................    84
Questions for the Record Submitted by Chairman Price.............    92
    Management...................................................    92
    Contracts....................................................   101
    Detention....................................................   194
    Child and Family Detention...................................   205
    Alternatives to Detention....................................   206
    Legal Orientation Program....................................   208
    Criminal Alien Program.......................................   208
    Fugitive Operations Teams....................................   210
    Worksite Enforcement.........................................   213
    State and Local Assistance/287(g) Program....................   215
    ICE Investigations...........................................   218
    Visa Waiver Program Enforcement..............................   223
    Visa Security Units..........................................   224
    Federal Protective Service...................................   224
    Construction.................................................   230
    Student and Exchange Visitor Program.........................   236
Questions for the Record Submitted by the Honorable Nita Lowey...   240
Questions for the Record Submitted by the Honorable Lucille 
  Roybal-Allard..................................................   242
    Culture of Insensitivity.....................................   242
    Training of those Charged with Detainee Medical Care.........   245
    Oversight of those Charged with Detainee Medical Care........   248
    Training of those Charged with Minor Detainees...............   249
    Oversight of those Charged with Minor Detainees..............   251
Questions for the Record Submitted by the Honorable Sam Farr.....   252
    Jail Checks..................................................   252
    Sweeps.......................................................   254
    Gangs........................................................   255
    Workplace Raids..............................................   256
    Detention Facilities.........................................   257
    Database.....................................................   258
Questions for the Record Submitted by Ranking Member Rogers......   261
    Detention and Removal Operations.............................   261
    Worksite Enforcement.........................................   264

  CITIZENSHIP AND IMMIGRATION SERVICES: LEGAL IMMIGRATION AND REFUGEE 
                               PROCESSING

Opening Statement of Chairman Price..............................   267
Opening Statement of Ranking Member Rogers.......................   268
Statement of Mr. Emilio Gonzalez, Director, U.S. Citizenship and 
  Immigration Services...........................................   269
Iraqi Refugees...................................................   278
Iraqi Refugees--Circuit Ride Model...............................   278
Material Support Restriction.....................................   279
Special Visas for Iraqis Employed by the U.S.....................   280
FBI and CIS Background Checks--Application Backlog...............   285
Immigration Application Backlog................................288, 289
Application Filing Surge.........................................   288
Material Support Cases...........................................   289
Security of CIS Processes........................................   290
Name Checks......................................................   293
Section 543 of Current Year Bill.................................   293
Naturalization Process...........................................   295
Application Backlog..............................................   296
Lessons Learned from Earlier Backlogs............................   297
Manpower Needs...................................................   297
Transformation Program...........................................   299
e-Verify.......................................................300, 304
Security.........................................................   302
Green Card Process...............................................   303
Payments from CIS to Social Security.............................   306
e-Verify System Investments......................................   307
Employers Served by E-Verify.....................................   308
e-Verify Mismatch Rates..........................................   309
e-Verify Spend Plan..............................................   309
Questions for the Record Submitted by Chairman Price.............   311
    Management...................................................   311
    Contracts....................................................   328
    Backlog Processing...........................................   331
    FBI Name Check Backlog.......................................   333
    e-Verify/Basic Pilot.........................................   334
    Refugees/Material Support....................................   336
    Adoption Processing..........................................   338
Questions for the Record Submitted by the Honorable Lucille 
  Roybal-Allard..................................................   341
    Process for Referring Cases to USCIS.........................   341
    Motions to Reopen Immigration Cases..........................   341
    FBI Name Check Backlog.......................................   343
Questions for the Record Submitted by the Honorable Sam Farr.....   358
    Swearing-In Ceremonies.......................................   358
    e-Verify.....................................................   359
    Backlog......................................................   361
Questions for the Record Submitted by the Honorable Robert 
  Aderholt.......................................................   362
    Christian Minorities.........................................   362
    e-Verify.....................................................   362
    Family Reunification.........................................   363
    Naturalization Test..........................................   363
    Collaboration................................................   364
    Refugee Admittance Test......................................   365

    DEPARTMENT OF HOMELAND SECURITY FISCAL YEAR 2009 BUDGET REQUEST

Opening Statement of Chairman Price..............................   367
.................................................................
Opening Statement of Ranking Member Rogers.......................   369
Statement of Mr. Michael Chertoff, Secretary, U.S. Department of 
  Homeland Security..............................................   371
Border Fence Waivers...........................................374, 382
Border Fence Consultations...........................376, 383, 404, 408
Merida Initiative................................................   377
Homeland Security Grants.........................................   378
Container Scanning/Screening.....................................   380
Violence at the Southwest Border.................................   381
Operation Streamline.............................................   384
Border Fence.....................................................   387
Mexican Side of Border Fence.....................................   389
Material Support.................................................   389
Container Security...............................................   390
CBP Secondary Inspections........................................   395
CBP Procedures on Immigration Status.............................   396
REAL ID..........................................................   397
Secure Passports.................................................   400
BSFIT............................................................   404
Murder of Border Patrol Agent....................................   405
TSA Screening Strategy...........................................   406
FEMA Preparedness................................................   409
Model Ports of Entry.............................................   410
Visa Waiver Program..............................................   411
Administration Transition........................................   412
DHS Human Capital................................................   413
Criminal Alien Removal...........................................   415
DHS 5th Anniversary..............................................   416
Progress at DHS..................................................   417
Future Challenges................................................   417
U.S.-VISIT Exit Rule.............................................   419
Training for First Responders....................................   420
Gang Violence....................................................   420
Operation Coordination...........................................   421
Venezuela and the FARC...........................................   422
U.S. Relations with Latin America................................   423
Questions for the Record Submitted by Chairman Price.............   425
    Secure Border Initiative--Waiver Authority...................   425
    Re-issued SSA No-Match Regulations...........................   426
    National Applications Office.................................   428
    Preparedness Grants and Risk.................................   429
    Grants Pipeline..............................................   430
    Secure Border Initiative--Apprehensions......................   431
    Western Hemisphere Travel Initiative (WHTI) and Readiness....   431
    US-VISIT Exit................................................   432
    Investment Management Process................................   433
    Departmental Operations......................................   435
Questions for the Record Submitted by the Honorable Nita Lowey...   605
Questions for the Record Submitted by the Honorable Lucille 
  Roybal-Allard..................................................   608
    Material Support Waivers.....................................   608
    Detention Standards..........................................   609
    Transit Security Grant Program...............................   610
    Interoperability Plans.......................................   613
    Worksite Investigations......................................   615
    TWIC Card Enrollment Delay...................................   617
    Hawaiian Cruise Rule.........................................   620
Questions for the Record Submitted by the Honorable Sam Farr.....   622
    Waiver Question..............................................   622
    Disrupting Habitats, Wildlife Mitigation, Public, and Private 
      Land.......................................................   624
    Design or Development of less Disruptive Security Systems....   625
    Effectiveness of and Need for Pedestrian Fencing in Non-Urban 
      Areas......................................................   625
    Impacts of Pedestrian Fencing on Wildlife Migration Corridors   626
    Waiver.......................................................   628
    Border Buffer Program........................................   629
    Compliance with Immigration Reform and Immigrant 
      Responsibility Act of 1996.................................   630
    NPS Issues...................................................   635
    Jail Checks..................................................   641
    Detention Facilities.........................................   642
    Unmanned Aircraft Systems....................................   644
    e-Verify.....................................................   645
    Naturalization Backlog.......................................   647
    Proud to Be an American Citizen Act..........................   648
    Local INS Office.............................................   650
    Model Ports of Entry.........................................   651
    International Registered Traveler (USPASS)...................   652
    Western Hemisphere Travel Initiative.........................   653
Questions for the Record Submitted by the Honorable Chaka Fattah.   654
Questions for the Record Submitted by the Honorable Robert 
  Aderholt.......................................................   655
Questions for the Record Submitted by the Honorable John 
  Culberson......................................................   657
    REAL ID......................................................   657
    Cyber Security...............................................   658
    Information Sharing Security.................................   659
    Project 28...................................................   660

                                  <all>
</pre></body></html>
